1a
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
-----------------------------------------------------------------------

No. 17-2198
-----------------------------------------------------------------------

Mark F. MCCAFFREY,
Plaintiff - Appellant,
v.
MICHAEL L. CHAPMAN, in his personal capacity
and in his official capacity as Sheriff of Loudoun
County; BOARD OF SUPERVISORS OF LOUDOUN
COUNTY, VIRGINIA, in their official capacities;
LOUDOUN COUNTY, VIRGINIA,
Defendants - Appellees.
-----------------------------------------------------------------------

Appeal from the United States District Court for the
Eastern District of Virginia, at Alexandria. Anthony
John Trenga, District Judge. (1:17-cv-00937-AJT-IDD)
-----------------------------------------------------------------------

Argued: October 30, 2018

Decided: April 9, 2019

-----------------------------------------------------------------------

Before WILKINSON, KING, and QUATTLEBAUM,
Circuit Judges.
-----------------------------------------------------------------------

Affirmed by published opinion. Judge Quattlebaum
wrote the opinion, in which Judge Wilkinson joined.
Judge King wrote a dissenting opinion.

2a
-----------------------------------------------------------------------

ARGUED: Robert John Cynkar, MCSWEENEY, CYNKAR & KACHOUROFF PLLC, Woodbridge, Virginia,
for Appellant. Alexander Francuzenko, COOK CRAIG
& FRANCUZENKO, PLLC, Fairfax, Virginia, for Appellees. ON BRIEF: Patrick M. McSweeney, Powhatan,
Virginia, Christopher I. Kachouroff, MCSWEENEY,
CYNKAR & KACHOUROFF PLLC, Woodbridge, Virginia, for Appellant. Courtney Renee, OFFICE OF
LOUDOUN COUNTY ATTORNEY, Leesburg, Virginia,
for Appellees Board of Supervisors of Loudoun County,
Virginia and Loudoun County, Virginia.
-----------------------------------------------------------------------

QUATTLEBAUM, Circuit Judge:
This case arises from Sheriff Michael L. Chapman’s decision not to re-appoint Mark F. McCaffrey as
a deputy sheriff in Loudoun County, Virginia. In response, McCaffrey sued Sheriff Chapman, the Board of
Supervisors of Loudoun County and Loudoun County
(collectively “Appellees”). McCaffrey alleges that Sheriff Chapman did not re-appoint him because he supported Sheriff Chapman’s political opponent during
the re-election campaign. McCaffrey claims that Sheriff Chapman’s failure to re-appoint him for his political
disloyalty violated his First Amendment rights to freedom of political association and speech. The district
court found that the Elrod-Branti doctrine, which permits public officials to fire certain employees for their
support of a political opponent, precludes McCaffrey’s
First Amendment claims. Therefore, the district court

3a
dismissed McCaffrey’s complaint. For the reasons that
follow, we affirm.
I.
A.
A sheriff has the power, under Virginia law, to appoint deputy sheriffs.1 Appointments of deputy sheriffs
technically expire at the end of a sheriff ’s four-year
term, even if the sheriff is re-elected. In practice, deputy sheriffs are routinely re-appointed after each election.
McCaffrey started working in the Loudoun
County Sheriff ’s Office (“LCSO”) in 2005.2 In 2008, he
began working as a major crimes detective serving as
a lead detective in complex, high-profile cases. McCaffrey supported Sheriff Chapman when he first ran for
sheriff in 2011. However, when Sheriff Chapman ran
for re-election in 2015, McCaffrey supported his opponent.
McCaffrey placed a sign in his yard in support of
Sheriff Chapman’s opponent and served as a delegate
1

The history of the office of sheriff runs deep in the state of
Virginia. According to the National Sheriffs’ Association, the first
sheriff in America was Captain William Stone who, in 1634, was
appointed sheriff for the Shire of Northampton in the colony of
Virginia. Sheriff Roger Scott, Roots: A Historical Perspective of the
Office of Sheriff, NATIONAL SHERIFFS’ ASSOCIATION, https://www.
sheriffs.org/publications-resources/resources/office-of-sheriff (saved
as ECF opinion attachment).
2
The facts described are taken from the complaint since we
review the district court’s order granting a motion to dismiss pursuant to Rule 12(b)(6) of the Federal Rules of Civil Procedure.

4a
to the Republican convention in which the Republican
candidate for sheriff was chosen. McCaffrey also participated as an outside advisor in the screening of local
candidates for potential endorsement by the Board of
Directors of the local chapter of the Virginia Police Benevolent Association. McCaffrey did not speak publicly
about the election. He did not wear campaign apparel
or accessories. He did not use his LCSO position in support of Sheriff Chapman’s opponent.
Sheriff Chapman viewed McCaffrey’s support of
his opponent as disloyal. McCaffrey’s colleagues
warned McCaffrey that there would be consequences
for his disloyalty.
After Sheriff Chapman won re-election, McCaffrey
received a letter informing him that his appointment
as a deputy sheriff would not be renewed. In addition
to not reappointing McCaffrey, Sheriff Chapman lowered McCaffrey’s score on his final performance evaluation to prevent McCaffrey from receiving a bonus.
Sheriff Chapman also interfered with McCaffrey’s opportunity to be considered for a law enforcement position sponsored by the LCSO and a nearby municipal
police department.
B.
In response to Sheriff Chapman’s actions, McCaffrey filed a complaint against Appellees in Virginia
state court. McCaffrey alleged that Sheriff Chapman’s
decision not to re-appoint him violated his First
Amendment rights to freedom of political association

5a
and speech under both the United States and the Virginia Constitution. Appellees removed the case to federal court based on federal question jurisdiction.
Appellees then moved to dismiss McCaffrey’s complaint pursuant to Rule 12(b)(6) of the Federal Rules of
Civil Procedure. Appellees asserted that Sheriff Chapman’s decision not to re-appoint McCaffrey fell
squarely within an exception to the First Amendment
known as the Elrod-Branti exception. As described
more fully below, the Elrod-Branti exception, when applicable, allows public officials to terminate public employees for supporting a political opponent.
After oral argument, the district court found that
the Elrod-Branti exception applied and dismissed
McCaffrey’s complaint.3 McCaffrey appealed the order
of the dismissal. We have jurisdiction of this appeal
pursuant to 28 U.S.C. § 1291.

3

Since the district court found that Appellees did not infringe McCaffrey’s First Amendment rights, it did not need to consider whether McCaffrey adequately pled municipal liability for
his 42 U.S.C. § 1983 claims against the Board of Supervisors of
Loudoun County, Virginia and Loudoun County, Virginia.
McCaffrey also filed a partial motion for summary judgment
claiming, as a matter of law, Appellees’ conduct violated the First
Amendment. The district court denied this motion upon granting
Appellees’ motion to dismiss.

6a
II.
A.
This Court reviews a district court’s grant of a motion to dismiss de novo. Nemet Chevrolet, Ltd. v. Consumeraffairs.com, Inc., 591 F.3d 250, 253 (4th Cir.
2009). In exercising this de novo review, we follow the
well-settled standard for evaluating a motion to dismiss.
A plaintiff ’s complaint must set forth “a short and
plain statement . . . showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). Rule 8 “does not
require ‘detailed factual allegations.’ ” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007)). But a “complaint
must contain sufficient factual matter, accepted as
true, to ‘state a claim to relief that is plausible on its
face.’ ” Id. at 677. “A claim has facial plausibility when
the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the defendant is liable for the misconduct alleged.” Id. at 678.
In considering a motion to dismiss under Rule
12(b)(6), a court “accepts all well-pled facts as true and
construes these facts in the light most favorable to the
plaintiff. . . .” Nemet, 591 F.3d at 255. However, a court
should grant a Rule 12(b)(6) motion if, “after accepting
all well-pleaded allegations in the plaintiff ’s complaint
as true and drawing all reasonable factual inferences
from those facts in the plaintiff ’s favor, it appears certain that the plaintiff cannot prove any set of facts in

7a
support of his claim entitling him to relief.” Edwards v.
City of Goldsboro, 178 F.3d 231, 244 (4th Cir. 1999).
B.
On appeal, McCaffrey alleges that the district
court erred by dismissing his First Amendment claims.
McCaffrey’s appeal implicates two doctrines that provide exceptions to the First Amendment’s protections.
The first doctrine is known as the Elrod-Branti exception. Generally, the First Amendment’s right to
freedom of political association prohibits government
officials from terminating public employees solely for
supporting political opponents. However, under the Elrod-Branti exception, certain public employees can be
terminated for political association in order to give effect to the democratic process. See Branti v. Finkel, 445
U.S. 507 (1980); Elrod v. Burns, 427 U.S. 347 (1976).
The second doctrine is known as the PickeringConnick doctrine. The First Amendment’s right to freedom of speech generally prohibits dismissals of employees in retaliation for the exercise of protected
speech. However, under the Pickering-Connick doctrine, the First Amendment does not protect public employees from termination when their free speech
interests are outweighed by the government’s interest
in providing efficient and effective services to the public. See Connick v. Myers, 461 U.S. 138 (1983); Pickering
v. Board of Education, 391 U.S. 563 (1968).

8a
As noted above, the district court dismissed
McCaffrey’s complaint finding that Chapman’s decision to not re-appoint McCaffrey did not violate the
First Amendment because it fell within the ElrodBranti exception. The district court did not address the
Pickering-Connick doctrine. We address these doctrines in turn.
C.
Turning to the Elrod-Branti exception, we first review the case law that establishes and interprets the
exception. Then, we consider whether Sheriff Chapman’s dismissal of McCaffrey for supporting his political rival fell within the exception. Last, we address
McCaffrey’s specific challenges to the district court’s
findings regarding the exception.
1.
The Elrod-Branti exception to the First Amendment’s protection against political affiliation dismissals was created from two Supreme Court cases. In
Elrod, a plurality of the Supreme Court established
the general rule that dismissing public employees for
political affiliation violates their First and Fourteenth
Amendment rights by limiting their political belief and
association. However, the Supreme Court simultaneously carved out a narrow exception to this general
rule prohibiting patronage dismissals. A government
official does not violate a public employee’s First
Amendment rights when the employee is dismissed for

9a
political association if the employee holds a policymaking position. Elrod, 427 U.S. at 367. In creating this exception, the Supreme Court recognized the dangers of
the government’s interests being “undercut by tactics
obstructing the implementation of policies of the new
administration, policies presumably sanctioned by the
electorate.” Id.
In Branti, the Supreme Court clarified the exception announced in Elrod. The Court explained that “the
ultimate inquiry is not whether the label ‘policymaker’
or ‘confidential’ fits a particular position; rather, the
question is whether the hiring authority can demonstrate that party affiliation is an appropriate requirement for the effective performance of the public office
involved.” Branti, 445 U.S. at 518. The Court reasoned
that “if an employee’s private political beliefs would interfere with the discharge of his public duties, his First
Amendment rights may be required to yield to the
State’s vital interest in maintaining governmental effectiveness and efficiency.” Id. at 517.
Interpreting Elrod and Branti, this Court established a two-step inquiry for determining when party
affiliation is an appropriate job requirement. Stott v.
Haworth, 916 F.2d 134 (4th Cir. 1990). First, a court
must examine whether the position at issue relates to
partisan political interests. Id. at 141. If the “first inquiry is satisfied, the next step is to examine the particular responsibilities of the position to determine
whether it resembles . . . [an] office holder whose function is such that party affiliation is an equally appropriate requirement.” Id. at 142 (citing Jimenez Fuentes

10a
v. Torres Gaztambide, 807 F.2d 236, 241-42 (1st Cir.
1986)).
On several occasions, this Court has applied the
Elrod-Branti exception in the context of a sheriff dismissing a deputy for supporting the sheriff ’s opponent.
Most notably, in Jenkins v. Medford, 119 F.3d 1156,
1164 (4th Cir. 1997), this Court, sitting en banc, held
that under the Elrod-Branti exception a North Carolina sheriff could terminate his deputy sheriffs for
political affiliation. In determining that political affiliation was an appropriate job requirement, this Court
first recognized that the electorate generally chooses a
candidate based on policies and goals espoused by that
candidate. Id. at 1162. Thus, a sheriff owes a duty to
the electorate to ensure that those policies are implemented. Id.
This Court also found that deputy sheriffs play a
special role in implementing the sheriff ’s policies and
goals. Id. Deputy sheriffs on patrol exercise significant
discretion and make decisions that create policy. Id.
The sheriff relies on his deputies “to foster public confidence in law enforcement” and “to provide the sheriff
with the truthful and accurate information he needs to
do his job.” Id.
Next, this Court examined the specific roles of
sheriffs and deputies under North Carolina law. Id. at
1163. The North Carolina legislature has declared that
the offices of sheriff and deputy sheriff are of special
concern and prescribed a mandatory procedure for filling a sheriff vacancy. Id. Under North Carolina law, the

11a
sheriff may not delegate his duties but is able to appoint deputies to assist him. Id. For those appointed
deputies, the sheriff is liable for their misbehavior. Id.
Because a sheriff is liable for his deputies’ actions, the
legislature created deputies as at-will employees “who
‘shall serve at the pleasure of the appointing officer.’ ”
Id. at 1164 (quoting N.C. Gen. Stat. § 153A-103(2)
(1996)).
After examining the role of deputy sheriffs, this
Court determined that a deputy sheriff could appropriately be terminated for political affiliation under the
Elrod-Branti exception.
We hold that newly elected or re-elected sheriffs may dismiss deputies either because of
party affiliation or campaign activity. Either
basis serves as a proxy for loyalty to the sheriff.
We can think of no clearer way for a deputy to
demonstrate opposition to a candidate for
sheriff, and thus actual or potential disloyalty
once the candidate takes office, than to actively campaign for the candidate’s opponent. . . . “It was never contemplated that . . .
sheriffs . . . must perform the powers and duties vested in them through deputies or assistants selected by someone else,” and we do not
believe it was ever contemplated that a sheriff
must implement his policies and perform his
duties through deputies who have expressed
clear opposition to him.
Id. at 1164-65 (footnotes omitted).

12a
This Court then explained that our holding was
not based simply on a deputy sheriff ’s title. Instead
courts look to the actual duties of the position of deputy
sheriff. Specifically, we held:
We limit dismissals based on today’s holding
to those deputies actually sworn to engage in
law enforcement activities on behalf of the
sheriff. We issue this limitation to caution
sheriffs that courts examine the job duties of
the position, and not merely the title, of those
dismissed. Because the deputies in the instant case were law enforcement officers, they
are not protected by this limitation.
Id. at 1165 (footnotes omitted).4
Subsequently, in Bland v. Roberts, 730 F.3d 368
(4th Cir. 2013), this Court applied Jenkins and held
that the exception did not apply when a deputy sheriff
merely holds the title of deputy without engaging in
law enforcement activities. In Bland, three of the
plaintiffs were uniformed jailers with the title of deputy sheriff. Id. at 377. They were terminated for supporting the sheriff ’s electoral opponent. Id. at 371. This
Court held that the Elrod-Branti exception to the First
Amendment did not apply to them because the deputies in Bland had very different duties from the deputies in Jenkins. In Bland, the jailers’ authority was
4

It is clear our good colleague disapproves of Jenkins. He
says so directly in the first paragraph of his dissent and then attempts to explain away its plain language. However, in relying on
Jenkins, we are merely following the precedent of this Court, as
we must.

13a
more circumscribed, and their training was more concentrated on matters of custodial care and supervision
than the deputy sheriffs in Jenkins. Additionally, the
jailers in Bland did not have arrest power, did not take
the core law enforcement course and were not out in
the county engaging in law enforcement activities on
behalf of the sheriff. Id. at 379.5
Likewise, in Knight v. Vernon, this Court held that
political allegiance to an employer was not an appropriate job requirement for a low-level jailer position.
214 F.3d 544 (4th Cir. 2000). This Court found that a
jailer’s duties were “essentially custodial.” Id. at 551.
As a result, this Court held that the Elrod-Branti exception did not apply.
Our precedent, when considered together, provides
the framework for our Elrod-Branti analysis. We first
5

Bland clarifies that Jenkins was not “cabined” to North
Carolina sheriffs and deputy sheriffs as the dissent suggests.
Bland applied Jenkins to deputy sheriffs in Virginia, like we have
in this case. Although Bland concluded the Elrod-Branti exception did not apply in that case, its conclusion was based on the
duties of those deputy sheriffs. In Bland, the deputy sheriffs’ duties were those of uniformed jailers rather than sworn law enforcement officers. Bland’s conclusion was not based on any
differences in the law of North Carolina and Virginia concerning
sheriffs and deputy sheriffs. If Jenkins was “cabined” as the dissent suggests, Bland would have so indicated and decided the
case accordingly. Instead, Bland noted that the dispositive issue
in Jenkins was “the deputies’ role as sworn law enforcement officers” and that Jenkins indicated its “result might have been different had the deputies’ duties consisted of working as dispatchers.”
Bland, 730 F.3d at 377. McCaffrey’s duties were those of a sworn
law enforcement officer, not duties like those of a dispatcher. Accordingly, Bland supports, not conflicts, with our conclusion.

14a
look to the electorate’s approval of the policies on
which the sheriff ran and the duties and responsibilities of the deputy sheriff in implementing those policies and priorities. We then examine the law of Virginia
concerning the relationship between sheriffs and their
deputies.
2.
Using this framework, we now turn to the facts of
this case. Sheriff Chapman won an election for sheriff
after espousing positions on how the LCSO should be
run. As we have said before, “[e]lections mean something. Majorities bestow mandates.” Borzilleri v.
Mosby, 874 F.3d 187, 192 (4th Cir. 2017). Thus, Sheriff
Chapman should be entitled, and indeed Jenkins provides that he has a duty, to carry out the policies the
voters approved in the election.
Next, the allegations in McCaffrey’s complaint indicate his duties and responsibilities involved carrying out Sheriff ’s Chapman’s policies and priorities.
McCaffrey was a sworn deputy sheriff. He was a lead
investigator of high-profile crimes including rape, robbery and homicide investigations. McCaffrey received
the Loudoun County Investigator of the Month Award
three times and was part of the “Team of the Month”
three times. In 2015, McCaffrey was recognized for
closing violent crime cases at a rate that significantly
exceeded the national average. McCaffrey also received the Victim Services award from the Loudoun
County Commonwealth Attorney’s office. Like the

15a
deputy sheriffs in Jenkins and unlike the deputies in
Bland and Knight, McCaffrey engaged in law enforcement functions on behalf of the sheriff. Under our
precedent, a deputy sheriff with these duties and responsibilities falls within the Elrod-Branti exception.
As this Court has made clear, a sworn deputy sheriff like McCaffrey had a special role in carrying out the
law enforcement policies, goals and priorities on which
Sheriff Chapman campaigned and prevailed. Jenkins,
119 F.3d at 1162. Sheriff Chapman was entitled to
carry out the policies on which he ran and won with
deputy sheriffs who did not oppose his re-election. To
repeat what this Court said in Jenkins, “we do not believe it was ever contemplated that a sheriff must attempt to implement his policies and perform his duties
through deputies who have expressed clear opposition
to him.” Id. at 1165.
McCaffrey’s complaint illustrates the rationale
behind the Elrod-Branti exception. An entire section of
the complaint reads as a political attack ad against
Sheriff Chapman. McCaffrey attacks Sheriff Chapman’s character by accusing him of questionable fund
raising, expenditures and hiring practices. McCaffrey
alleges that Sheriff Chapman’s treatment of employees was abusive and malicious and that Sheriff Chapman acted unprofessionally. McCaffrey also accuses
Sheriff Chapman of mismanagement in the operations
of the LCSO. Requiring a sheriff to employ deputies
who have displayed the level of hostility portrayed in
this complaint could reasonably impede a sheriff ’s

16a
obligation to his electorate to implement the platform
on which he campaigned.
This does not mean that law enforcement responsibilities are or should be handled in a political manner. That, of course, should never be the case. Instead,
our decision is based on the reality, recognized in Jenkins, that sheriffs do and should carry out the policies,
goals and priorities on which they ran. Id. at 1162.
Sheriffs, by virtue of their executive roles, do not set
policy in the same way as those performing legislative
roles. But, in attempting to faithfully enforce the law,
they must make policy-oriented decisions about the allocation of manpower and financial resources. A deputy
sheriff necessarily carries out the sheriff ’s policies,
goals and priorities which were approved by the electorate in a political election. Id. at 1162-63.
Virginia law concerning the roles of sheriffs and
their deputies confirms that deputies performing law
enforcement functions have a policymaking role. Virginia’s legislature passed laws specific to the role of the
sheriff as a constitutional, elected officer. See Va. Code
§§ 15.2-1609-15.2-1625 (1997). Virginia law prescribes
a mandatory procedure for filling a vacancy in the
sheriff ’s office. See Va. Code § 15.2-1600. Virginia law
also specifies that sheriffs may appoint deputies to
“discharge any of the official duties of their principal
during his continuance in office. . . .” Va. Code § 15.21603. It further mandates that deputies “before entering upon the duties of his office, shall take and prescribe the oath. . . .” Id. Virginia law also provides that
“any such deputy may be removed from office by his

17a
principal.” Id. Additionally, a sheriff in Virginia is civilly and criminally liable for the acts of his deputy. See
Whited v. Fields, 581 F. Supp. 1444, 1455 (W.D. Va.
1984) (finding that “not only is the sheriff liable civilly
for the acts of his deputy in Virginia, but he also is liable criminally and can be fined for the conduct of his
deputy”). Similar to North Carolina law discussed in
Jenkins, the law of Virginia supports the conclusion
that a sworn deputy sheriff is the type of employee to
whom the Elrod-Branti exception applies.6
3.
Before concluding our Elrod-Branti analysis, we
address McCaffrey’s argument that the complaint, at a
minimum, states a plausible claim for relief. Specifically, McCaffrey alleges in the complaint that he was
not a policymaker for the LCSO, was not a spokesman
for the LCSO, and did not represent the sheriff or
6

The dissent emphasizes that Jenkins hinged on this Court’s
finding that in North Carolina, deputy sheriffs are alter egos of
sheriffs. The comparison of North Carolina and Virginia law
herein illustrates the laws of the two states on this point are substantially similar. However, Virginia case law is even more clear.
In Virginia, “the relationship between the sheriff and his deputy
is such that he is not simply the ‘alter ego’ of the sheriff, but he is
one and the same as the sheriff.” Whited, 581 F. Supp. at 1454
(citing Mosby’s Adm’r v. Mosby’s Adm’r, 50 Va. (9 Gratt.) 584, 60205 (1853)). See also Bd. of Sup’rs of Rockingham Cty. v. Lucas,
142 Va. 84, 128 S.E. 574, 576 (1925) (finding that “[i]n contemplation of [Virginia] law, both organic and statutory, a sheriff and a
deputy sheriff are one.”). Thus, to the extent it is necessary for a
deputy sheriff to be the alter ego of the sheriff to fall within Jenkins, that is clearly the case under Virginia law.

18a
speak on his behalf. McCaffrey further alleges that he
was far down the chain of command under Sheriff
Chapman’s para-military structure that governed the
LCSO’s 600 deputy sheriff force.
Since we are reviewing an order granting a Rule
12(b)(6) motion, we accept these allegations as true.
However, these allegations do not save the complaint.
In determining whether the deputy sheriff ’s duties
and responsibilities fall within the Elrod-Branti exception, Jenkins instructs that we look to whether McCaffrey was a deputy sheriff “actually sworn to engage in
law enforcement activities on behalf of the sheriff.”
Jenkins, 119 F.3d at 1166. Here, the allegations of the
complaint leave no doubt that he was a deputy sheriff
engaged in law enforcement activities and was not performing “custodial” duties like the deputies in Bland
and Knight. Therefore, even accepting the allegations
to which McCaffrey points as true, the Elrod-Branti
exception applies to McCaffrey and the allegations of
the complaint do not assert a plausible claim.
McCaffrey also argues that his allegations about
Sheriff Chapman’s post-termination downward adjustment of McCaffrey’s evaluation scores and interference with McCaffrey’s efforts to obtain other
employment removes this case from our precedent.
However, those allegations are not material to the
Elrod-Branti analysis. Such conduct might support a
state law claim such as interference with prospective
contractual relationship or other similar theories.
But we must look to the nature of the deputy sheriff ’s
duties, not the way in which he was terminated.

19a
Therefore, the post-termination allegations are of no
import here. Even accepting these post-termination allegations as true, we find that the Elrod-Branti exception applies and McCaffrey has failed to state a claim
that his First Amendment rights were violated.7
D.
Last, we turn to the Pickering-Connick doctrine.
McCaffrey argues that his complaint states a claim of
unconstitutional retaliation in response to McCaffrey’s
exercise of his free speech rights under Pickering-Connick. McCaffrey asserts that the district court erred by
not addressing this issue and by dismissing the lawsuit. However, even when applied, the Pickering-Connick doctrine does not create a plausible claim for
which relief can be granted.
The Supreme Court in Pickering recognized that a
cause of action exists for government employees who
suffered retaliation by an employer for the exercise of
the right guaranteed by the First Amendment to speak
as a citizen on a matter of public concern. Pickering,
391 U.S. at 574. Pickering established a balancing test
7

While we must faithfully apply the appropriate standard
for considering a Rule 12(b)(6) motion, this Court has previously
decided Elrod-Branti decisions at the pleading stage. For example, in Jenkins, this Court reversed the district court’s denial of
the sheriff ’s motion to dismiss and remanded the case to the district court to enter an order of dismissal. Jenkins, 119 F.3d at
1165. Further, in Borzilleri, we recently reviewed a district
judge’s grant of a motion to dismiss and found that the ElrodBranti exception applied. 874 F.3d at 189.

20a
where the government’s interest in the efficiency of the
public service it performs is weighed against the community’s interest in hearing the employees’ informed
opinions on important public issues. Borzilleri, 874
F.3d at 193-194 (citing Pickering, 391 U.S. at 568).
There are two threshold issues that must be met
to proceed to the balancing inquiry. Id. “First, we determine whether public employees’ statements can ‘be
fairly characterized as constituting speech on a matter
of public concern.’ ” Id. at 194 (citing Connick v. Myers,
461 U.S. 138, 146 (1983)). If so, then “we ask whether
public employees were speaking ‘pursuant to their official duties.’ ” Id. (citing Garcetti v. Ceballos, 547 U.S.
410, 421 (2006)). We must answer the first question in
the affirmative and the second in the negative to proceed to the balancing of interests. Id.
There is no dispute that the second threshold
question can be answered in the negative. McCaffrey
was not speaking pursuant to his official duties as a
deputy sheriff. As for the first threshold question, there
may be some question as to whether McCaffrey’s actions in supporting Sheriff Chapman’s opponent can be
characterized as “speech on a matter of public concern.” Connick, 461 U.S. at 146. However, we decline to
find that McCaffrey’s actions were not such speech.
Considering the action to be qualifying speech, the balancing inquiry nevertheless weighs in favor of Sheriff
Chapman, and thus we need not determine whether
McCaffery’s actions were the type of speech protected
in Pickering.

21a
As stated by this Court in Borzilleri, “[o]nce we
have found that the Elrod-Branti policymaker exception applies, the Pickering balance generally tips in favor of the government because of its overriding
interest in ensuring an elected official’s ability to implement his policies through his subordinates.” Id. at
194. This Court in Bland similarly found that “in cases
in which the Elrod-Branti exception applies, and an
employer therefore does not violate his employee’s association rights by terminating him for political disloyalty, the employer also does not violate his employee’s
free speech rights by terminating him for speech displaying that political disloyalty.” 730 F.3d at 394. We
see no reason to depart from that conclusion here. We
find that Sheriff Chapman had an overriding interest
in ensuring his ability to implement his policies
through his deputies. Therefore, the Pickering-Connick
does not save McCaffrey’s lawsuit from dismissal.
III.
In conclusion, we hold that under the Elrod-Branti
exception, Sheriff Chapman’s decision not to re-appoint McCaffrey did not violate his First Amendment
right to freedom of political association. We also hold
that Sheriff Chapman’s decision not to reappoint
McCaffrey did not violate his First Amendment right
to freedom of speech under the Pickering-Connick doctrine because the balancing test weighs in favor of

22a
Sheriff Chapman. For the reasons given, the district
court’s ruling dismissing the case is
AFFIRMED.

KING, Circuit Judge, dissenting:
Two decades ago, in Jenkins v. Medford, our en
banc majority concluded that the plaintiff North Carolina deputy sheriffs were the “alter ego” of the elected
sheriff and thus could be terminated for political reasons under the Elrod-Branti exception. See 119 F.3d
1156, 1164 (4th Cir. 1997) (en banc). The Jenkins dissenters protested — quite rightfully, in my view — that
the majority “ma[de] the Elrod-Branti exception into
the rule” and thereby “eviscerate[d] the First Amendment protections those cases guaranteed to government workers like the [plaintiffs].” Id. at 1169 (Motz,
J., dissenting). At least, however, Jenkins must be read
as predicated on specifics of North Carolina law and
limited to North Carolina deputy sheriffs engaged in
law enforcement activities. Unfortunately, that has not
constrained my esteemed colleagues from ruling today
— purportedly in reliance on Jenkins but actually going much farther — that any deputy sheriff tasked
with law enforcement anywhere is subject to political
firing. As explained further herein, I respectfully dissent.

23a
I.
In demonstrating that my friends have gone too
far, I begin with a discussion of the settled legal principles concerning the political firings of public employees and the considerations that undergird the
Elrod-Branti exception, with emphasis on the controlling Supreme Court authority. I also outline this
Court’s two-prong test for conducting a proper ElrodBranti analysis and then carefully examine our Jenkins v. Medford decision.
A.
The Supreme Court has underscored that, in most
situations, adverse employment actions based on political considerations “impermissibly encroach on First
Amendment freedoms.” See Rutan v. Republican Party
of Ill., 497 U.S. 62, 74 (1990). The Constitution’s prohibition against political firings is thus the default rule.
Politically motivated employment terminations, however, are permissible — under the Elrod-Branti exception — if those “practices are narrowly tailored to
further vital government interests.” Id.
In Elrod v. Burns in 1976, the Supreme Court recognized that the First Amendment protects public
employees from being fired “solely for the reason that
they were not affiliated with” a certain political party
or candidate. See 427 U.S. 347, 350 (1976) (plurality
opinion). According to the Court, conditioning the employment of a public servant on political loyalty “unquestionably inhibits protected belief and association,”

24a
and terminations of public employees for a lack of political loyalty penalize the exercise of those protected
rights. Id. at 359. Consistent with that principle, the
Court concluded that the Elrod plaintiffs — one of
whom was a chief deputy sheriff — had successfully
alleged claims for violations of their First Amendment
rights by specifying that they were fired by the sheriff
because of their party affiliations. Id. at 350, 373. But
the Court carved out the exception that, for certain policymaking positions, terminations based on political
allegiance — and the corresponding restraint on those
employees’ freedoms of belief and association — are
justified to safeguard our form of representative government. Id. at 367-68.
Just four years later, in Branti v. Finkel, the Court
refined Elrod’s policymaker exception and clarified
that political terminations are only permissible where
“the hiring authority can demonstrate that [political
loyalty] is an appropriate requirement for the effective
performance of the public office involved.” See 445 U.S.
507, 518 (1980). Accordingly, as the Court explained,
the labels that may be applied to a public employee,
such as “policymaker” or “confidential,” are not dispositive of whether that employee may be fired because of
political loyalty. Id.
Adhering to Supreme Court precedent, this Court
and our sister courts of appeals have recognized that
the Elrod-Branti exception is “narrow” and must always be applied with caution. See Bland v. Roberts, 730
F.3d 368, 374 (4th Cir. 2013) (“Elrod created a narrow
exception. . . .”); Stott v. Haworth, 916 F.2d 134, 140

25a
(4th Cir. 1990) (explaining that Elrod and Branti were
“specific, narrow application[s] of ” exception to principle against infringement of First Amendment rights
(internal quotation marks omitted)); see also Thompson v. Shock, 852 F.3d 786, 793 (8th Cir. 2017) (describing application of “narrow Elrod-Branti justification
test” (alteration and internal quotation marks omitted)); Hunt v. Cnty. of Orange, 672 F.3d 606, 611 (9th
Cir. 2012) (“[W]e have held that the [Elrod-Branti] exception is ‘narrow’ and should be applied with caution.”
(quoting DiRuzza v. Cnty. of Tehama, 206 F.3d 1304,
1308 (9th Cir. 2000))); Assaf v. Fields, 178 F.3d 170, 177
(3d Cir. 1999) (giving guidance as to when a position
will “meet the narrow Branti-Elrod exception”).
Again, the Elrod-Branti exception must always be
applied narrowly, to prevent the coercion of the beliefs
and associations of public servants. See O’Hare Truck
Serv., Inc. v. City of Northlake, 518 U.S. 712, 718 (1996)
(“Elrod and Branti establish that patronage does not
justify the coercion of a person’s political beliefs and
associations.”). At bottom, the Elrod-Branti exception
is reserved for those exceptional and “high-level” government positions for which interference with the “employees’ freedom to believe and associate” is justified
by the effective implementation of government policy.
See Rutan, 497 U.S. at 74-76.
B.
In Stott v. Haworth in 1990, our Judge Russell
identified the two-prong test for conducting the

26a
Elrod-Branti analysis. See 916 F.2d at 141-43. The
threshold inquiry is whether the position at issue implicates “partisan political interests or concerns.” Id. at
141 (alterations and internal quotation marks omitted). Thus, pursuant to the first prong of the Stott test,
we inspect whether “the position involve[s] government decisionmaking on issues where there is room for
political disagreement on goals or their implementation.” Id. (internal quotation marks omitted). If that
question is answered in the affirmative, we turn to the
Stott test’s second prong, under which we “examine the
particular responsibilities of the position to determine
whether it resembles a policymaker, a privy to confidential information, a communicator, or some other
office holder whose function is such that [political loyalty] is an equally appropriate requirement.” Id. at 142
(internal quotation marks omitted).
Although the first Stott prong “requires us to examine the issues dealt with by the employee ‘at a very
high level of generality,’ ” the second prong “ ‘requires a
much more concrete analysis of the specific position at
issue.’ ” See Bland, 730 F.3d at 375 (quoting Fields v.
Prater, 566 F.3d 381, 386 (4th Cir. 2009)). Significantly,
the Supreme Court and our Court have consistently
emphasized that we are obliged to examine the specific
duties of a “particular position,” not merely the general
nature thereof. See Branti, 445 U.S. at 518 (explaining
that the ultimate inquiry assesses whether politics is
“an appropriate requirement for the effective performance of the public office involved”); Stott, 916 F.2d at
142 (describing dispositive inquiry as “particular

27a
responsibilities” “of the public office in question” (internal quotation marks omitted)).
C.
In Jenkins v. Medford in 1997, our en banc majority acknowledged the Stott test and ruled that the Elrod-Branti exception permitted the political firings of
North Carolina deputy sheriffs engaged in law enforcement activities. See Jenkins, 119 F.3d at 1162-65. As
broad as that holding was, we have recognized that
Jenkins can be read even more broadly, to allow the political firings of any and all deputy sheriffs in North
Carolina. See id. at 1166 (Motz, J., dissenting) (protesting that “the majority broadly holds that all deputy
sheriffs in North Carolina — regardless of their actual
duties — are policymaking officials”); see also Bland,
730 F.3d at 377 (confronting “a significant amount of
language in [Jenkins] seemingly indicating that all
North Carolina deputies could be terminated for political reasons regardless of the specific duties of the particular deputy in question”). In the face of the “very
mixed signals” sent by Jenkins, however, we have resolved “that Jenkins is best read as analyzing the duties of the particular deputies before the court,” i.e.,
North Carolina deputies tasked with law enforcement.
See Bland, 730 F.3d at 391. Indeed, that is the only way
to read Jenkins in a manner even arguably consistent
with the controlling Supreme Court precedent.
Although it did not explicitly refer to the first Stott
prong in doing so, the Jenkins majority began its

28a
Elrod-Branti analysis with what was apparently an inquiry into how the position of deputy sheriff relates to
partisan political interests or concerns. See Jenkins,
119 F.3d at 1162-63. Invoking decisions of other courts
of appeals, Jenkins determined that a sheriff ’s election
by popular vote “indicates voter approval of [the sheriff ’s] espoused platform and general agreement with
[his] expressed political agenda”; “[t]he sheriff owes a
duty to the electorate and the public at large to ensure
that his espoused policies are implemented”; and
“[d]eputy sheriffs play a special role in implementing
the sheriff ’s policies and goals.” Id. at 1162 (internal
quotation marks omitted). As examples of the “special
role” that may be played by deputies in implementing
the sheriff ’s policies and goals, Jenkins specified that
deputies may be included in the sheriff ’s “core group of
advisors,” may “work autonomously” while “exercising
significant discretion,” and may “make some decisions
that actually create policy.” Id. (internal quotation
marks omitted). Jenkins further noted that the sheriff
may rely “on his deputies to foster public confidence in
law enforcement” and expect them to provide “the
truthful and accurate information he needs to do his
job.” Id. Finally, Jenkins observed that, “[i]n some jurisdictions, the deputy sheriff is the general agent of
the sheriff, and the sheriff is civilly liable for the acts
of his deputy.” Id. at 1162-63.
The Jenkins majority only then turned, albeit
without naming the second Stott prong, to the ElrodBranti inquiry concerning the particular responsibilities of the plaintiff North Carolina deputy sheriffs. See

29a
Jenkins, 119 F.3d at 1163 (“[W]e now consider the specific political and social roles of sheriffs and their deputies in North Carolina.”). That examination led to the
following holding:
[We] conclude that in North Carolina, the office of deputy sheriff is that of a policymaker,
and that deputy sheriffs are the alter ego of
the sheriff generally, for whose conduct he is
liable. We therefore hold that such North Carolina deputy sheriffs may be lawfully terminated for political reasons under the ElrodBranti exception to prohibited political terminations.
Id. at 1164 (emphasis added).
The North Carolina deputy sheriffs’ role as “the alter ego of the sheriff generally” was plainly crucial to
the Jenkins majority and an explicit part of its succinct
holding. In designating North Carolina deputy sheriffs
as the sheriff ’s alter ego, Jenkins relied on a combination of factors. Of obvious and exceptional importance,
Jenkins highlighted that the North Carolina legislature had “recognized the special status of sheriffs’ deputies in the eyes of the law.” See 119 F.3d at 1163.
Specifically, Jenkins pointed to the legislature’s findings related to sheriffs and their deputies. As part of
those findings, as quoted in Jenkins, the legislature related that “ ‘[t]he deputy sheriff has been held by the
Supreme Court of this State to hold an office of special
trust and confidence, acting in the name of and with
powers coterminous with his principal, the elected
sheriff.’ ” Id. (quoting N.C. Gen. Stat. § 17E-1).

30a
The Jenkins majority elaborated that, although
“[t]he sheriff may not delegate final responsibility for
his official duties, . . . he may appoint deputies to assist
him [and] can be held liable for the misbehavior of the
deputies.” See 119 F.3d at 1163 (citing, inter alia, N.C.
Gen. Stat. § 162-24). Additionally, Jenkins cited the
North Carolina legislature’s declaration “that ‘[t]he offices of sheriff and deputy sheriff are . . . of special concern to the public health, safety, welfare and morals of
the people of the State,’ ” as well as the legislature’s
mandatory procedure for filling a vacancy in the office
of sheriff by accepting the recommendation of the
elected sheriff ’s political party. Id. (citing N.C. Gen.
Stat. §§ 17E-1, 162-5.1). Jenkins also recognized that
— presumably due to the special status of North Carolina deputy sheriffs — “the legislature has made deputies at-will employees, who ‘shall serve at the
pleasure of the appointing officer.’ ” Id. at 1163-64
(quoting N.C. Gen. Stat. § 153A-103(2)).
Notwithstanding the language indicating that all
North Carolina deputy sheriffs are policymakers subject to political firings, the Jenkins majority eventually
cabined its decision to those deputies whose particular
functions rendered them “the alter ego of the sheriff
generally,” i.e., “those deputies actually sworn to engage in law enforcement activities on behalf of the
sheriff.” See 119 F.3d at 1165. Moreover, Jenkins is replete with language that limits its pronouncements to
North Carolina deputies tasked with law enforcement.
See, e.g., id. at 1163 (turning to analysis of “specific political and social roles of sheriffs and their deputies in

31a
North Carolina” (emphasis added)); id. at 1164 (concluding that “in North Carolina, the office of deputy
sheriff is that of a policymaker, and that deputy sheriffs are the alter ego of the sheriff generally, for whose
conduct he is liable” (emphasis added)); id. (“hold[ing]
that such North Carolina deputy sheriffs may be lawfully terminated for political reasons” (emphasis
added)).
Although it did not explicitly peg its analysis to
the two Stott prongs, the Jenkins majority also underscored the applicability of the Stott test and the need
to examine the particular position at issue. See Jenkins, 119 F.3d at 1164 (instructing that “the district
courts are to engage in a Stott-type analysis, examining the specific position at issue, as we have done here
today”); id. at 1165 (explaining “that courts examine
the job duties of the position, and not merely the title,
of those dismissed”).
After announcing its core holding, the Jenkins majority considered what bases may “serve[ ] as a proxy
for loyalty to the sheriff ” and further “h[eld] that newly
elected or re-elected sheriffs may dismiss deputies either because of party affiliation or campaign activity.”
See 119 F.3d at 1164. The Jenkins majority then took
the opportunity to suggest that all deputy sheriffs everywhere should be subject to political firing, remarking:
We can think of no clearer way for a deputy to demonstrate opposition to a candidate
for sheriff, and thus actual or potential

32a
disloyalty once the candidate takes office,
than to actively campaign for the candidate’s
opponent. . . . It was never contemplated that
sheriffs must perform the powers and duties
vested in them through deputies or assistants
selected by someone else, and we do not believe it was ever contemplated that a sheriff
must attempt to implement his policies and
perform his duties through deputies who have
expressed clear opposition to him.
Id. at 1164-65 (alterations and internal quotation
marks omitted). Nevertheless, it was at that point that
the Jenkins majority “limit[ed] dismissals based on today’s holding” — the holding that North Carolina deputy sheriffs are subject to political firings as “the alter
ego of the sheriff generally” — “to those deputies actually sworn to engage in law enforcement activities on
behalf of the sheriff.” Id. at 1165. In other words, the
Jenkins majority recognized that it was constrained to
place some limitations on the Elrod-Branti exception,
despite its apparent desire to apply the exception to all
deputy sheriffs everywhere.
Indeed, that Jenkins limited its holding to North
Carolina deputy sheriffs engaged in law enforcement
activities as “the alter ego of the sheriff generally,” and
that it insists upon a position-specific Elrod-Branti
analysis, is ultimately supported by not only Jenkins
itself, but also more recent decisions of this Court.
Those decisions include Bland, wherein we explained
that, “to be true to Jenkins, we too must consider
whether requiring political loyalty was an appropriate
requirement for the effective performance of the public

33a
employment of the deputies before us in light of the
duties of their particular positions.” See 730 F.3d at
377. They also include Lawson v. Union County Clerk
of Court, wherein we clarified that — in assigning the
“alter-ego” designation to the Jenkins plaintiffs — the
Jenkins majority’s “analysis focused on the fact that
deputy sheriffs held a special position under North
Carolina law, in that they ‘act[ed] in the name of and
with powers coterminous with [their] principal, the
elected sheriff.’ ” See 828 F.3d 239, 249 (4th Cir. 2016)
(alterations in original) (quoting Jenkins, 119 F.3d at
1163).
II.
As the foregoing discussion shows, there is simply
no basis in precedent — including the Jenkins v.
Medford decision on which my good colleagues almost exclusively rely — to properly conclude that the
Elrod-Branti exception allowed the political firing of
plaintiff Mark McCaffrey from his position as a deputy
sheriff in Virginia by Loudoun County Sheriff Michael
Chapman. Indeed, any valid effort to analogize this
matter to Jenkins would have to end with this: Nothing
in McCaffrey’s complaint or Virginia law establishes
that McCaffrey was “the alter ego of [Sheriff Chapman]
generally” and thus a policymaker who could lawfully
be terminated for political reasons. See Jenkins v. Medford, 119 F.3d 1156, 1164 (4th Cir. 1997) (en banc).
Specifically, McCaffrey’s complaint relates that he
was a “major crimes detective” and “lead” investigator

34a
who was “highly successful” and repeatedly awarded
for his service. See McCaffrey v. Chapman, No. 1:17cv-00937, at ¶¶ 6, 12 (E.D. Va. Aug. 21, 2017), ECF No.
1-2, (the “Complaint”).1 The Complaint explicitly disclaims, however, that McCaffrey was either “a policymaker” or “a spokesperson” for the sheriff ’s office. Id.
¶¶ 13-14. As the Complaint explains, the sheriff ’s office maintained “a strict, paramilitary chain-of-command structure,” with Sheriff Chapman at the top and
his seven “Senior Commanders” as the “Command
Staff ” tasked with supporting Chapman and advising
him on policy matters. Id. ¶¶ 55-57. Employees like
McCaffrey lower in the chain of command were “not
policymakers” and did not “advise the Sheriff and the
Command Staff on matters of policy.” Id. ¶ 57. Moreover, Chapman insisted on being “the only ‘voice’ and
‘face’ of the [sheriff ’s department] to the outside
world.” Id. ¶ 58. Chapman imposed limitations on the
authority and discretion of his deputies — including
McCaffrey — through the Sheriff ’s General Orders. Id.
¶ 37.2
1

In his Complaint, McCaffrey alleges four claims, each premised upon his termination by Sheriff Chapman due to McCaffrey’s
support of Chapman’s political opponent. McCaffrey pursues two
claims against Chapman, primarily a 42 U.S.C. § 1983 claim for
contravention of McCaffrey’s rights under the First Amendment,
plus an equivalent state claim for violation of the Virginia Constitution. McCaffrey also alleges derivative claims against
Loudoun County and its Board of Supervisors.
2
Because the Sheriff ’s General Orders are incorporated into
the Complaint by reference, they are properly considered here.
See Tellabs, Inc. v. Makor Issues & Rights, Ltd., 551 U.S. 308, 321
(2007).

35a
The Sheriff ’s General Orders confirm that
McCaffrey’s position was near the bottom of the chain
of command. Criminal cases were assigned to McCaffrey and other lead detectives only after having been
screened by a section supervisor. See General Order
411.9(III)(E)(2). Once assigned, McCaffrey had the authority to conduct routine investigative tasks, such as
interviewing witnesses and collecting evidence. Id.
411.12. But such investigative work was subject to
“continuous screening” by supervisors in the sheriff ’s
office in order for those supervisors to “better control
the investigative efforts, workload and potential for
success of their personnel and section.” Id.
411.9(III)(E)(2)(d).
Meanwhile, there simply is no Virginia law that,
like the North Carolina law crucial to the Jenkins holding, confers a “special status” on deputy sheriffs and
accords them “ ‘powers coterminous with . . . the
elected sheriff.’ ” See Jenkins, 119 F.3d at 1163 (quoting
N.C. Gen. Stat. § 17E-1). That is, there is no Virginia
law that renders deputies “the alter ego of the sheriff
generally.” See id. at 1164. Rather, Virginia statutes enacted in 1997 permit the sheriff to appoint deputies
“who may discharge any of the official duties of their
principal,” see Va. Code Ann. § 15.2-1603 (emphasis
added), but empower the sheriff to set “the terms and
conditions” for the appointment of his deputies, see id.
§ 15.2-1600(B). As the Complaint and the General Orders establish, Sheriff Chapman did not opt to make
McCaffrey his alter ego by exercising discretion to give
McCaffrey powers coterminous with his. Cf. Lawson v.

36a
Union Cnty. Clerk of Court, 828 F.3d 239, 249 (4th Cir.
2016) (explaining that Elrod-Branti exception did not
apply under Jenkins where statute authorized deputy
to perform all functions of court clerk, but court clerk
did not assign deputy policymaking duties).
Remarkably, today’s panel majority does not even
mention “coterminous” powers and barely discusses
the “alter ego” language of Jenkins. In a footnote, the
majority observes that this “dissent emphasizes that
Jenkins hinged on this Court’s finding that in North
Carolina, deputy sheriffs are alter egos of sheriffs.” See
ante 16 n.6. Relying on an outdated federal district
court decision and two even older decisions of the Supreme Court of Appeals of Virginia, the majority then
declares that “Virginia case law” is “clear” that a deputy sheriff “ ‘is not simply the “alter ego” of the sheriff,
but he is one and the same as the sheriff.’ ” Id. (quoting
Whited v. Fields, 581 F. Supp. 1444, 1454 (W.D. Va.
1984), and citing Bd. of Supervisors v. Lucas, 142 Va.
84, 128 S.E. 574 (1925), and Mosby’s Adm’r v. Mosby’s
Adm’r, 50 Va. (9 Gratt.) 584 (1853)). Critically, the decisions invoked by the majority long pre-date the 1997
Virginia statutes authorizing sheriffs to decide which
of their powers to confer upon — and to withhold
from — their deputies. Moreover, neither of the Virginia decisions ruled or contemplated that Virginia
deputy sheriffs ever possessed powers that would render them the “alter ego” of the sheriff under Jenkins,
i.e., powers coterminous with those of the sheriff. See
Lucas, 128 S.E. at 576 (concluding that a deputy was
subject to an elected sheriff ’s exclusion from the

37a
Virginia Workmen’s Compensation Act, in that “[a]
deputy can only come into being by virtue of the appointment of a sheriff ” and thus “a sheriff and a deputy
sheriff are one” under the law); Mosby’s Adm’r, 50 Va.
(9 Gratt.) at 602-05 (explaining when sheriff may, and
may not, be considered “one” with his deputy and
thereby held liable for deputy’s acts).
Aside from its cursory and unsound “alter ego” discussion, the majority cherry picks other language from
Jenkins and distorts that decision to even more
broadly hold that any deputy sheriff tasked with law
enforcement anywhere may be terminated for political
reasons. See ante 12 n.5 (asserting that “Jenkins was
not ‘cabined’ to North Carolina sheriffs and deputy
sheriffs as the dissent suggests”). The majority particularly relies on the discussion in Jenkins that began,
“We hold that newly elected or re-elected sheriffs may
dismiss deputies either because of party affiliation or
campaign activity,” and that included the commentary,
“[W]e do not believe it was ever contemplated that a
sheriff must attempt to implement his policies and perform his duties through deputies who have expressed
clear opposition to him.” See Jenkins, 119 F.3d at 116465.
To be sure, that passage in Jenkins conveyed the
message that all deputy sheriffs everywhere should be
subject to political firings. Jenkins simply gave that
commentary, however, in the course of explaining that
— where a deputy sheriff falls within the Elrod-Branti
exception based on his particular functions — he can
be terminated for either his “party affiliation” or his

38a
“campaign activity.” Contrary to the majority, that discussion did not constitute a “holding” that each and
every deputy sheriff who has “ ‘expressed clear opposition to [the sheriff ]’ ” may be fired. See ante 11 (quoting
Jenkins, 119 F.3d at 1165); see also id. at 14 (asserting
that “Sheriff Chapman was entitled to carry out the
policies on which he ran and won with deputy sheriffs
who did not oppose his re-election”).
The majority further misrepresents Jenkins to
simply instruct that, “[i]n determining whether the
deputy sheriff ’s duties and responsibilities fall within
the Elrod-Branti exception, . . . we look to whether
[the] deputy sheriff [was] ‘actually sworn to engage in
law enforcement activities on behalf of the sheriff.’ ”
See ante 16 (quoting Jenkins, 119 F.3d at 1165). According to the majority, Jenkins “made clear” that “a sworn
deputy sheriff like McCaffrey had a special role in carrying out the law enforcement policies, goals and priorities on which Sheriff Chapman campaigned and
prevailed.” Id. at 14. That is, all that matters to the
majority’s Elrod-Branti analysis is that the allegations
of the Complaint — indicating that McCaffrey “was a
lead investigator of high-profile crimes” and received
awards and recognition for his work — establish that
“McCaffrey engaged in law enforcement functions on
behalf of the sheriff.” Id. at 13. The majority expressly
discounts the fact that, under the Complaint, McCaffrey was neither a policymaker nor a spokesperson for
the sheriff ’s office, and that, pursuant to the Sheriff ’s
General Orders, McCaffrey had circumscribed powers

39a
and was not high enough in the chain-of-command to
have a policymaking role. Id. at 16.3
Of course, as Jenkins itself emphasized and our
Court has repeatedly recognized over the years, Jenkins did not hold that law enforcement responsibilities
render any deputy sheriff eligible for political firing.
Rather, Jenkins actually held that North Carolina
deputy sheriffs tasked with law enforcement are policymakers who fall within the Elrod-Branti exception
because, under North Carolina law, they are “the alter
ego of the sheriff generally.” See 119 F.3d at 1164. Before today, the chief criticism of Jenkins was that it
could be read to authorize the political firings of any
and all North Carolina deputy sheriffs, no matter their
job responsibilities. But now, Jenkins has been interpreted even more broadly and egregiously, to allow the
political firings of any and all deputy sheriffs

3

As the majority would have it, Jenkins and our subsequent
precedent have established a test under which a deputy sheriff is
either subject to political firing because he is tasked with law enforcement, or protected from political firing because he is a lowlevel jailer whose duties are “custodial.” See ante 16-17 (reasoning
that “the Elrod-Branti exception applies to McCaffrey” because
his Complaint “leave[s] no doubt that he was a deputy sheriff engaged in law enforcement activities and was not performing ‘custodial’ duties like the deputies in [Bland v. Roberts, 730 F.3d 368
(4th Cir. 2013), and Knight v. Vernon, 214 F.3d 544 (4th Cir.
2000)]”); see also id. at 12 n.5. Nonetheless, there is no support for
such a simplistic test in Jenkins, Bland, or Knight, which all recognize that the Elrod-Branti analysis requires an examination of
the specific duties of the particular position at issue to assess
whether political loyalty is an appropriate job requirement.

40a
anywhere, so long as they are simply tasked with law
enforcement.
In ruling as it does, the majority not only misreads
Jenkins, but also disregards other controlling precedent of this Court and the Supreme Court. Contrary to
our instruction that “low-level policymaking authority
does not outweigh an employee’s First Amendment
rights of political affiliation,” the majority has made
political firings a possibility for middle- and lower-level
government employees. See Fields v. Prater, 566 F.3d
381, 387 (4th Cir. 2009) (alterations and internal quotation marks omitted). Merely by performing “law enforcement activities,” any beat cop in our bailiwick can
now be fired for not having the right political association. Such a result was never contemplated by the Supreme Court in developing what is supposed to be the
narrow Elrod-Branti exception. See Rutan v. Republican Party of Ill., 497 U.S. 62, 74, 76 (1990) (explaining
that the narrow Elrod-Branti exception applies to only
“certain high-level employees,” as “[t]he First Amendment prevents the government, except in the most
compelling circumstances, from wielding its power to
interfere with its employees’ freedom to believe and associate, or to not believe and not associate”). And it
should not be countenanced by our Court.
III.
Conducting a proper assessment of McCaffrey’s
deputy sheriff position, we can assume under the first
prong of our Stott test that — “at a very high level of

41a
generality,” see Fields v. Prater, 566 F.3d 381, 386 (4th
Cir. 2009) — the position implicates “partisan political
interests or concerns.” See Stott v. Haworth, 916 F.2d
134, 141 (4th Cir. 1990) (alterations and internal quotation marks omitted). That is, we can rely here on
what was apparently the first Stott prong analysis in
Jenkins v. Medford, 119 F.3d 1156, 1162-63 (4th Cir.
1997) (en banc) (explaining, inter alia, that deputy
sheriffs generally “play a special role in implementing
the sheriff ’s policies and goals,” as espoused by the
sheriff on the campaign trail).4
Turning to the second Stott prong, however, the allegations of the Complaint reveal that McCaffrey did
not act as “a policymaker, a privy to confidential information, a communicator, or some other office holder”
4

My willingness to assume that the first Stott prong has
been satisfied should not be interpreted as an endorsement of the
Jenkins analysis. I have serious doubts as to whether that analysis was too general, and whether it should have focused more on
deputies with the job responsibilities of the plaintiffs. Here, that
would mean looking at boots-on-the-ground investigators of violent crimes like McCaffrey. I question whether such a deputy can
ever make decisions that leave room for political disagreement, as
we should always adhere to the principle that “[p]olitics should
not be an active ingredient of good law enforcement.” See Mitchell
v. Thompson, 18 F.3d 425, 428 (7th Cir. 1994) (Wood, J., dissenting). In any event, I certainly do not sanction the panel majority’s
analysis, which focused on McCaffrey specifically but invented
facts in so doing. Notwithstanding the Complaint’s silence as to
Sheriff Chapman’s campaign platform, the majority pronounces
that “Chapman won an election for sheriff after espousing positions on how the [sheriff ’s office] should be run,” and that McCaffrey’s “duties and responsibilities involved carrying out . . .
Chapman’s policies and priorities.” See ante 13.

42a
for whom political considerations are appropriate job
requirements. See Stott, 916 F.2d at 142 (internal quotation marks omitted). McCaffrey’s limited realm of investigative duties, although important, neither
required nor benefitted from “a particular political philosophy.” See Lawson v. Union Cnty. Clerk of Court, 828
F.3d 239, 248 (4th Cir. 2016). Furthermore, given the
constraints on his job performance and his position at
the bottom of Sheriff Chapman’s chain of command,
McCaffrey’s duties did not involve “setting or implementing a policy agenda.” See id. at 249.
That McCaffrey worked on important cases in a
“lead” role does not mean that his employment was
subject to political considerations. See Lawson, 828
F.3d at 249 (explaining that supervisory title does not
establish that employee was policymaker). Indeed, as
we have consistently made clear, “a supervisory employee does not automatically hold a position that is
subject to the Elrod-Branti exception.” See id.; see also
Fields, 566 F.3d at 387 (recognizing that supervisory
responsibilities alone do not permit application of Elrod-Branti exception). A managerial role over a limited
number of employees and decisions does not necessitate that a person in such a position has “broad policy
setting power.” See Lawson, 828 F.3d at 249. And because of the strict hierarchy in Sheriff Chapman’s office, as well as the levels of approval and screening
incorporated therein, McCaffrey merely performed
routine investigative tasks and lacked any “broad policy setting power.” Although those responsibilities involved “some discretion,” discretion does not alone

43a
make a deputy a “policymaker,” for which political allegiance is an appropriate job requirement. See Bland
v. Roberts, 730 F.3d 368, 378 (4th Cir. 2013). To conclude otherwise would leave “only the most low-level
government employees” protected from political firings. See Fields, 566 F.3d at 387.
McCaffrey’s achievements and commendations for
his exemplary service also do not render him subject to
political firing. In 2015 — the year that McCaffrey was
terminated because of politics — he received the
“Loudoun County Investigator of the Month Award”
three times, and also was part of a team designated as
“Team of the Month” on three occasions. See Complaint
¶ 12. And it was not just his coworkers at the sheriff ’s
office who recognized McCaffrey’s good work; the local
commonwealth’s attorney awarded McCaffrey the
“Victim Services Award” in 2014. Id. Those commendations show McCaffrey’s effectiveness, which was also
illustrated by his case closure rate that greatly exceeded the national average. Id. But McCaffrey’s stellar work does not establish that he possessed the broad
discretion that would remove his First Amendment
protections and render him subject to the Elrod-Branti
exception. A law enforcement officer can excel in his
duties without becoming a policymaker. Indeed, it
would be odd to permit a law officer to be fired for political reasons because of his success. If anything, the
commendations for good work received by McCaffrey
show that he performed his duties as a deputy sheriff
without exceeding his authority, responded appropriately to his supervisors, and adhered to their orders.

44a
On the other hand, McCaffrey’s awards fail to show
that “there is a rational connection between shared
[political] ideology and job performance.” See Stott, 916
F.2d at 142 (internal quotation marks omitted).
Finally, the statutory provisions governing Virginia law enforcement support the conclusion that the
Elrod-Branti exception does not apply here. As we
have recognized, “whether state law prohibits politically-based hiring for a particular position is relevant
to whether political [allegiance] is necessary for effective job performance.” See Fields, 566 F.3d at 388 (internal quotation marks omitted). And the Virginia
Code explicitly prohibits “law-enforcement officers
[from] discriminat[ing] against any employee or applicant for employment because of that person’s political
affiliations or political activities.” See Va. Code Ann.
§ 15.2-1512.2(D). Virginia law also provides that a deputy sheriff may not be prohibited from “voting”; “expressing opinions, privately or publicly, on political
subjects and candidates”; “displaying a political picture, sign, sticker, badge, or button”; “participating in
the activities of . . . a political candidate or campaign”;
or “attending or participating in a political convention.” Id. § 15.2-1512.2(B)-(C). Virginia law thus confirms the impermissibility of McCaffrey being fired for
a lack of political loyalty. In these circumstances,
McCaffrey is entitled to proceed with his claims.5
5

As a final point, the majority has implicitly ruled that the
district court erred in failing to assess McCaffrey’s claims under
the Pickering and Connick decisions. See Pickering v. Bd. of
Educ., 391 U.S. 563 (1968); Connick v. Myers, 461 U.S. 138 (1983).

45a
IV.
Pursuant to the foregoing, I would vacate the district court’s dismissal of McCaffrey’s Complaint and
remand for further proceedings.
I therefore respectfully dissent.

Rather than remand to rectify that error, however, the majority
itself has conducted the fact-intensive Pickering-Connick analysis
and resolved the issue in favor of the defendants. It bears emphasizing that “we are a court of review, not of first view.” See Lovelace v. Lee, 472 F.3d 174, 203 (4th Cir. 2006) (quoting Cutter v.
Wilkinson, 544 U.S. 709, 718 n.7 (2005)).

46a
2017 WL 4553533
Only the Westlaw citation is currently available.
United States District Court,
E.D. Virginia,
Alexandria Division.
Mark F. MCCAFFREY, Plaintiff,
v.
Michael L. CHAPMAN, et al., Defendants.
Civil Action No. 1:17–cv–937 (AJT/IDD)
|
Signed 10/12/2017
Robert J. Cynkar, Patrick Michael McSweeney,
McSweeney Cynkar & Kachouroff PLLC, Great Falls,
VA, for Plaintiff.
Alexander Francuzenko, Michael David Arena,
Cook Craig & Francuzenko PLLC, Fairfax, VA, Courtney Renee Sydnor, Office of the County Attorney,
Leesburg, VA, for Defendants.
MEMORANDUM OPINION
Anthony J. Trenga, United States District Judge
Plaintiff Mark F. McCaffrey was a Deputy Sheriff
in the Loudoun County Sheriff ’s Office (“LCSO”) until
December 31, 2015. In this action, he alleges that Defendant Michael L. Chapman, the incumbent Sheriff
of Loudoun County, failed to reappoint him in retaliation for McCaffrey’s support of Chapman’s political
opponent and that Loudoun County and its Board of
Supervisors (“County Defendants”) had an obligation
to intervene and failed to do so. More specifically,

47a
McCaffrey alleges that Defendants’ actions infringed
his rights under the First Amendment of the United
States Constitution in violation of 42 U.S.C. § 1983 as
well as his rights under Article I, Section 12 of the Virginia Constitution (“Section 12”), which he asserts creates a common law cause of action for damages.
Presently pending before the Court are Defendant
Chapman’s Motion to Strike [Doc. No. 5]; Defendant
Chapman’s Motion to Dismiss [Doc. No. 7]; Defendants
Loudoun County and the Board of Supervisors of
Loudoun County’s (“County Defendants”) Motion to
Dismiss Counts II and IV of the Complaint [Doc. No.
9]; and Plaintiff McCaffrey’s Motion for Partial Summary Judgment [Doc. No. 17]. For the reasons set forth
below, McCaffrey, by virtue of the nature of his position
as Deputy Sheriff, as alleged in his Complaint, falls
within the Elrod–Branti exception to the general rule
that public employees may not be terminated in retaliation for political speech. Accordingly, Defendants’
Motions to Dismiss will be GRANTED, McCaffrey’s
Motion DENIED, all other motions DENIED as moot
and this action DISMISSED.
I.

FACTUAL BACKGROUND

McCaffrey alleges the following facts, which the
Court accepts as true for the purposes of the pending
motions.
Prior to December 31, 2015, McCaffrey was a detective in the LCSO major crimes unit. Complaint
[Doc. No. 1, Exhibit 2] (“Compl.”) ¶ 11. Before coming

48a
to the LCSO in 2005, McCaffrey was a police officer for
twenty years in Westchester County, New York and
New York City. Compl. ¶ 11. In the course of his duties
in the major crimes unit at LCSO, McCaffrey “served
as the lead detective in complex, high-profile cases,
including rape, robbery and homicide investigations.”
Compl. ¶ 12. McCaffrey’s duties as deputy sheriff and
lead investigator included communicating with the
Commonwealth’s Attorney and the Medical Examiner’s Office on behalf of the LCSO and coordinating
their resources with those of the LCSO. Comp. ¶ 74h.
Chapman has been Sheriff of Loudoun County,
Virginia since January 2012. Compl. ¶ 15. Sheriffs in
the Commonwealth of Virginia are elected to four year
terms. While in office, sheriffs are authorized to appoint deputy sheriffs to assist in the conduct of the
sheriff ’s duties. These deputies’ appointments last
only as long as the sheriff ’s term. At the end of a sheriff ’s term, even if the sheriff is reelected, all the sheriff ’s deputies must be reappointed and re-sworn to
keep their positions in the new term. It is customary
in the LCSO that all of the approximately 600 deputies
are re-sworn at the beginning of each term. Compl.
¶ 34.
During Chapman’s first term as Sheriff of
Loudoun County, McCaffrey became concerned about
Chapman’s competence and fitness for the office of
sheriff. Compl. ¶ 65. The Complaint alleges, inter alia,
that Chapman used his position as sheriff to do favors
for friends, family, and campaign contributors, Compl.
¶ 67, discriminated against minority deputies in

49a
assigning undesirable work, Compl ¶ 69, was verbally
abusive of the deputies in the LCSO, Compl. ¶ 74, and
mismanaged the LCSO to the detriment of the Office’s
effectiveness, Compl. ¶¶ 75–78. For these reasons,
McCaffrey supported Eric Noble, rather than Chapman, for the Republican nomination for the office of
Sheriff of Loudoun County in the 2015 election cycle.
Compl. ¶ 79. McCaffrey’s support of Noble consisted of
placing a sign in front of his house supporting Noble
and serving as a delegate for Noble at the Republican
nominating convention. Compl. ¶ 80.
Chapman won the Republican nomination at the
convention and ultimately won the general election to
keep his seat as sheriff. Upon learning of McCaffrey’s
support for Noble, Chapman allegedly told McCaffrey’s
Division Chief, Captain Marc Caminitti, to “keep his
shop” in line. Compl. ¶ 86. The Complaint also alleges
that Chapman told LCSO Public Affairs Officer, Liz
Mills, that “Mark [McCaffrey] was there with Eric [Noble]. I’m going to get him,” in reference to McCaffrey’s
support for Noble at the nominating convention.
Compl. ¶ 87. Additionally, Major Richard Fiano, a Senior Commander in the LCSO, told McCaffrey that he
should not have been a delegate for Noble and “[y]ou
live by the sword; you die by the sword.” Compl. ¶ 89.
On December 10, 2015, McCaffrey received a letter
from Chapman advising that his appointment as deputy sheriff “ends at midnight on December 31, 2015,”
and not indicate that he was to be reappointed. Compl.
¶ 90. The letter did not indicate why McCaffrey was
not to be re-appointed to his position. Compl. ¶ 91.

50a
McCaffrey was in fact not re-sworn as a deputy sheriff
after his prior appointment ended December 31, 2015.
Additionally, the Complaint alleges that Chapman ordered McCaffrey’s supervisors to lower the score of his
final evaluation, preventing McCaffrey from receiving
a performance bonus. Compl. ¶ 94.
McCaffrey further alleges that the County Defendants “assumed responsibility to ensure the protection of [constitutional rights] of LCSO employees.”
Compl. ¶ 123. The Complaint alleges that Chapman
and the County Defendants entered into a Cooperative
Agreement, which applies certain regulations otherwise only applicable to County employees to LCSO employees.1 Compl. ¶ 39. The Cooperative Agreement
provides that the Sheriff Chapman could only take personnel actions consistent with the County’s “personnel
policies and regulations,” Compl. ¶ 41, and that all personnel actions must be submitted to and approved by
the County’s Human Resources Department 30 days
before they become effective, Compl. ¶ 42.
Despite the County Defendants’ alleged obligations under the Cooperative Agreement, McCaffrey
alleges they “followed (a) a practice of deliberate indifference to defendant Chapman’s abuse of his power
and (b) failed to act to carry out their responsibility
under the Cooperative Agreement to halt the retaliation against Mr. McCaffrey.” Compl. ¶ 123. McCaffrey
1

Under Virginia law, the sheriff is an independent constitutional officer and not an employee or agent of the county he
serves. Va. Const. Art. 7, Section 4. Therefore, LCSO employees
are not employees of Loudoun County.

51a
alleges that the County Defendants had ample means
to intervene on his behalf against Chapman in light of
the fact that the they provide 75% of the budget for the
LCSO and that the County Defendants have aggressively enforced its personnel rules against the LCSO
under past sheriffs. Compl. ¶¶ 124–25. The Complaint
additionally alleges that Laurie Hunter, a Senior Management Analyst in the Loudon County Department of
Human Resources, knew of Chapman’s intent not to
reappoint McCaffrey and approved it pursuant to the
County Defendants’ Obligations under the Cooperative Agreement.
II.

LEGAL STANDARD

A Rule 12(b)(6) motion to dismiss tests the legal
sufficiency of the complaint. See Randall v. United
States, 30 F.3d 518, 522 (4th Cir. 1994); Republican
Party of N.C. v. Martin, 980 F.2d 943, 952 (4th Cir.
1994). In considering a motion to dismiss, “the material allegations of the complaint are taken as admitted,” Jenkins v. McKeithen, 395 U.S. 411, 421 (1969)
(citations omitted), and the court may consider exhibits attached to the complaint, Fayetteville Investors v.
Commercial Builders, Inc., 936 F. 2d 1462, 1465 (4th
Cir. 1991). Moreover, “the complaint is to be liberally
construed in favor of plaintiff.” Id.; see also Bd. of
Trustees v. Sullivant Ave. Properties, LLC, 508 F. Supp.
2d 473, 475 (E.D. Va. 2007). A motion to dismiss must
be assessed in light of Rule 8’s liberal pleading standards, which require only “a short and plain statement
of the claim showing that the pleader is entitled to

52a
relief.” Fed. R. Civ. P. 8. Nevertheless, while Rule 8 does
not require “detailed factual allegations,” a plaintiff
must still provide “more than labels and conclusions,
and a formulaic recitation of the elements of a cause of
action will not do.” Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 555 (2007) (the complaint “must be enough to
raise a right to relief above the speculative level” to one
that is “plausible on its face”); see also Giarratano v.
Johnson, 521 F.3d 298, 302 (4th Cir. 2008). As the Supreme Court stated in Ashcroft v. Iqbal, 556 U.S. 662,
678 (2008), “[a] claim has facial plausibility when the
plaintiff pleads factual content that allows the Court
to draw a reasonable inference that the defendant is
liable for the conduct alleged.”
III.

ANALYSIS

McCaffrey’s Complaint contains the following four
counts:
• Count I: Infringement of McCaffrey’s First
Amendment rights, in violation of 42 U.S.C.
§ 1983 (against Defendant Chapman);
• Count II: Infringement of McCaffrey’s
First Amendment rights, in violation of 42
U.S.C. § 1983 (against County Defendants);
• Count III: Violation of McCaffrey’s rights
under Article I, Section 12 of the Virginia Constitution (against Defendant Chapman);
• Count IV: Violation of McCaffrey’s rights
under Article I, Section 12 of the Virginia Constitution (against County Defendants).

53a
A. The Elrod–Branti Doctrine
Generally, public employees cannot be fired “solely
for the reason that they were not affiliated with a particular political party or candidate.” Knight v. Vernon,
214 F.3d 544, 548 (4th Cir. 2000). However, the Supreme Court in Elrod v. Burns, 427 U.S. 347 (1976)
and Branti v. Finkel, 445 U.S. 507 (1980) recognized an
exception to this general rule. The Court in Elrod recognized that certain public employees may be terminated for partisan reasons without offending the First
Amendment where doing so would “further some vital
government end by a means that is least restrictive of
freedom of belief and association in achieving that end,
and the benefit gained . . . outweigh[s] the loss of constitutionally protected rights.” Elrod, 427 U.S. at 363.
The Court expanded upon this in Branti, noting that
“if an employee’s private political beliefs would interfere with the discharge of his public duties, his First
Amendment rights may be required to yield to the
States’ vital interest in maintaining governmental effectiveness and efficiency.” 445 U.S. at 517. The ultimate question in this inquiry is “whether the hiring
authority can demonstrate that party affiliation is an
appropriate requirement for the effective performance
of the public office involved.” Id. at 518.
The Fourth Circuit has established a two-step test
to determine whether partisan affiliation is an acceptable basis for termination of a public employee.
First, a court must “examin[e] whether the position at
issue, no matter how policy-influencing or confidential
it may be, relates to partisan interests or concerns.

54a
That is, does the position involve government decisionmaking on issues where there is room for political disagreement on goals or their implementation?”
Stott v. Haworth, 916 F.2d 134, 141 (4th Cir. 1990) (internal citations, quotation marks, and alterations
omitted). If the position is sufficiently “partisan,” “the
next step is to examine the particular responsibilities
of the position to determine whether it resembles a policy-maker, a privy to confidential information, a communicator, or some other office holder whose function
is such that party affiliation is an equally appropriate
requirement.” Id. at 142. The goal of this test is to determine whether “ ‘there is a rational connection between shared ideology and job performance’ ” and
therefore that “ ‘political affiliation is an appropriate
requirement’ ” for a given position. Id. (quoting Savage
v. Gorski, 850 F.2d 64, 68 (2d Cir. 1988)). If a public employee’s position is both partisan and that of a policymaker under this test, that employee is exempt from
the traditional bar on partisan termination and therefore cannot state a claim alleging violation of his First
Amendment rights.
1.

McCaffrey’s Position in the LCSO was
Partisan

“The law in this circuit is clear that sheriffs in Virginia have the right to lawfully terminate their deputies for political affiliation reasons.” Pike v. Osborne,
301 F.3d 182, 186 (4th Cir. 2002) (Hamilton, J., concurring) (citing Jenkins v Medford, 119 F.3d 1156, 1163–
65 (4th Cir. 1997) (en banc)). In that regard, the Fourth

55a
Circuit has held that the deputies of elected sheriffs
are “partisan” under the Stott test. In Jenkins, the
Fourth Circuit, en banc, noted with respect to a claim
similar to McCaffrey’s by a North Carolina sheriff ’s
deputy that where sheriffs are elected “[t]he sheriff
owes a duty to the electorate and the public at large to
ensure that his espoused policies are implemented”
and that “[d]eputy sheriffs play a special role the sheriff ’s policies and goals.” 119 F.3d at 1162. In Knight,
the Fourth Circuit explained that the election of a particular candidate for sheriff over another presumably
acts as the electorate’s ratification of one candidate’s
policies and priorities over the other’s. Knight, 214 F.3d
at 549 (“[W]hen sheriffs are elected by popular vote, as
they are in North Carolina, they have an obligation to
the voters to implement their espoused policies.”).
These policies and priorities are not implemented by
the sheriff acting alone, but through the sheriff ’s deputies. Jenkins, 119 F.3d at 1162. The First Amendment’s protection against partisan retaliatory
termination does not require “that a sheriff must attempt to implement his policies and perform his duties
through deputies who have expressed clear opposition
to him.” Id. at 1165.
None of the allegations in the complaint distinguishes Virginia deputy sheriffs from their North Carolina counterparts held to be “partisan” in Jenkins. A
Virginia deputy sheriff, like those in North Carolina,
has “powers coterminous with his principal, the elected
sheriff.” Jenkins, 119 F.3d at 1163 (quoting N.C. Gen.
Stat. § 17E–1); compare Va. Code § 15.2–1603 (“[the

56a
sheriff may] appoint one or more deputies, who may
discharge any of the official duties of their principal
during his continuance in office, unless it is some duty
the performance of which by a deputy is expressly forbidden by law.”). Virginia deputies, like those in Jenkins, are agents of their principal, the elected sheriff,
who can be held liable for the actions of his deputies.
Compare Jenkins, 119 F.3d at 1163 (“Our circuit and
North Carolina state courts agree that the sheriff can
be held liable for the misbehavior of the deputies.”)
with Whited v. Fields, 581 F. Supp. 1444, 1455 (W.D. Va.
1984) (“[N]ot only is the sheriff liable civilly for the acts
of his deputy in Virginia, but he also is liable criminally and can be fined for the conduct of his deputy.”).
Under the decisions of the Fourth Circuit, the facts alleged in the Complaint indicate that the office of deputy sheriff in Virginia is partisan and “involve[s]
government decisionmaking on issues where there is
room for political disagreement on goals or their implementation[.]” Stott, 916 F.2d at 141.
2.

McCaffrey was a Policymaker

Having determined that the office of deputy sheriff
in Virginia is partisan, “the next step is to examine the
particular responsibilities of the position to determine
whether it resembles a policy-maker, a privy to confidential information, a communicator, or some other office holder whose function is such that party affiliation
is an equally appropriate requirement.” Id. at 142. The
allegations in the complaint, taken as true and with all
inferences drawn in favor of the Plaintiff, indicate that

57a
McCaffrey’s role as deputy sheriff was that of a “policymaker.” As reflected in this Circuit’s cases, the
greater the autonomy and decisionmaking ability an
individual has in his or her position, the more likely
that individual is to be a policymaker for the purposes
of the Elrod–Brati exception. Compare Knight v.
Vernon, 214 F.3d 544 (4th Cir. 2000) (holding that a
low-level jailer who is not a sworn deputy is not a policymaker) and Bland v. Roberts, 730 F.3d 368 (4th Cir.
2013) (same) with Claridy v. Anderson, No. ELJ–13–
2600, 2015 WL 1022401 (D. Md. Mar. 9, 2015) (holding
that a former Lieutenant with the Baltimore City
Sheriff ’s Office was a policymaker); see also Stott, 926
F.2d at 140 (“ ‘An employee with responsibilities that
are not well defined or are of broad scope more likely
functions in a policymaking position.’ ”) (quoting Elrod,
426 U.S. at 368).
In his Complaint, McCaffrey describes himself as
“the lead detective in complex, high-profile cases, including rape, robbery, and homicide investigations.”
Compl. ¶ 12. McCaffrey was by no means a junior deputy in the LCSO, but rather someone who had served
twenty years in other departments before joining the
LCSO in 2005. Compl. ¶ 11. The Complaint also alleges
that McCaffrey had the discretion to contact directly
the Commonwealth’s Attorney’s Office and the Medical
Examiner’s Office and to request the resources of those
offices in support of the LCSO’s law enforcement mission. Compl. ¶ 74h. Even after drawing all reasonable
inferences in Plaintiff ’s favor, under Jenkins and the
Fourth Circuit’s subsequent pronouncements, a deputy

58a
with McCaffrey’s alleged experience, seniority and responsibilities within a sheriff ’s office is a policymaker.
Accordingly, McCaffrey meets the Elrod–Branti
exception to the general rule against partisan terminations of public employees. Chapman’s failure to reappoint McCaffrey in retaliation for his support of
Chapman’s political rival therefore did not violate the
First Amendment. McCaffrey fails to state a claim under 42 U.S.C. § 1983 against either Chapman or the
County Defendants.
B. Article I, Section 12 of the Virginia Constitution
Counts II and IV of the Complaint allege a violation of McCaffrey’s rights under Article I, Section 12 of
the Virginia Constitution and assert an implied cause
of action to vindicate those rights. The Supreme Court
of Virginia has made clear that “constitutional provisions in bills of rights [such as Article I, Section 12] are
usually considered self-executing.” Robb v. Schockoe
Slip Fdn., 228 Va. 678, 682 (1985). The scope of relief
under these “self-executing” provisions of the Virginia
Constitution is an unsettled question, as the Supreme
Court of Virginia has never recognized an implied
cause of action for damages under Article I, Section 12.
Although it has recognized a common law cause of action for damages under certain provisions of the Bill of
Rights,2 it has never directly held whether all such
2

For example, in Kitchen v. City of Newport News, 275 Va.
378 (2008), the court upheld an action for damages arising under

59a
self-executing provisions necessarily provide a damages remedy or whether in some circumstances they
are simply limitations on state power enforceable only
by injunctive relief.3 In any event, the Court finds no
need to predict how the Supreme Court of Virginia
would decide that issue, but see Draego v. City of Charlottesville, No 3:16–cv–57, 2016 WL 6834025 at *23
n.20 (W.D. Va. Nov. 18, 2016), as it has on multiple occasions noted that the federal right in the First
Amendment and the state right in Article I, Section 12
of the Virginia Constitution “are virtually identical.”
Daily Press, Inc. v. Commonwealth, 285 Va. 447, 444 n.7
(2013); see also Black v. Commonwealth, 262 Va. 764,
787 (2001) (“The freedom of speech guaranteed by
Article I, § 12 of the Constitution of Virginia is coextensive with the protections guaranteed by the First
Amendment of the Constitution of the United States.”)
vacated in part on other grounds, 538 U.S. 343 (2003).
the self-executing provision of Article I, Section 11. Id. at 392.
However, Section 11 provides that private property shall not be
taken or damaged for public use without just compensation.
Therefore it was clear from the text of Section 11 that the right
established necessarily includes a right to damages for its violation. Section 12 lacks this clarity regarding damages.
3
Plaintiff argues that because the Supreme Court of Virginia has held that self-executing provisions of the State Constitution waive sovereign immunity, “the waiver of sovereign
immunity effected by the Virginia Bill of Rights fully opens the
State to liability for compensatory damages for violations of its
citizens’ rights.” Pl.’s Chapman Resp. [Doc. No. 28] 13. However,
under Robb and its progeny, the Virginia Bill of Rights simply
waives the Commonwealth’s sovereign immunity to the extent
that it creates a self-executing right. That waiver, however, does
not define the scope of the available remedies.

60a
Therefore, Plaintiff ’s state and federal constitutional
free speech claims rise and fall together. Because
Plaintiff meets the Elrod–Branti exception and cannot
pursue a First Amendment claim for retaliation, the
Court predicts that the Supreme Court of Virginia
would conclude he has no valid claim under Article I,
Section 12 of the Virginia Constitution, even were
there an implied cause of action for damages.4
IV.

CONCLUSION

For the above reasons, plaintiff has failed to state
a claim for a violation of the First Amendment or Article I, Section 12 of the Virginia Constitution. Accordingly, Defendants’ motions to dismiss for failure to
state a claim will be GRANTED and Plaintiff ’s motion
for partial summary judgment DENIED. All other motions will be denied as moot.

4

McCaffrey has asserted only federal and state constitutional claims. Because there has been no infringement of McCaffrey’s constitutional rights, state or federal, the Court need not
consider whether the Complaint adequately pleads municipal liability for its § 1983 claim against the County Defendants or
whether the Cooperative Agreement renders the County Defendants liable for Chapman’s actions. It also need not consider
whether the Cooperative Agreement creates in McCaffrey’s favor
rights in addition to those prescribed by the United States and
Virginia Constitutions, as any such rights would be contractual
in nature and this Court lacks both federal question and diversity
subject matter jurisdiction to consider a claim based on any such
contractual rights.

61a
The Court will issue an appropriate order
The Clerk is directed to forward a copy of this
Memorandum Opinion to all counsel of record.

62a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
MARK F. McCaffrey,

)
)
Plaintiff,
)
v.
)
MICHAEL L. CHAPMAN, )
)
et al.
)
Defendants.
)

Civil Action No. 1:17cv-937 (AJT/IDD)

ORDER
(Filed Oct. 12, 2017)
Presently pending before the Court are Defendant
Chapman’s Motion to Strike [Doc. No. 5]; Defendant
Chapman’s Motion to Dismiss [Doc. No. 7]; Defendants
Loudoun County and the Board of Supervisors of
Loudoun County’s (“County Defendants”) Motion to
Dismiss Counts II and IV of the Complaint [Doc. No.
9]; and Plaintiff McCaffrey’s Motion for Partial Summary Judgment [Doc. No. 17]. Upon consideration of
the Motions, the memoranda in support thereof and
opposition thereto, and for the reasons stated in the
accompanying Memorandum Opinion, it is hereby
ORDERED that Defendant Chapman’s Motion to
Dismiss [Doc. No. 7] and the County Defendants’ Motion to Dismiss Counts II and IV of the Complaint [Doc.
No. 9] be, and the same hereby are, GRANTED and

63a
this case be, and the same hereby is, DISMISSED; and
it is further
ORDERED that Plaintiff McCaffrey’s Motion for
Partial Summary Judgment [Doc. No. 17] be, and the
same hereby is, DENIED; and it is further
ORDERED that Defendant Chapman’s Motion to
Strike [Doc. No. 5] be, and the same hereby is, DENIED
AS MOOT.
The Clerk is directed to forward copies of this Order to all counsel of record and to enter judgment in
favor of Defendants pursuant to Fed. R. Civ. P. 58.
/s/ [Illegible]
Anthony J. Trenga
United States District Judge
Alexandria, Virginia
October 12, 2017

64a
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
-----------------------------------------------------------------------

No. 17-2198
(1:17-cv-00937-AJT-IDD)
-----------------------------------------------------------------------

MARK F. MCCAFFREY
Plaintiff - Appellant
v.
MICHAEL L. CHAPMAN, in his personal capacity
and in his official capacity as Sheriff of Loudoun
County; BOARD OF SUPERVISORS OF LOUDOUN
COUNTY, VIRGINIA, in their official capacities;
LOUDOUN COUNTY, VIRGINIA
Defendants - Appellees
------------------------------SOUTHERN STATES POLICE BENEVOLENT ASSOCIATION
Amicus Supporting Rehearing Petition
-----------------------------------------------------------------------

ORDER
-----------------------------------------------------------------------

Upon consideration of appellant’s petition for rehearing en banc and appellees’ response, and upon a
poll of the court pursuant to Fed. R. App. P. 35(f ), the
court denies the petition for rehearing en banc.

65a
Judges Wilkinson, Niemeyer, Agee, Keenan, Diaz,
Thacker, Richardson, Quattlebaum, and Rushing voted
to deny rehearing en banc. Chief Judge Gregory and
Judges Motz, King, Wynn, Floyd, and Harris voted to
grant rehearing en banc.
Entered at the direction of Judge Quattlebaum for
the court.
For the Court
/s/ Patricia S. Connor, Clerk

66a
VIRGINIA:
IN THE CIRCUIT COURT OF THE COUNTY
OF LOUDOUN
MARK F. MCCAFFREY,
Plaintiff,
v.
MICHAEL L. CHAPMAN,
in his personal capacity and
in his official capacity as
Sheriff of Loudoun County,
SERVE: Michael L. Chapman
Sheriff of Loudoun
County
803 Sycolin Road, S.E.,
Leesburg, Virginia
20175;
the BOARD OF SUPERVISORS
OF LOUDOUN COUNTY,
VIRGINIA, in their official
capacities,
SERVE: Leo Rogers
County Attorney
Loudoun County
1 Harrison Street, S.E.,
Leesburg, Virginia
20175
and

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Civil Action No.
COMPLAINT FOR
VIOLATION OF
CIVIL RIGHTS
Jury Trial Demanded

67a
LOUDOUN COUNTY,
VIRGINIA,

)
)
)
SERVE: Leo Rogers
)
County Attorney
)
Loudoun County
1 Harrison Street, S.E., )
)
Leesburg, Virginia
)
20175
)
Defendants.
)
THE NATURE

OF THE

CASE

1. This case seeks to vindicate an elementary
principle of our law: the men and women who go into
law enforcement – or governmental service of any kind
– do not surrender their constitutional rights when
they put on a uniform, or when they get a badge or government I.D.
2. This case is about Defendant Michael L. Chapman’s malicious and callous abuse of his status and authority, and his breach of the public trust placed in
him, as Sheriff of Loudoun County, a “constitutional officer” under Virginia law, as well as the complicity of
Defendants Loudoun County and its Board of Supervisors in the actions taken against the Plaintiff, Mark
McCaffrey, in December 2015. Defendant Chapman’s
conduct is animated by a single-minded passion to advance his own interests, magnify his own stature and
self-importance, and diminish subordinates, which
conduct violated Mr. McCaffrey’s constitutional rights.

68a
3. Defendants Loudoun County and its Board of
Supervisors had the authority and power to constrain
Defendant Chapman’s conduct and prevent the violation of Mr. McCaffrey’s constitutional rights, but they
did not do so.
4. Defendant Chapman manages the Loudoun
County Sheriff ’s Office (“LCSO”) by a dynamic of intimidation generated by rudeness, lies, and insulting
behavior towards his colleagues, punctuated by
screaming and fits of rage, capped by campaigns of unrelenting retaliation, by any means, against the perpetrators of every perceived slight or difference of
opinion. As Defendant Chapman put it to one of his
Senior Commanders, “People challenge me. I’m going
to crush them. They’ll never work in law enforcement.
I’m going to ruin their career.” It is hardly surprising
that his Senior Commanders privately concluded that
Defendant Chapman is a “malignant narcissist,” even
as they continued to do his bidding.
5. This case is also about how Mr. McCaffrey
could have been protected from the gross violation of
this fundamental constitutional rights by Defendant
Chapman’s “malignant narcissism” had Defendants
Loudoun County and its Board of Supervisors fulfilled
the responsibilities and exercised the powers they had
voluntarily assumed to protect the rights of LCSO employees.
6. In December, 2015, Defendant Chapman, in
concert with Loudoun County officials, refused to reappoint Mr. McCaffrey to his position in the LCSO for

69a
Defendant Chapman’s new term, notwithstanding the
fact that it is a long-standing, general practice in the
LCSO that the approximately 600 deputies of the
LCSO are automatically re-appointed at the beginning
of each term. . Mr. McCaffrey, then a highly successful
major crimes detective with 30 years of service as a
law enforcement professional, had committed a single
offense in the eyes of Defendant Chapman to justify
severing him from the LCSO in this way. He had supported Defendant Chapman’s opponent for the Republican nomination for Sheriff, retired LCSO Major Eric
Noble, during Defendant Chapman’s campaign for a
second term in 2015. Defendant Chapman has expressly conceded that Mr. McCaffrey’s work performance was not an issue, and that he could trust Mr.
McCaffrey’s investigative work. Moreover, Mr. McCaffrey’s support for Maj. Noble was expressed in complete compliance with all rules and orders of the LCSO
and Loudoun County.
7. Defendant Chapman, in consultation with the
Loudoun County Human Resources Department, did
not re-appoint Mr. McCaffrey solely in retaliation for
his “disloyalty” to Defendant Chapman manifested
simply by Mr. McCaffrey lawfully exercising his constitutionally protected right to participate in political expression. Such retaliation violated the Federal and
Virginia Constitutions, the public policy of Virginia,
and the express terms of an agreement between the
LCSO and Defendants Loudoun County and its Board
of Supervisors. None of the Defendants was justified in
taking the actions or failing to prevent the actions that

70a
resulted in Mr. McCaffrey’s termination by any concern about potential or actual disruption of the LCSO.
To the contrary, each of the Defendants was aware or
should have been aware that Mr. McCaffrey’s termination would cause serious disruption in the LCSO. Because Defendants Loudoun County and its Board of
Supervisors failed to act when they had the responsibility to do so, Defendant Chapman was able to “crush”
Mr. McCaffrey simply because he properly exercised
his constitutional rights.
8. It is axiomatic that an individual officer who
occupies an office created by a constitution does not
have the authority to violate rights expressly protected
by that constitution and that he is sworn to defend.
There is nothing about the fact that Defendant Chapman’s position as Sheriff was created by the Virginia
Constitution instead of an act of the General Assembly
that excuses him from obedience to the fundamental
protections of rights guaranteed by the Federal and
Virginia Constitutions. Indeed, in his oath of office,
every sheriff swears to support the Federal and Virginia Constitutions.
9. This action seeks compensatory damages for
this violation of Mr. McCaffrey’s rights, for which all
the Defendants are jointly and severally liable. This action also seeks punitive damages for which Defendant
Chapman is liable.

71a
THE PARTIES
10. Mark F. McCaffrey is the Plaintiff in this action. Mr. McCaffrey resides with his wife and three
children in Purcellville, Virginia.
11. Mr. McCaffrey came to the LCSO in 2005 after serving two years in the New York City Police Department and 18 years as a police officer, sergeant, and
then lieutenant in the Greenburgh Police Department
in Westchester County, New York. Mr. McCaffrey
served as a deputy in the LCSO from 2005 to 2008, and
as a major crimes detective from 2008 until the end of
2015 when he was not re-appointed by Defendant
Chapman.
12. In the LCSO, Mr. McCaffrey served as the
lead detective in complex, high-profile cases, including
rape, robbery, and homicide investigations. In that capacity, Mr. McCaffrey significantly exceeded the national closure rate of 48.1% for violent crimes. In 2015,
he was recognized for achieving a closure rate for his
cases of 72%. Mr. McCaffrey received the Loudoun
County Investigator of the Month Award three times
and was part of the Team of the Month three times. In
2014, Mr. McCaffrey also received the Victim Services
Award from the Loudoun County Commonwealth Attorney’s Office. During his time in the LCSO, Mr.
McCaffrey has consistently received outstanding performance evaluations.
13. As a detective in the Criminal Investigations
Division, Mr. McCaffrey was not a policymaker for the

72a
LCSO nor did he in any way act as a counselor to the
Sheriff on policy matters.
14. As a detective in the Criminal Investigations
Division, Mr. McCaffrey was not a spokesperson for the
LCSO nor did he in any way represent the Sheriff to
the public or speak on the Sheriff ’s behalf.
15. Michael L. Chapman is a Defendant in this
action. Defendant Chapman has served as Sheriff of
Loudoun County, Virginia since January 2012.
16. The Board of Supervisors of Loudoun County,
Virginia is the governing body of Loudoun County and
a Defendant in this action.
17. Loudoun County, Virginia is a Defendant in
this action. The Loudoun County Department of Human Resources is a component of the government of
Defendant Loudoun County.
JURISDICTION

AND

VENUE

18. This Court has jurisdiction over this action
under VA. CODE § 17.1-513.
19. Venue is proper in this Court because the
conduct and events giving rise to the Plaintiff ’s claims
occurred in Loudoun County, Virginia.

73a
GENERAL ALLEGATIONS
A. THE GOVERNING LAW, POLICY
MENTS.

AND

AGREE-

i. The Constitutional and Statutory
Protection of Political Activity
20. The First Amendment to the United States
Constitution provides that “Congress shall make no
law . . . abridging the freedom of speech; or the right of
the people peaceably to assemble, and to petition the
Government for a redress of grievances.” U.S. CONST.
amend. I.
21. The Fourteenth Amendment to the United
States Constitution provides that “[n]o State shall
make or enforce any law which shall abridge the privileges or immunities of citizens of the United States;
nor shall any State deprive any person of life, liberty,
or property, without due process of law.” U.S. CONST.
amend. XIV §1. The First Amendment is incorporated
in the Fourteenth Amendment.
22. Article I, section 12, of the Bill of Rights of
the Virginia Constitution provides that “the freedoms
of speech and of the press are among the great bulwarks of liberty, and can never be restrained except by
despotic governments; that any citizen may freely
speak, write, and publish his sentiments on all subjects, being responsible for the abuse of that right; that
the General Assembly shall not pass any law abridging
the freedom of speech or of the press, nor the right of
the people peaceably to assemble, and to petition the
government for the redress of grievances.” VA. CONST.

74a
art I, §12. This free speech guarantee of the Virginia
Constitution is co-extensive with that of the Federal
Constitution. Willis v City of Virginia Beach, 90
F.Supp. 3d 597, 607 (E.D.Va. 2015); Elliott v. Commonwealth, 267 Va. 464, 473-74, 593 S.E.2d 263, 269 (2004).
23. In VA. CODE § 15.2-1512.2, the General Assembly explicitly codified the Commonwealth’s policy
to vigorously protect every citizen’s freedom to participate in political activity as guaranteed by the Virginia
Constitution. Section 15.2-1512.2(B) provides:
Notwithstanding any contrary provision of
law, general or special, no locality shall prohibit an employee of the locality, including
firefighters, emergency medical services personnel, or law-enforcement officers within its
employment, or deputies, appointees, and employees of local constitutional officers as defined in § 15.2-1600, from participating in
political activities while these employees are
off duty, out of uniform and not on the premises of their employment with the locality.
24. The General Assembly went on to detail the
range of “political activity” it is the policy of the Commonwealth to protect. Section 15.2-1512.2(C) in pertinent part provides:
the term “political activities” includes, but is
not limited to, voting; registering to vote; soliciting votes or endorsements on behalf of a
political candidate or political campaign; expressing opinions, privately or publicly, on political subjects and candidates; displaying a

75a
political picture, sign, sticker, badge, or button; participating in the activities of, or contributing financially to, a political party,
candidate, or campaign or an organization
that supports a political candidate or campaign; attending or participating in a political
convention, caucus, rally, or other political
gathering;. . . .
25. Moreover, the General Assembly underscored
that the term “ ‘[l]aw-enforcement officer’ means any
person who is employed within the police department,
bureau, or force of any locality, including the sheriff ’s
department of any city or county, and who is authorized by law to make arrests.” VA. CODE § 15.21512.2(A).
26. “[P]olitical belief and association constitute
the core of those activities protected by the First
Amendment.” Rutan v. Republican Party of Illinois,
497 U.S. 62, 69 (1990) (quoting Elrod v. Burns, 427 U.S.
347, 356 (1976)). “Not only does the First Amendment
protect freedom of speech, it also protects the right to
be free from retaliation by a public official for the exercise of that right.” Bland v. Roberts, 730 F.3d 368, 373
(4th Cir. 2013) (internal quotations omitted). Accordingly, “[w]ith a few exceptions, the Constitution prohibits a government employer from discharging or
demoting an employee because the employee supports
a particular political candidate.” Heffernan v. City of
Paterson, N.J., 136 S.Ct. 1412, 1417 (2016).
27. So rigorous are the constitutional protections
for protected political activity that a government

76a
employer may be held liable even when it discharges
an employee on the mistaken belief that an employee
had engaged in protected activity when in fact that
employee had not. Id. at 1418-19. It is the government
employer’s motive to punish the constitutionally protected activity of one employee that causes the constitutional harm of inhibiting the protected belief and
association of that employee and his fellow employees.
Id. at 1419.
28. The narrow exception to the constitutional
ban on patronage dismissals arises solely in the particular context of “public employees occupying policymaking positions.” Bland, 730 F.3d at 374. In that specific
context, patronage dismissals are tolerated only when
it can be shown in a “particularized inquiry” that there
is a “rational connection” between party affiliation or
political allegiance and job performance. Grutzmacher
v. Howard County 851 F.3d 332, 348 (4th Cir. 2017);
Stott v. Haworth, 916 F.2d 134, 142 (4th Cir. 1990).
29. To create an effective federal remedy for
those in the posture of Mr. McCaffrey, Congress enacted 42 U.S.C. § 1983, which “creates a species of liability in favor of persons deprived of their federal
civil rights by those wielding state authority.” Felder v.
Casey, 487 U.S. 131, 139 (1988). This statute “provides
a uniquely federal remedy against incursions . . . upon
rights secured by the Constitution and laws of the Nation.” Id. (internal quotations omitted). This liability
extends to local governments. See Collins v. City of
Harker Heights, 503 U.S. 115 (1992); Liverman v. City
of Petersburg, 844 F.3d 400, 413 (4th Cir. 2016). Thus

77a
§ 1983 “was designed to expose state and local officials
to a new form of liability.” City of Newport v. Fact Concerts, 453 U.S. 247, 259 (1981). Under § 1983, punitive
damages may be imposed on local government officials,
which are not subject to Virginia’s cap on punitive
damages. See Smith v. Wade, 461 U.S. 30 (1983), Felder
v. Casey, 487 U.S. 121 (1988); J. Beermann, Why Do
Plaintiffs Sue Private Parties Under Section 1983?, 26
Cardozo L. Rev. 9, 17 (2004).
30. A county may be liable for damages under
§ 1983 under several distinct theories, under which a
county can be said to be a distinct wrongdoer in inflicting a constitutional violation. See Collins v. City of
Harker Heights, Tex., 503 U.S. 115, 122 (1992); The
Albemarle County Land Use Handbook, at 31-4 (July
2015) (“Albemarle Handbook”. Thus a county may be
liable under § 1983 when a practice, custom, or usage
of the county was a “moving force” behind a constitutional violation. See Monell v. New York Dept. of Social
Services, 436 U.S. 658 (1978); Albemarle Handbook at
31-4. Another avenue to § 1983 liability for a county
occurs when a constitutional violation is inflicted by
“the county’s failure to do something.” Id. A common
example of this theory is a county’s failure to control or
supervise a county employee. See id. See also Brown v.
Mitchell, 308 F.Supp.2d 682, 701 (E.D.Va. 2004) (city’s
inaction to relieve overcrowding in jail supported
§ 1983 liability).
31. Virginia provides a remedy for those in the
posture of Mr. McCaffrey by recognizing that the provisions of Virginia’s Bill of Rights are self-executing

78a
and constitute a waiver of sovereign immunity. Gray v.
Virginia Secretary of Transportation, 276 Va. 93, 105,
662 S.E.2d 66, 72 (2008). Accordingly, an action may be
brought against a local government or its officials directly under the Virginia Constitution for a violation of
the rights guaranteed by Article I, section 12.
32. Because the rights guaranteed by Article I,
section 12 of the Virginia Constitution are co-extensive
with those protected by the First Amendment, a county
may be liable for damages for violating these rights on
the same basis as it may be liable under § 1983.
ii. The Status of a Sheriff as a “Constitutional Officer.”
33. A sheriff, along with a county’s treasurer,
clerk of the court of record, commissioner of revenue,
and Commonwealth’s Attorney, is called a “constitutional officer” because his office is created directly by
the Virginia Constitution rather than by legislative enactment. See VA. CONST. art 7, § 4; Roop v. Whitt, 289
Va. 274, 280, 768 S.E.2d 692, 695 (2015); Doud v. Commonwealth, 282 Va. 317, 321-22, 717 S.E.2d 124, 126
(2011). As a result, though a sheriff is elected by the
voters of a county, a sheriff is not an employee or agent
of county or municipal government and is independent
of them. See Roop, 289 Va. at 280, 758 S.E.2d at 69596; Caraway v. Hill, 265 Va. 20, 24, 574 S.E.2d 274, 276
(2003).
34. The duties and compensation of constitutional officers, however, are prescribed by the General

79a
Assembly. See VA. CONST. art 7, § 4; VA. CODE § 15.21600(A). Constitutional officers may consent to perform duties for localities not prescribed by the General
Assembly. See VA. CODE § 15.2-1600(B). Constitutional
officers also have “the power to organize their offices
and to appoint such deputies, assistants and other individuals as are authorized by law upon the terms and
conditions specified by such officers.” VA. CODE § 15.21600(B). See also VA. CODE § 15.2-1603 (a “deputy may
be removed from office by his principal [constitutional
officer]”). Those appointments technically expire at the
end of a sheriff ’s four-year term, even if the sheriff is
re-elected. It is a longstanding, general practice that
the approximately 600 deputies of the LCSO are automatically reappointed, or “re-sworn,” at the beginning
of each term to avoid the chaos of having to fully restaff the LCSO every four years.
35. A constitutional officer is not superior to either the Federal or Virginia Constitutions. A constitutional officer must exercise his powers and authority
in compliance with the Bills of Rights of the Federal
and Virginia Constitutions. Moreover, a constitutional
officer may not discharge an employee in violation of
“the policy underlying existing laws designed to protect
the property rights, personal freedoms, health, safety,
or welfare of the people in general.” Willis, 90 F.Supp.3d
at 606 (quoting Miller v. SEVAMP, 234 Va. 462, 468,
362 S.E.2d 915, 918 (1987)). Specifically, a sheriff may
not make employment decisions “in retaliation for constitutionally protected political expression.” Harris v.

80a
Wood, 888 F.Supp. 747, 751 (W.D.Va. 1995), aff ’d, 89
F.3d 828 (4th Cir. 1996).
iii. The Terms and Conditions of Mr.
McCaffrey’s Employment.
36. Mr. McCaffrey’s employment as a deputy in
the LCSO was initiated by a letter dated August 22,
2005 from then-Chief Deputy Ronald J. Gibson offering
him the job. This letter legally constituted the offer of
an employment contract, the terms of which were set
out in the letter. Right above the line for Mr. McCaffiey’s signature at the end of the letter was this statement: “I accept this appointment and the terms and
conditions outlined in this letter.” Mr. McCaffrey
signed the letter on August 25, 2005. With Mr. McCaffrey’s acceptance of the LCSO’s offer, a contract of employment came into existence between the LCSO and
Mr. McCaffrey.
37. This letter-contract included this provision:
“Your terms and conditions of employment will be governed by the provisions of the County’s Human Resources Handbook and the Sheriff ’s General Orders in
effect at the time of your employment.”
38. The Handbook expressly contemplates that
its policies and regulations may be applied to employees of constitutional officers such as the Sheriff. Section 1.3(B) of the Handbook provides:
Employees not under the Board of Supervisors’ control and supervision, including officers and employees of Constitutional Officers,

81a
are not covered by this policy and these regulations except by agreement between the
department/agency director, supervisor, or
Constitutional Officer and the Board of Supervisors.
39. Defendant Chapman and Defendant Board
of Supervisors have entered such a Cooperative Agreement relevant to this action signed by Defendant
Chapman and, pursuant to the approval of the Defendant Board of Supervisors, by the Chair of the Board
of Supervisors and the County Administrator in May,
2012.
40. The Cooperative Agreement, Article I – Scope
of Agreement (emphases added) states its purpose
clearly:
This Agreement extends coverage of the
County Personnel Policies and Regulations to
all deputies and employees of the Sheriff. This
Agreement recognizes that employees of the
Sheriff serve all residents of Loudoun County.
This Agreement, therefore, seeks to establish
a uniform personnel system so that the employees of the Sheriff will have the same
rights and benefits and will be subject to
the same procedures and regulations as
County employees, except as otherwise provided herein.
It is the intent of the parties to this
Agreement that the employees and deputies of the Sheriff will be subject to all

82a
County personnel policies and regulations, except that deputies shall have no access to the County grievance procedure.
41. Consistent with that intent, under the Cooperative Agreement the Sheriff can take personnel actions, like any County Department Head, only in
compliance with the County’s “personnel policies and
regulations.” Id. See also Handbook § 1.0.02, Department Head Authority (“Department Heads implement
and enforce these policies and regulations. . . .”); § 1.3,
Scope (“Should these regulations become applicable to
officers and employees of those agencies, the director
or Constitutional Officer having appointing authority
over such officers and employees is vested with the
powers and duties delegated to Department Heads except as otherwise specifically provided.”) (emphasis
added).
42. Consistent with that intent, the Cooperative
Agreement provides that the Sheriff shall “submit[ ]
General Orders to County staff for review prior to their
publication.” Cooperative Agreement, Article I – Scope
of Agreement. Similarly, the Cooperative Agreement
provides that the Sheriff shall submit personnel actions to the County Human Resources Division (now
the Human Resources Department) 30 days before
they become effective. Cooperative Agreement, Article
V – Personnel Actions, Records and Reports.
43. The Cooperative Agreement establishes the
responsibility of Defendants Loudoun County and its
Board of Supervisors to ensure Defendant Chapman’s

83a
compliance with County personnel policies and regulations, and gives them an effective enforcement mechanism to fulfill that responsibility. In the Cooperative
Agreement “[t]he parties acknowledge that one of the
express purposes for the execution of this Agreement
is to continue supplementation of funds to the Office of
the Sheriff by Loudoun County that are in excess of
those funds provided by the Virginia Compensation
Board.” Cooperative Agreement, Article I – Scope of
Agreement. The critical importance of that “supplementation” from Defendant Loudoun County cannot be
overstated, as it pays for approximately 75% of the
budget of the LCSO.
44. If one party breaches the Cooperative Agreement, the non-breaching party can give notice of the
breach and “suspend performance of any or all of its
corresponding obligations under this Agreement.” Cooperative Agreement, Article IV – Termination. Thus
Defendant Board of Supervisors could halt the “supplementation of funds” it provides to Defendant Chapman’s Office if he breaches the Cooperative Agreement
by failing to give his employees “the same rights and
benefits . . . as County employees” or violates “County
personnel policies and regulations.”
45. The Handbook, Chapter 1, General Principles and Governing Policies, begins with a statement
of purpose: “These Loudoun County policies and regulations ensure a system of personnel management
based on merit principles. . . . These policies and regulations are intended to be in compliance with all

84a
applicable Federal and State laws and regulations.”
(Emphasis added.)
46. Section 1.4 of the Handbook sets out the six
merit principles that govern employment by Loudoun
County, and, by agreement of Defendant Chapman, the
employment of Mr. McCaffrey. Merit Principle V states,
in pertinent part: “Fair treatment of applicants and
employees in all aspects of personnel management . . .
with proper regard for their privacy and constitutional
rights as citizens will be assured.” Merit Principle VI
states, in pertinent part: “Employees will be protected
against coercion for partisan political purposes. . . .”
47. By agreement of Defendant Chapman, Section 1.4 of the Handbook applied to Mr. McCaffrey’s
employment by the LCSO.
48. Section 1.5 of the Handbook, entitled “Equal
Employment Opportunity,” provides in pertinent part:
“The Board of Supervisors has also declared that the
county does not discriminate against employees . . .
based on political affiliation.”
49. By agreement of Defendant Chapman, Section 1.5 of the Handbook applied to Mr. McCaffrey’s
employment by the LCSO.
50.

Section 3.5 of the Handbook provides:

Employees have every right to vote as they
choose, to express their opinion, and to join political organizations. County employees have
the right to not be forced to take a political position as a condition of employment due to

85a
particular job duties. Nothing contained in
this policy shall be interpreted to apply to
duly elected or appointed constitutional officers.
Participation in political activities is permitted
unless:
1. Such activities take place during assigned
working hours, or
2. Involvement adversely affects the employee’s ability to do his/her job or adversely
affects the employee’s department.
51. By agreement of Defendant Chapman, Section 3.5 of the Handbook applied to Mr. McCaffrey’s
employment by the LCSO.
52. The Sheriff ’s General Order § 203, ¶ 16,
“Political Activity” provides:
No employee shall use his or her position in
the Sheriff ’s Office to endorse political candidates, nor shall he/she use such position to solicit, directly or indirectly, funds or other
services in support of any political issue. No
employee shall use his or her official capacity
in any manner that might influence the outcome of any political issue. This order is not
intended to prevent an employee of the Sheriff ’s Office from exercising his/her rights under the United States Constitution or the
Code of Virginia.
53. Sheriff ’s General Order § 203, ¶ 16 thus
mandates that neither the sheriff nor any other official

86a
of the LCSO will take action that has the effect of preventing employees of the LCSO from exercising their
rights under the United States Constitution or Virginia law.
54. By agreement of Defendant Chapman, and
by its own terms, Sheriff ’s General Order § 203, ¶ 16
applied to Mr. McCaffrey’s employment by the LCSO.
B. The Structure of the Loudoun County
Sheriff ’s Office and Its Relationship to
Loudoun County.
55. The LCSO maintains a strict, paramilitary
chain-of-command structure that is viewed as an essential foundation for the effective operation of a high
performance law-enforcement organization.
56. At the top of the chain-of-command is the
Sheriff. Immediately below him are two Chief Deputies
who hold the rank of colonel. Below those Chief Duties
are five majors, each of whom is in charge of one of the
LCSO’s five divisions – Field Operations, Administrative and Technical Services, Criminal Investigations,
Operational Support, and Corrections and Court Services. Those seven Senior Commanders are considered
the Command Staff.
57. The Sheriff is the ultimate policymaker for
the LCSO, and the Command Staff may support and
advise him on policy matters. Employees in the chainof-command below the sheriff and the Command Staff

87a
are not policymakers, nor do they advise the Sheriff
and the Command Staff on matters of policy.
58. As Sheriff, Defendant Chapman sought exclusive control of the communications of the LCSO to
the outside world. Defendant Chapman sought to be
the only “voice” and “face” of the LCSO to the outside
world, whether in dealings with the press, public service communications, or in any other forum. Indeed,
Defendant Chapman would become enraged if any
other employee of the LCSO happened to be mentioned
in the media.
59. The Loudoun County Department of Human
Resources (previously known as the Human Resources
Division), in conjunction with the Loudoun County Department of Financial Services, effectively serves as
the human resources department of the LCSO. See
Cooperative Agreement, Article V – Personnel Actions,
Records and Reports (“The Loudoun County Human
Resources Division shall maintain the official written
records of all employment actions for employees of the
Sheriff except that that those records pertaining solely
to benefits and leave shall be maintained by the Department of Financial Services.”).
60. Laurie Hunter is a Senior Management
Analyst in the Loudoun County Department of Human
Resources. She has worked in that position for over 10
years. By her own description, she “[p]rovide[s] consultative services to Department Heads and Constitutional Officers.” In providing such services, again by

88a
her own description, she employs a “[t]horough
knowledge of the theories, principles and practices of
Human Resources management to include employee
relations, HR policies, Virginia State Code and interpretation, Federal employment law such as FMLA,
ADA, USERRA and EEO compliance.”
61. In providing “consultative services” to constitutional officers in her official capacity, Ms. Hunter customarily provided advice to Defendant Chapman on
personnel matters and in that capacity represented to
Defendant Chapman the official policy of Defendants
Loudoun County and its Board of Supervisors. In so
doing, Ms. Hunter acted as a delegee of the responsibilities assumed by Defendants Loudoun County and
the Board of Supervisors in the Cooperative Agreement and purportedly in furtherance of those responsibilities.
62. In fact, Ms. Hunter was Defendant Chapman’s close confidante regarding personnel matters;
she was his “go-to” person for any issue involving human resources. She was involved in every hiring and
firing decision made by Defendant Chapman. However,
Ms. Hunter executed her responsibilities vis-à-vis the
LCSO as a partisan of Defendant Chapman, acting to
allow him to achieve whatever goal he wanted to
achieve, irrespective of the requirements of Defendant
Loudoun County’s personnel regulations and policies
and the interests of the employees of the LCSO.

89a
63. Ms. Hunter reports to Geneva Douglas, a
Human Resources Manager of the Loudoun County
Department of Human Resources. Their superior, and
the person responsible for the conduct of the Department of Human Resources, is Jeanette Green, the
Department’s Director. Ms. Green in turn reports to
Tim Hemstreet, the County Administrator, who is
ultimately responsible for their conduct in giving advice regarding, or in applying, Defendant Loudoun
County’s personnel policies. Mr. Hemstreet was one of
the Loudoun County signatories to the Cooperative
Agreement.
64. “The County Administrator implements and
enforces these rules and regulations [of the Handbook]
in adherence to the purpose and intent of the County’s
personnel policies.” Handbook, § 1.1. See also Handbook, § 1.0.02. The Handbook’s “regulations cover personnel management questions and actions for which
the County Administrator is responsible and are interpreted accordingly by the County Administrator or
his/her designee in keeping with the intent of these
regulations.” Handbook, § 1.2. In turn, “[t]he Chairman
of the Board of Supervisors on behalf of the corporate
board provides direction to the County Administrator
and other employees who are assistants to the Board
of Supervisors.” Id., § 1.0. The Chairman of the Board
of Supervisors was the other Loudoun County signatory to the Cooperative Agreement.

90a
C. The Conduct of Defendant Chapman That
Lead Mr. McCaffrey to Support His Opponent for the Republican Nomination
for Sheriff.
65. Mr. McCaffrey voted for Defendant Chapman
is his first election to the office of Sheriff of Loudoun
County. Defendant Chapman’s conduct in the following
years raised serious concerns in the mind of Mr.
McCaffrey about the competence of Defendant Chapman and his fitness for the office of Sheriff, all of which
are substantial public concerns. Accordingly, when an
alternative candidate with whom Mr. McCaffrey had
worked and whom he greatly respected – now-retired
Major Noble – became a candidate for Sheriff, Mr.
McCaffrey decided to support him.
66. Various aspects of Defendant Chapman’s
conduct moved Mr. McCaffrey to conclude that the public interest would best be served if former-Major Noble
were elected Sheriff.
i. Defendant Chapman’s Questionable
Fund Raising, Official Expenditures
and Hiring Practices.
67. Mr. McCaffrey became aware that Defendant
Chapman had appeared to have done favors for campaign contributors, such as awarding County or LCSO
contracts to them or hiring their family members. Examples of such conduct include:
a. Mr. Rick Bazaco made a total of $6,000 of
in-kind contributions to Defendant Chapman in late

91a
2010 and early 2011. On July 20, 2012, Mr. Bazaco’s
company, eFederal Systems, was awarded a $14,500
from Defendant Loudoun County to produce a “technology assessment for the Loudoun County Sheriffs
Office.” Not one recommendation made by the report
produced by eFederal Systems was acted upon.
b. Mr. Dan Wright contributed a total of
$500 to Defendant Chapman in 2011 and 2012. In
2012, his company, DBA National Consulting & Investigative Services received $2,500 from Defendant
Loudoun County for a “comprehensive assessment,
training, and executive summary briefing in support of
the LCSO recruiting and applicant investigations unit
and applicant background investigation program.”
c. Mr. Chuck Manning made a total of $4,250
of in-kind contributions to Defendant Chapman in
2011. Defendant Chapman subsequently appointed
him to the LCSO as a Second Lieutenant even though
he had no prior supervisory law enforcement experience.
d. Mr. Kevin Brock, a neighbor of Defendant
Chapman’s, contributed a total of $475 to Defendant
Chapman in 2010 and 2013. In August, 2012, Mr.
Brock lobbied the LCSO via email to hire his daughter.
In October, 2012, Defendant Chapman pressured the
LCSO staff in charge of recruitment and hiring to alter
the hiring process to accommodate Mr. Brock’s daughter so she could submit an application. She was subsequently hired.

92a
e. Mr. Martin Pracht contributed a total of
$350 to Defendant Chapman in 2010 and 2012. His son
was hired by the LCSO, and after graduation from the
Academy, abruptly resigned after only three days in
the field training program. His performance suggests
that he was an unqualified candidate.
f. Mr. Douglas Satterwhite contributed a total of $3,500 to Defendant Chapman in 2011 and 2012.
On July 3, 2013, Mr. Satterwhite was at fault in a car
crash that caused property damage. Defendant Chapman exerted significant pressure to get Mr. Satterwhite cleared.
g. During his first election campaign, Defendant Chapman promised Deputy Chris Ahlmann,
whose father was the pastor of a large Baptist church
in Loudoun County, that if his father’s congregation
supported him as Republican delegates to the nominating convention, or voted for him, Defendant Chapman would promote him from a traffic safety deputy to
Captain. Ahlmann got the votes for Defendant Chapman and he was promoted.
h. Right after he was first elected Sheriff,
Defendant Chapman ordered that all deputies should
have new business cards, and could get them only from
Design B, a company to which Defendant Chapman
had just given a $14,000 no-bid contract to print business cards. Design B was owned by his campaign manager, Brian Reynolds. Defendant Chapman also relies
on Reynolds to execute his retaliation schemes,

93a
described below, such as making anonymous calls to
smear targets of Defendant Chapman’s ire.
68. Mr. McCaffrey became aware that Defendant
Chapman regularly violated County policy by using his
personal vehicle to go to out-of-the-area training meetings and conferences so he can make a vacation out of
it with his family, and then charging the County for
mileage. Examples of these violations include: going
with his family to new sheriff training in Richmond,
Virginia, submitting mileage charges of $146.52; going
with his family to the National Sheriffs Association
Conference in Nashville, Tennessee, submitting mileage charges of $708.18; and going with his family to
the National Sheriffs Association Conference in Charlotte, North Carolina, submitting mileage charges of
$463.86. Ironically, shortly after the Charlotte conference (in October, 2013), Defendant Chapman announced, as a cost-cutting measure, that the LCSO
would no longer support homecoming parades for
Loudoun County high schools without charging the
schools.
69. Mr. McCaffrey also observed that Defendant
Chapman, who personally interviewed each deputy,
assigned a disproportionate number of deputies who
were members of minority groups to the Corrections
and Court Services Division, which was generally considered a “punishment assignment.” The deputies in
field operations were disproportionately white. As a
result, Mr. McCaffrey believed that Defendant Chapman was following a discriminatory practice in the

94a
assignments and professional opportunities of the
LCSO’s deputies.
ii. Defendant Chapman’s Abusive and
Malicious Treatment of Employees and
Unprofessional Personal Comportment.
70. Mr. McCaffrey became aware that Defendant
Chapman exhibited a pattern of verbally abusing employees of the LCSO. This behavior appeared to be triggered by anything Defendant Chapman perceived to be
negative with respect to himself – whether representing a different point of view, “stealing” the limelight, in
some way slighting Defendant Chapman’s stature, or
failing to gratify some desire of Defendant Chapman.
Defendant Chapman’s maliciousness was evident in
his subsequent retaliation against the employee involved, often extending to his schemes to torpedo the
employee’s efforts to secure a new job after leaving the
LCSO. Indeed, Defendant Chapman even boasted to
Liz Mills, at the time the Public Affairs Officer of the
LCSO, of his ability to retaliate, telling her, “They know
I can pick up the phone and they’ll never work in law
enforcement again.”
71. Defendant Chapman’s abusive behavior
caused the LCSO to lose senior employees with years
of experience, training, and knowledge who would not
tolerate such treatment. This disruptive behavior by
Defendant Chapman caused the morale of the remaining employees at the LCSO to plummet, sowing discord
even among the senior employees. Senior employees,

95a
including Maj. Eric Noble, Maj. Ricky Frye, and Liz
Mills, made complaints against Defendant Chapman
to the Loudoun County Human Resources Department. On information and belief, other employees complained to the County Attorney and the County
Administrator.
72. The dysfunction in the LCSO caused by Defendant Chapman’s conduct is illustrated by the fact
that even Senior Commanders who have done Defendant Chapman’s bidding to stay in his good graces to
preserve their careers loathe him. For example, Lt. Col.
Robert Buckman, now the third-highest ranked official
in the LCSO, has demonstrated contempt for Defendant Chapman. Buckman even sent around a picture of
Defendant Chapman portrayed as Adolf Hitler. In late
2013 or early 2014 Mr. McCaffrey had drinks with
then-Captain, now-Lieutenant Colonel, Mark Poland
and Lt. Bobby Miller. Poland went on at length how
much he detested Defendant Chapman, recounting instances of Defendant Chapman treating LCSO employees terribly and behaving erratically and bizarrely
in meetings. Poland called Defendant Chapman an arrogant, unstable guy, and complained that his blood
pressure was elevated from the stress of dealing with
him.
73. Yet this abusive behavior was bizarrely coupled with Defendant Chapman’s inflated view of his
leadership abilities. For example, Defendant Chapman
repeatedly told the senior staff of the LCSO that he
was “the best leader since Abraham Lincoln.” Nevertheless, whenever a problem occurred due to

96a
Defendant Chapman’s mismanagement of the LCSO
he would deny knowledge of the underlying facts and
try to shift blame to his subordinates.
74. Examples of this behavior of Defendant
Chapman include:
a. Within weeks of his taking office, Defendant Chapman reduced a civilian property clerk to tears
by screaming at her when a delivery of a pair of shoes
did not arrive on time through no fault of hers.
b. In 2013, when Michelle Draper, a budget
analyst for the LCSO who assisted Maj. Noble, raised
questions in a meeting with Defendant Chapman
about his use of his expense account, he blew up at her.
Among other things, Defendant Chapman frequently
sought reimbursement from Loudoun County for alcoholic beverages even though he had been repeatedly
advised that the County does not reimburse for alcohol. Ms. Draper refused to be cowed by such intimidation and continued to politely but firmly press her
concerns. Nothing concerning those expenses was resolved in that meeting. But afterwards, Defendant
Chapman tried to get Maj. Noble to summarily fire Ms.
Draper with no impartial investigation of the matter.
When Maj. Noble refused, Defendant Chapman turned
to Ms. Hunter, who wrote a letter of reprimand of Ms.
Draper for Maj. Noble’s signature. Maj. Noble protested to Ms. Hunter that the reprimand was baseless,
but Ms. Hunter just shrugged, saying words to the effect, “You know how Sheriff Chapman is.” Shortly
thereafter, Ms. Draper left the LCSO. In another

97a
spiteful gesture of retaliation, Defendant Chapman
had another baseless letter of reprimand placed in her
file just days before she left.
c. Defendant Chapman often reacted violently, perhaps irrationally, when his subordinates
offered divergent views, reported back factual developments that indicated one of his initiatives was not
working, or simply tried to explain some event. For example, when Defendant Chapman and the Senior
Commanders were considered a new schedule for
shifts, three of the Commanders, including Maj. Noble,
offered reasons why in the particular context of
Loudoun County (covering over 560 square miles) the
change Defendant Chapman was considering would
not work. A couple of days later, out of the blue, Defendant Chapman called Maj. Noble into his office to
berate him, saying “I think you’re lazy, dishonest, and
I don’t trust you.”
d. Defendant Chapman excoriated Lt. Chris
Athey, whose job was emergency management, when
Defendant Chapman did not like a promotional video
Lt. Athey had helped prepare. When Lt. Athey tried to
explain that he was not in charge of the project, which
was not part of his normal responsibilities, but was
only assisting the Public Affairs Officer, Defendant
Chapman did not listen, but repeatedly screamed at
him, “I am the Sheriff What part of that don’t you understand?” As a result of such treatment, Lt. Athey left
the LCSO for a job in the private sector.

98a
e. Early on in his first term, Defendant
Chapman, in civilian clothes and off duty, pulled up to
a traffic accident that a deputy was working. Though
traffic accidents are within the jurisdiction of the Virginia State Police, the deputy had happened on the accident before any State Trooper had arrived. Following
LCSO policy, the deputy stopped to see if there were
any injuries and generally began working the accident
until a State Trooper arrived. When the deputy explained all this to Defendant Chapman, Defendant
Chapman, who apparently was unfamiliar with the
LCSO policy, started screaming at the deputy and poking the deputy in the chest with his finger. It is unclear
whether Defendant Chapman thought the deputy
should not have stopped, or should not turn over the
accident to the State Police.
f. On September 9, 2014, after the 8:30 a.m.
Command Staff meeting, Defendant Chapman disappeared. Later, when Lt. Col. Buckman and Maj. Brown
were leaving for lunch, they bumped into Defendant
Chapman coming off the elevator. He reeked of alcohol.
Upon seeing them, Defendant Chapman turned away
and went back down the elevator. Lt. Col. Buckman
and Maj. Brown reported the incident to the Loudoun
County Human Resources Department, but no action
was taken.
g. Defendant Chapman from the outset
failed to manage the LCSO budget properly, resulting,
in 2013, in the LCSO running $1.5 – $2 million overbudget. This caused a major uproar in the County, stiff
criticism from the Board of Supervisors, and negative

99a
media coverage. Defendant Chapman defended himself in part with a lie – that his staff had not kept him
apprised of budget issues. In fact, Defendant Chapman
and the Command Staff had a number of documented
meetings on the budget and he was fully informed.
h. Defendant Chapman has no compunction
in lying in order to inflate the appearance of his own
professional abilities. Mr. McCaffrey was the lead investigator in the successful prosecution of Braulio Castillo for the brutal, first-degree murder of his wife,
Michelle. Castillo arranged Michelle’s body so her
death would appear to have been a suicide. Mr. McCaffrey went to the scene, and then spoke briefly to
Braulio Castillo. Mr. McCaffrey promptly requested
more investigative support from his office; contacted
the Commonwealth Attorney’s Office to invite them to
the scene; and requested that an investigator from the
Medical Examiner’s Office come to the scene. Each of
these steps is not consistent with a belief that Michelle
committed suicide. Eighteen months later, Defendant
Chapman told the prosecutors on the case that Mr.
McCaffrey initially thought that Michelle had committed suicide, but that Defendant Chapman’s observations of the scene immediately led him to think
Michelle was murdered. This was a lie. Defendant
Chapman was never at the scene of Michelle’s murder.
i. Defendant Chapman cannot countenance
his subordinates excelling in their professional endeavors when that excellence comes to the attention of
the broader community. For example, when Defendant
Chapman came into office, Deputy Dale Spurlock had

100a
been giving classes to the public on internet crimes
against children for years, dating back to when he was
a Leesburg police officer before joining the LCSO. The
classes were very well received, and Deputy Spurlock
had copyrighted some of his materials when he was
still a Leesburg police officer. Deputy Spurlock had
kept Lt. Col. Buckman – Defendant Chapman’s second-in-command – fully informed about these classes,
including the fact that he had copyrighted some of his
materials. When Defendant Chapman heard about
Deputy Spurlock’s classes, he started an internal investigation against Spurlock (who was well-regarded
and highly decorated), claiming that he was “gaming
the system,” and trying to profit from his work as a
deputy. Deputy Spurlock insisted that he had kept
Buckman fully informed, but Buckman lied, denying
he had any knowledge of Spurlock’s classes. When Deputy Spurlock provided all the emails between him and
Buckman that showed Buckman was lying, Defendant
Chapman closed the investigation and did nothing to
Buckman. Since that time, Defendant Chapman has
tried to take credit for the internet crimes against children classes in the press and in posts on social media,
going so far as to give Deputy Spurlock a plaque for
this work. Deputy Spurlock has since left the LCSO.
From Mr. McCaffrey’s perspective, this was another example of Defendant Chapman’s malignant narcissism
jeopardizing a good deputy’s career (and ultimately
costing the LCSO the services of a good deputy) while
maintaining his sleazy staff.

101a
j. During the local election campaigns of
2015, the Board of the Loudoun Chapter of the Virginia
Police Benevolent Association (the “PBA”) screened
candidates for various offices to determine whom they
might endorse. Defendant Chapman was running for
his second term. During his interview with the PBA,
he was asked about his refusal to re-swear an assortment of 12 lieutenant colonels, majors, captains, and a
detective at the beginning of his first term, and
whether he intended to do something like that again if
he were re-elected. Defendant Chapman was adamant
that he would not, stressing that in his first term all
the terminated employees were already going to retire.
Both were lies. The individuals Defendant Chapman
did not re-appoint in his first term were not going to
retire, but were terminated as pay-backs on behalf of
Defendant Chapman’s political supporters and friends.
And Defendant Chapman did not re-appoint five employees at the beginning of his second term, including
Mr. McCaffrey.
k. Maj. Ricky Frye was the Commander of
the Corrections and Court Services Division, who did
not get along with Defendant Chapman, in part because, as a Senior Commander, Maj. Frye did not believe he was supposed to be a “yes-man” to the Sheriff,
but was supposed to give him his best judgment on
LCSO matters, which often produced a volatile and
hostile reaction from Defendant Chapman. Not willing
to put up with this friction with Defendant Chapman,
Maj. Frye retired from the LCSO, becoming an employee of a contractor providing security-related

102a
services to the Fairfax County Courts. Maj. Frye’s departure did not end the matter for Defendant Chapman, who sought to further retaliate by smearing
Maj. Frye with Fairfax County so he would lose his job
there. Lt. Col. Chris Harmisson and Public Affairs Officer Liz Mills both refused Defendant Chapman’s requests for them to write anonymous letters to Fairfax
County smearing Maj. Frye. So Defendant Chapman
contacted Fairfax County and Maj. Frye’s employer
himself, threatening to contact the newspapers with
negative stories if they did not fire Maj. Frye. Maj. Frye
lost his job as a result.
l. After he retired from the LCSO after too
many confrontations with Defendant Chapman, Maj.
Noble became Chief of Police in Haymarket As he did
with Maj. Frye, Defendant Chapman had anonymous
emails sent to the Mayor of Haymarket smearing Maj.
Noble. The Mayor ignored them.
iii. Defendant Chapman’s Mismanagement and Malfeasance in the Operations of the LCSO.
75. Mr. McCaffrey became aware that, when a
deputy ticketed a friend or supporter of Defendant
Chapman, he regularly called in the deputy’s superiors
to berate them and order them to get rid of the ticket.
For example, Defendant Chapman called in Sergeant
Lee Williams and Captain Marc Caminitti to excoriate
them for a parking ticket given to the commercial van
of one of Defendant Chapman’s friends who ran a

103a
martial arts business. Defendant Chapman ordered
Sgt. Williams to get rid of the ticket.
76. Defendant Chapman made unilateral, arbitrary, and peremptory changes to the structure, shifts,
and staffing arrangements of the LCSO that have undermined the effectiveness of the LCSO’s operations
and the morale of its employees.
a. For example, Defendant Chapman dissolved the LCSO’s gang intelligence unit even as gang
violence, especially from extremely dangerous groups
like MS13, was on the rise in Loudoun County. This
move effectively blinded the LCSO in any effort to proactively address gang violence. As a result, the LCSO
was caught flat-footed in September 2015 when 17year-old Danny Centeno-Miranda was gunned down
on his way to school. While Defendant Chapman initially represented to the media that the LCSO was uncertain whether the murder was gang-related, the
LCSO knew at the outset that it was.
b. In response to an inquiry from Defendant
Chapman shortly after he took office, a deputy who was
also President of the local PBA advised Defendant
Chapman that the deputies believed that the patrol
shifts as they were currently structured were effective
and worked well. Six months later, with no further consultation or warning, Defendant Chapman abruptly
made a wholesale change in the patrol shifts that had
a variety of serious negative consequences.
i. On a personal level, for the many deputies who are working parents with small

104a
children, this abrupt change caused a major
disruption in childcare arrangements, which
left deputies frantically scrambling to make
new arrangements. This maneuver was a serious blow to the morale of the LCSO.
ii. Operationally, Defendant Chapman’s
overhaul of the patrol shifts left shifts continually short-staffed. For the midnight shift, for
example, only 10 to 12 deputies had to cover
the more than 560 square miles of Loudoun
County. Coverage at malls – an obvious target
of potential terrorist activity – was reduced or
electively eliminated as deputies were sent to
cover other incidents. In several instances,
deputies had no backup for extended periods
in dangerous circumstances, with catastrophic results. For example, two deputies responding to a complaint concerning a rowdy
party were surrounded, assaulted, and injured with no backup anywhere nearby. Another deputy had to respond alone to a family
dispute at 5 a.m. one morning and had to
shoot and kill an emotionally disturbed person because there was no backup available
who could have assisted in deploying a nonlethal alternative.
77. Defendant Chapman’s failure to properly
manage the LCSO budget, especially failing to
properly account for the LCSO’s overtime needs, resulted in the LCSO running seriously over budget and
Defendant Chapman receiving much public criticism.
He responded by erratic, extreme efforts to save money,
including ill-considered denials of overtime that

105a
compromised the LCSO’s ability to fulfill its law-enforcement mission.
a. Tasers are non-lethal weapons used to
subdue belligerent or dangerous people without resort
to lethal firearms. The Taser fires two dart-like electrodes which stay connected to the main unit by a conductive wire that delivers an electric current to disable
the target by temporary neuromuscular incapacitation. Both the Taser’s software and hardware require
maintenance, which is recommended by the manufacturer and was specifically requested by the LCSO’s
training unit. Nevertheless, Defendant Chapman
failed to have the LCSO’s Tasers maintained or tested,
mainly for cost-cutting reasons. The devastating consequences of this decision were manifest in 2014 at the
Costco in Sterling when a disturbed woman brandished a knife at deputies who had been called to the
scene. One of the deputies fired a Taser at the woman
while the other deputy simultaneously approached to
disarm her once she was incapacitated. However, the
Taser’s conductive wire disconnected from the darts
before the electric charge could be delivered, leaving
both deputies in unexpected close quarters with a
woman charging them with a knife. In the melee that
followed, the woman was fatally shot and one of the
deputies was wounded by a ricochet.
b. In April 2013, the Fairfax County Police
Department (the “Fairfax PD”) arrested three people
in Fair Oaks Mall with one pound of marijuana and a
firearm. They learned that the supplier of these people
was at an apartment in Leesburg with additional

106a
drugs. The Fairfax PD alerted the LCSO Narcotics
Unit, which set up surveillance of the apartment. The
suspected supplier, David Russell, left the apartment
and drove off. When the LCSO stopped the vehicle,
Russell ran, leaving an additional pound of marijuana
and $10,000 in cash. Another $6,000 in cash was found
in a satchel Russell discarded as he ran, before he was
taken into custody. The LCSO Narcotics Detectives began writing a search warrant for the apartment from
which Russell had left. Before the warrant could be
completed, the LCSO Narcotics Units were ordered to
clear the scene and secure it for the night because overtime was not authorized. The LCSO detectives advised
the Fairfax PD lieutenant on the scene that they were
going to cut Russell loose and get search warrants at
another time. Letting a dangerous criminal such as
Russell loose had the predictable result. Several
months later, he was arrested as the ringleader of a
home invasion armed robbery in which the robbers
bound the victims, held them at gunpoint, and threatened to cut their fingers off with a machete.
c. In 2015, LCSO detectives had information
that a man from Maryland who was out on bond for
attempted murder was selling stolen guns. The detectives wanted to pick him up on a warrant, but were told
to wait until he went to his probation officer in Maryland. As a result, a possibly armed and dangerous suspect was allowed to freely roam Loudoun County for
nearly two weeks.
d. In a 2014 investigation of an on-going
criminal enterprise involving trafficking in stolen

107a
all-terrain vehicles, it was determined that several
buildings in western Loudoun County would have to
be searched and that the inhabitants of the buildings
were possibly “preppers” – people preparing for an
apocalyptic event by stocking food and assembling a
cache of weapons for hunting and defense. Defendant
Chapman called it off because he felt it was too “resource intensive” because it required overtime and was
possibly dangerous. Then-Captain, now-Lieutenant
Colonel, Mark Poland observed at the time that it was
a crazy decision and that he had never seen anything
like it. This decision by Defendant Chapman was consistent with what appears to be his drive to avoid bad
publicity generated by any violent confrontation, irrespective of the demands of the LCSO’s law-enforcement mission.
78. The way in which Defendant Chapman conducted himself as Sheriff convinced Mr. McCaffrey that
Defendant Chapman’s prime professional consideration was self-promotion rather than advancing the
critical mission that the LCSO undertakes in law enforcement, and rather than his stewardship of the men
and women who serve and protect the Loudoun County
community as employees of the LCSO.
a. Grandstanding with the media regularly
trumps law enforcement concerns in Defendant Chapman’s conduct as Sheriff. In the Costco shooting described above, for example, Defendant Chapman
stayed out in the parking lot giving out supposed details of the event to the gathered press. However, the
scene – through which Defendant Chapman did only a

108a
cursory walk – was still being processed and Defendant Chapman’s public explanations concerning what
had happened were incorrect. More fundamentally,
Defendant Chapman never went to the hospital to
check on his injured deputy, while he was able to devote plenty of time to appearing before TV cameras.
b. Defendant Chapman has diverted LCSO
resources for his own personal purposes. For example,
Defendant Chapman ordered the computer forensic
unit to drop what they were doing – working on a high
profile murder case and numerous child pornography
cases – to investigate negative comments about him on
social media and in the newspaper. In another example, Defendant Chapman has used the LCSO’s Internal
Affairs Unit to investigate political rivals, such as former candidate for sheriff Ron Speakman, to dig up embarrassing information on them.
c. The Loudoun Sheriff ’s Child Safety Day is
a publicity event held on a Saturday in May. One person who was assigned a booth there was the father of
a 14-year-old girl whose murder had never been solved
in the dozen years since it had occurred. The father
handed out flyers seeking information about possible
suspects. In 2014, Detective Wayne Promisel, who had
been assigned to work the cold case, identified a suspect, who shortly thereafter killed himself. Defendant
Chapman told the detectives not to tell the father that
the suspect had killed himself until after Child Safety
Day because the father was an attraction for the press,
and he might not attend if he knew his daughter’s case
was resolved. When Det. Promisel, who was deeply

109a
offended by this plan to keep the father in the dark,
refused to go along, Defendant Chapman changed
course and the father was told. Defendant Chapman
then approached the father to try to give him talking
points to convey to the press how well he had been
treated by the Sheriff and how much had been done for
him. The father resented this blatant effort by Defendant Chapman to manipulate him.
d. Another example of Defendant Chapman’s grandstanding trumping the most elementary
practices of effective law enforcement occurred in 2014,
when the body of a newborn baby was found in a drainage pond in Ashburn. Early in the investigation, Defendant Chapman gave far too much information to
the press, including his speculation and preliminary
opinions about the case. The Medical Examiner called
to complain about releasing so much information and
indulging in such speculation, in part because, with all
the details known to the general public, it would be difficult for detectives to verify a suspect’s confession.
Even some defense attorneys ridiculed the LCSO for
such excessive disclosures so early in an investigation.
D. Mr. McCaffrey’s Exercise of His Constitutional Rights and Defendants’ Unconstitutional Retaliation Against Him.
79. Defendant Chapman’s conduct as Sheriff, as
described above – a matter of public concern and implicating the public’s interest in effective and honest
law enforcement by the LCSO – motivated Mr.

110a
McCaffrey to support Defendant Chapman’s opponent
in the contest for the Republican nomination for Sheriff in the 2015 campaign, Eric Noble.
80. Mr. McCaffrey’s support for Mr. Noble took
the form of a sign in his yard supporting Mr. Noble and
acting as a delegate to the Republican convention in
which the Republican candidate for Sheriff was chosen. In so doing, Mr. McCaffrey was exercising his constitutional rights as a private citizen.
81. Mr. McCaffrey was also invited by the Board
of Directors of the local PBA to participate as an outside advisor in the screening of local candidates for potential PBA endorsements, described above. The Board
decided not to endorse any candidate for Sheriff in the
2015 general election.
82. Mr. McCaffrey’s support for Mr. Noble fully
complied with all statutes, rules, regulations, and orders of the Commonwealth, of Loudoun County, and of
the LCSO. As a delegate to the Republican convention,
Mr. McCaffrey simply voted for Mr. Noble. Mr. McCaffrey never spoke publicly about the election nor did he
in any other way campaign for Mr. Noble. Mr. McCaffrey did not wear any election-related buttons, shirts,
or display any other campaign paraphernalia.
83. Mr. McCaffrey did not use his position in the
LCSO to endorse political candidates.
84. Mr. McCaffrey did not use his position in the
LCSO to solicit, directly or indirectly, funds or other
services in support of any political issue.

111a
85. Mr. McCaffrey did not use his official capacity in any manner that might influence the outcome of
any political issue.
86. Defendant Chapman tried to pressure Capt.
Marc Caminitti, then-head of the Criminal Investigations Division to which Mr. McCaffrey was assigned, to
“keep his shop” in line regarding deputies voting for
Eric Noble. Capt. Caminitti advised Defendant Chapman that he did not believe it was his responsibility to
tell people for whom to vote. Defendant Chapman was
annoyed by this response, and told Capt. Caminitti
that he did not see it that way. Capt. Caminitti was
transferred out of the Criminal Investigations Division
soon after.
87. The fact that the PBA did not endorse him
and that Mr. McCaffrey was a delegate for Eric Noble
infuriated Defendant Chapman. After the 2015
Loudoun County Republican Convention, Defendant
Chapman told Liz Mills, “Mark was there with Eric.
I’m going to get him.”
88. Maj. Richard Fiano, a Senior Commander
and a former co-worker of Defendant Chapman at the
DEA, told Mr. McCaffrey that he should not have become a delegate, warning him, “You live by the sword;
you die by the sword.”
89. Defendant Chapman made good on his
threat to punish Mr. McCaffrey for exercising his constitutional rights to support Mr. Noble by not reappointing Mr. McCaffrey as a deputy for Defendant
Chapman’s second term. In undertaking this

112a
retaliation, Defendant Chapman consulted with Ms.
Hunter, who gave him her approval for this scheme.
90. On December 10, 2015, Maj. Fiano delivered
a letter (dated that same day) to Mr. McCaffrey simply
advising him that his appointment as a deputy “ends
at midnight on December 31, 2015.” The letter was
signed by Defendant Chapman, and advised Mr.
McCaffrey to contact Ms. Hunter should he “have any
questions regarding the details of this letter.”
91. The letter gave no reasons why Mr. McCaffrey was not being reappointed. However, it is clear
that no performance issues motivated or justified Mr.
McCaffrey’s termination. Mr. McCaffrey had received
uniformly outstanding reviews during his service at
the LCSO.
92. Indeed, Mr. McCaffrey’s final performance review, completed after the December 10, 2015 letter had
been delivered, was effusive in its praise of Mr. McCaffrey’s work. Below are some of the comments his supervisors made in that review.
a. “Detective McCaffrey has established a
strong reputation as a detective who will stop what
he’s doing, on-duty or off-duty, and respond to handle
an investigation in a thorough and professional manner.”
b. “Detective McCaffrey keeps his supervisor informed on developments in cases as they happen
– typically updating within 24 hours of developments.
He takes the initiative, and it is rarely necessary for

113a
supervisors to reach out to him for updates on the status of cases.”
c. “Detective McCaffrey’s closure rate of 71.4
percent greatly exceeds the target closure rate, and
also significantly exceed the average closure rate for
the same period for the Robbery-Homicide section
(67.2 percent.)”
d. “Detective McCaffrey listens to the needs
of citizens and works to meet those needs.”
e. “Detective McCaffrey excels at making a
strong personal connection with virtually anyone to facilitate favorable resolution of his assigned cases. He is
highly consistent and truly leads by example in this
area.”
f. “Detective McCaffrey leads by example
through a strong work ethic in working towards the
fulfillment of agency goals.”
g. “Detective McCaffrey draws on his extensive experience as a detective and law enforcement officer to make sound decisions and solve problems.”
h. “Detective McCaffrey is very self-sufficient
He follows through on assigned tasks and can be
counted on to handle the most mission critical tasks.”
i. “Detective McCaffrey maintains a professional, positive attitude in working with others. His
sense of humor frequently puts his coworkers at ease
in otherwise stressful situations.”

114a
93. The “Performance Summary” at the end of
this review, dated December 22, 2015, reads:
Detective McCaffrey has done excellent work
on a wide range of cases at CID during this
evaluation period. He takes a lot of pride in
his role as a detective and always makes his
work a priority – often coming in to work on
his day off, or staying late to follow-up on
cases. He keeps a positive attitude and always
has something to say to lighten the mood,
even under the most stressful circumstances.
Detectives and attorneys look forward to continuing to work with Detective McCaffrey on
his remaining court cases, and are hopeful
that a professional relationship continues as
he moves on to his next job.
94. In a further mean-spirited gesture of retaliation, Defendant Chapman ordered Mr. McCaffrey’s supervisors to lower the numerical score of his final
evaluation so he would not get the performance bonus
to which he was entitled. At the same time, Defendant
Chapman did not force any changes to the substance
of the evaluation. Indeed, in a subsequent meeting,
Defendant Chapman told Assistant Commonwealth
Attorneys (“ACAs”) Nicole Whitman and Alex Rueda
that the review of Mr. McCaffrey was “relatively reflective of performance.”
95. In addition to the threats made by Defendant
Chapman and his Senior Commanders before Mr.
McCaffrey lost his job, the statements made by Defendant Chapman and his Senior Commanders after

115a
he was not reappointed made clear that Mr. McCaffrey’s support for Eric Noble was the sole reason for
that action.
96. For example, Maj. Fiano warned PBA Vice
President Det. Jeff Cichocki that he should learn the
lesson of Mr. McCaffrey’s termination and “stay the
f**k out of politics.”
97. Similarly, the day after Mr. McCaffrey received notice that he was not being reappointed, Maj.
Fiano told Liz Mills, “Tough about Mark McCaffrey, but
you live by the sword, you die by the sword.”
98. Defendant Chapman made his reason for
not reinstating Mr. McCaffrey unmistakably clear in a
January 20, 2016 meeting with ACAs Wittman and
Rueda. ACAs Wittman and Rueda sought the meeting
because Mr. McCaffrey was the lead investigator in
their prosecution of Braulio Castillo for the murder of
his wife, which was a very high-profile case in Loudoun
County scheduled for trial in June, 2016. They were
concerned that the defense would use Mr. McCaffrey’s
termination to create an issue over his work on the
case. In addition, they realized that new job opportunities might require him to move out of Virginia, limiting
his availability to help in the Castillo trial. In the
meeting, Defendant Chapman insisted that Mr.
McCaffrey was a good detective, and that he would recommend him to anyone who was hiring.
99. Instead, Defendant Chapman did not reinstate Mr. McCaffrey because, according to Defendant
Chapman, Mr. McCaffrey’s support for Eric Noble

116a
undermined the agency as a whole. Defendant Chapman did not provide any information as to how this
was true, nor had Defendant Chapman ever previously
mentioned to Mr. McCaffrey any concern that Mr.
McCaffrey’s support for Mr. Noble was in some way undermining the LCSO. Defendant Chapman dodged the
questions of ACA Wittman as to why Mr. McCaffrey’s
supposed undermining of the agency simply by voting
for Eric Noble was not noted in his personnel file or
recent evaluation. Indeed, Mr. McCaffrey’s exercise of
his right to support a candidate other than Defendant
Chapman did not undermine the LCSO in any way, as
his outstanding final evaluation indicates. Rather, Defendant Chapman did not reinstate Mr. McCaffrey as
yet another manifestation of his malignant narcissism.
100. Indeed, the malice animating Defendant
Chapman was evident several months after Mr.
McCaffrey’s dismissal. At that point, Purcellville Police
Chief Cynthia McAlister had a possible position for a
domestic-violence coordinator in her Department as
part of a new program being supported by the Purcellville Police Department and the LCSO. When Defendant Chapman heard a rumor that Mr. McCaffrey
might be considered for the position, Defendant Chapman had Lt. Col. Mark Poland call Chief McAlister to
deliver the threat that the LCSO would withdraw its
resources from the program if Mr. McCaffrey were
given that position. The position was left unfilled. This
demonstrated that Defendant Chapman’s insistence to
ACAS Wittman and Rueda that he would recommend
Mr. McCaffrey to anyone who was hiring was a lie, and

117a
that malicious, continuing retaliation for Mr. McCaffrey’s exercise of his constitutional rights was Defendant Chapman’s scheme.
E. The Consequences of the Retaliation
Against Mr. McCaffrey.
101. At the time of his termination, Mr. McCaffrey and his wife, Vicki, were the parents of three
young girls, Emily (15 years old), Alyssa (13 years old),
and Leah (7 years old). Mr. McCaffrey was the sole
source of support for his family. Vicki was an elementary school teacher who had left teaching in 2001 to
devote herself to her responsibilities as a mother.
102. Mr. McCaffrey got the news that he was going to lose his job as of December 31, 2015 on the day,
December 10, that he and his family were going to
leave for a Christmas-time trip to Williamsburg.
103. Mr. McCaffrey’s loss of his job at the LCSO
was a crushing blow economically, professionally, and
emotionally.
104. The loss of the source of Mr. McCaffrey’s income was the immediate economic consequence of the
loss of his job at the LCSO. As discussed above, his termination also threatened to be a serious blow to the
high-profile first-degree murder prosecution of Braulio
Castillo, which was set to go to trial shortly. Because
Mr. McCaffrey was the lead investigator for that case,
and the prosecution could not afford to lose his services
on the eve of trial, the Loudoun Commonwealth

118a
Attorney’s Office hired Mr. McCaffrey temporarily as
an investigator from February through June 2016 so
he could continue to work on the case.
105. Once that temporary position ended, Mr.
McCaffrey could not secure another position until
March 2017, when he was hired as an investigator for
the Public Defender’s Office in Winchester, the position
he currently holds.
106. In his current position, Mr. McCaffrey’s salary is less than half of his base salary at the LCSO.
The economic benefits Mr. McCaffrey has lost include
cost-of-living adjustments to his salary, overtime, and
bonuses over the reasonable remaining time span of
his career at the LCSO. Mr. McCaffrey also lost his
health insurance and retirement benefits from the
LCSO. Without health insurance from the LCSO, Mr.
McCaffrey had to return to the health insurance benefits he still had available from his prior job in New
York. By doing so, however, he lost the annual “buyback” that the Greenburgh Police Department paid
him to not use that source of insurance.
107. Professionally, the loss of his job at the
LCSO was an overwhelming humiliation and embarrassment to Mr. McCaffrey. His firing made the local
news. Even people who should have known better suspected that Mr. McCaffrey “must have done something
wrong” to not be reappointed in an office in which reappointment for well-performing deputies was supposedly routine.

119a
108. Emotionally, the economic pressure on him,
his professional humiliation, and the impact of all this
on his wife was the cause of severe mental anguish and
anxiety for Mr. McCaffrey. Sleepless nights and hypertension became the norm for him. Vicki got a job as a
long-term substitute teacher to try to break back into
teaching, but she was so behind the new advances in
technology that had occurred since she last worked as
a teacher that she was overwhelmed, often coming
home crying in frustration. Mr. McCaffrey’s anxiety
was made all the more acute by the emotional toll his
dismissal took on his wife, who at one point had to be
hospitalized for chest pains arising from her worry
over their situation.
109. More broadly, the retaliation taken against
Mr. McCaffrey for exercising his most basic constitutional rights caused the LCSO to lose one of its top deputies, in addition to immediately jeopardizing the
Castillo prosecution.
CAUSES

OF

ACTION

COUNT I
Violation of Plaintiff ’s Rights under the
United States Constitution by Defendant Chapman
110. The allegations in the foregoing paragraphs
of this Complaint are incorporated here by reference.
111. In placing a sign in his yard supporting
Eric Noble as a Republican candidate for Sheriff of
Loudoun County, and in voting for Eric Noble in the

120a
Republican State Convention to be the Republican
candidate for Sheriff of Loudoun County in the 2015
election, Mr. McCaffrey was properly exercising his
rights to political belief, association, and expression
protected by the First Amendment to the United
States Constitution.
112. In exercising his First Amendment rights to
political expression, Mr. McCaffrey was expressing
himself as a private citizen upon a matter of public
concern, specifically, who should hold the important position of Sheriff of Loudoun County.
113. In exercising his First Amendment rights to
political expression as he did, Mr. McCaffrey did not in
any way jeopardize or diminish the providing of effective and efficient services by the LCSO to the public.
To the contrary, as the examples of Defendant Chapman’s conduct described above illustrate, Mr. McCaffrey supported the candidacy of Eric Noble because he
believed that Defendant Chapman’s conduct as Sheriff
undermined and diminished the ability of the LCSO to
provide effective and efficient law enforcement services to the public. Accordingly, Mr. McCaffrey’s interest in expressing himself on this matter of public
concern outweighed any governmental interest in
providing effective and efficient services to the public.
114. Mr. McCaffrey was not reappointed to his
position at the LCSO in 2016, and was the target of a
broader campaign of retaliation thereafter, solely in retaliation for Mr. McCaffrey’s political expression in
support of Defendant Chapman’s primary election

121a
opponent in 2015. This retaliation was undertaken by
Defendant Chapman with malice and callous disregard for Mr. McCaffrey’s constitutional and contractual rights.
115. The failure to reappoint Mr. McCaffrey to
the LCSO was action taken by Defendant Chapman
under color of State law. Specifically, Defendant Chapman purportedly justified the termination of Mr.
McCaffrey in retaliation for his political expression as
within the discretion of the sheriff because he is a “constitutional officer” under Virginia law. In fact, such retaliation is impermissible under Virginia law, nor does
the sheriff have absolute discretion, unconstrained by
the most fundamental constitutional norms, over the
hiring and firing of LCSO employees.
116. The termination of Mr. McCaffrey in retaliation for his political expression deprived him of his
rights, privileges, and immunities secured by the First
and Fourteenth Amendments of the United States
Constitution. Specifically, this retaliation against Mr.
McCaffrey deprived him of his constitutional rights to
political expression.
117. The retaliation against Mr. McCaffrey was
a scheme effected at the command of Defendant Chapman and allowed to occur by Defendants Loudoun
County and the Board of Supervisors.
118. The Defendants are jointly and severally liable for this deprivation of Mr. McCaffrey’s rights.

122a
119. This deprivation of Mr. McCaffrey’s rights
was undertaken with malice and callous disregard of
Mr. McCaffrey’s federally protected rights.
120. As a direct, actual, and proximate result of
the retaliation taken by Defendant Chapman against
Mr. McCaffrey in violation of his federally protected
rights, Mr. McCaffrey has suffered significant pecuniary and non-pecuniary damages, including loss of future pay and benefits, loss of back pay and benefits, loss
of promotion opportunities, loss of retirement benefits,
as well as mental anguish, anxiety, pain, suffering, embarrassment, and humiliation.
121. Pursuant to 42 U.S.C. § 1983, Mr. McCaffrey
is entitled to an award of compensatory damages, punitive damages, and the costs of this action against
Defendant Chapman. Pursuant to 42 U.S.C. § 1988,
Mr. McCaffrey is also entitled to an award in the
amount of his attorney’s fees incurred in prosecuting
this action against Defendant Chapman.
COUNT II
Violation of Plaintiff ’s Rights under the
United States Constitution by Defendants
Loudoun County, and Its Board of Supervisors
122. The allegations in the foregoing paragraphs
of this Complaint are incorporated here by reference.
123. Defendants Loudoun County and its Board
of Supervisors are jointly and severally liable with Defendant Chapman for the violation of Mr. McCaffrey’s

123a
constitutional rights because in the Cooperative
Agreement they assumed the responsibility to ensure
the protection of those rights of LCSO employees and
to enforce a “uniform personnel system” governing the
employees of the LCSO and Loudoun County. Yet Defendants Loudoun County and its Board of Supervisors
followed (a) a practice of deliberate indifference to Defendant Chapman’s abuse of his power and (b) failed to
act to carry out their responsibility under the Cooperative Agreement to halt the retaliation against Mr.
McCaffrey taken by Defendant Chapman because of
Mr. McCaffrey’s exercise of his rights to political expression, which was itself part of Defendant Chapman’s campaign to intimidate LCSO employees and
chill their exercise of their rights to political expression.
124. Indeed, Defendants Loudoun County and
its Board of Supervisors had at their disposal a powerful enforcement measure to defeat Defendant Chapman’s systemic abuse of his powers, of which the
retaliation against Mr. McCaffrey was an egregious example – the suspension or termination of their performance of the Cooperative Agreement, thereby cutting
off the money paying for 75% of the LCSO’s budget. Yet
Defendants Loudoun County and its Board of Supervisors have failed, and continue to fail, to act.
125. In contrast, during the administration of the
prior sheriff, Steve Simpson, the Defendant Loudoun
County, through its Human Resources Department,
followed a policy and practice of aggressive enforcement of its personnel rules and regulations vis-à-vis

124a
the LCSO. Representatives of the Human Resources
Department regularly reminded former Sheriff Simpson of the Defendant Board of Supervisors’ power to
withdraw Loudoun County’s all-important funding under the terms of the Cooperative Agreement. As a result, personnel actions in the LCSO at that time were
thoroughly vetted by officials of the Human Resources
Department, culminating in meetings of officials of the
LCSO and the Human Resources Department to make
the final decision in a personnel action.
126. With the advent of the administration of
Defendant Chapman, Defendants Loudoun County
and the Board of Supervisors markedly changed their
policy and practice vis-à-vis the LCSO to a completely
hands-off approach, thereby abdicating their responsibilities under the Cooperative Agreement and the
Handbook and allowing Defendant Chapman to take
whatever personnel actions he wished to take, for
whatever reasons he wished to take them.
127. The County Administrator, Mr. Hemstreet,
under the direction of the Chairman of the Board of
Supervisors, implements and enforces the personnel
rules and regulations of Loudoun County for all employees governed by it. The County Administrator, in
turn, exercised those responsibilities through the hierarchy of the County’s personnel structure, that is,
through Ms. Green, Director of the Department of
Human Resources, through Ms. Douglas, a Human
Resources Manager of that Department, down to Ms.
Hunter, a Senior Management Analyst of that Department, who became the official liaison of that

125a
Department and a key adviser to Defendant Chapman
on all personnel matters.
128. Ms. Hunter exhibited unwavering loyalty to
Defendant Chapman, acting solely to achieve his goals
irrespective of whether those goals complied with the
personnel rules set out in the Handbook or respected
the rights of employees. Indeed, Ms. Hunter never
acted as a representative of the interests of LCSO employees. Instead she worked solely to advance the
schemes and desires of Defendant Chapman. The result of Ms. Hunter’s practices in that regard was that
the kind of behavior by Defendant Chapman described
above went unchecked. The Human Resources chain of
command and all relevant Loudoun County officials
were fully aware of what Defendant Chapman was
doing. On information and belief, a number of LCSO
employees complained to the Human Resources Department and the County Attorney about Defendant
Chapman’s behavior, but nothing was ever done to rein
him in. Indeed, when Liz Mills made her complaint to
the Human Resources Department, both Ms. Douglas
and Ms. Green, Ms. Hunter’s superiors, admitted to her
that they knew what was going on in the LCSO. Nevertheless, following their practice throughout the
Chapman Administration of the LCSO, they did nothing to remedy the situation there.
129. Because of the responsibilities they had assumed under the terms of the Cooperative Agreement,
Defendants Loudoun County and its Board of Supervisors were in a position to stop any personnel action
proposed by Defendant Chapman if that action

126a
violated the rights of the employee involved under the
personnel rules and policies of Loudoun County or the
United States Constitution. Defendants Loudoun
County and its Board of Supervisors never used that
power under the Cooperative Agreement, and so
demonstrated deliberate indifference to the rights of
LCSO employees that were violated or chilled by the
abusive actions of Defendant Chapman. The unconstitutional retaliation inflicted on Mr. McCaffrey was one
egregious consequence of that failure to act.
130. On information and belief, Ms. Hunter advised Defendant Chapman that he could lawfully terminate the employment of Mr. McCaffrey for any
reason whatsoever, including terminating Mr. McCaffrey solely because he had supported Defendant Chapman’s primary election opponent.
131. As a human resources professional, and as
a Senior Management Analyst in the Loudoun County
Human Resources Department, Ms. Hunter knew or
should have known that Defendant Chapman’s discretion to terminate any employee such as Mr. McCaffrey
was limited by the Federal Constitution, the Virginia
Constitution, the Virginia Code, by Defendant Chapman’s
own General Orders, and by the obligations Defendant
Chapman voluntarily assumed in the Cooperative
Agreement to apply the personnel policies of Defendants Loudoun County and its Board of Supervisors as
set out in the Handbook.
132. Defendant Loudoun County, whose Administrator “implements and enforces” the County’s

127a
personnel rules and regulations and signed the Cooperative Agreement, and Defendant Board of Supervisors, which “establishes” the County’s personnel
policies and whose Chairperson signed the Cooperative Agreement, knew or should have known that Defendant Chapman’s discretion to terminate any
employee like Mr. McCaffrey was limited by the Federal Constitution, the Virginia Constitution, the Virginia Code, by Defendant Chapman’s own General
Orders, and by the obligations Defendant Chapman
voluntarily assumed in the Cooperative Agreement to
apply the personnel policies of Defendants Loudoun
County and its Board of Supervisors as set out in the
Handbook.
133. Defendant Loudoun County and its Board of
Supervisors knew or should have known of the failure
of Ms. Hunter and the Human Resources Department
to correctly advise Defendant Chapman concerning his
planned illegal retaliation against Mr. McCaffrey and
of their failure to take effective steps to stop it.
134. Specifically, Ms. Hunter knew or should
have known, and should have so advised Defendant
Chapman, that even as a sheriff he cannot lawfully terminate or retaliate against an employee such as Mr.
McCaffrey because of the employee’s race, gender, religion or private political activity outside of work. At bottom, Ms. Hunter should have advised Defendant
Chapman that he could not refuse to reappoint an excellent detective such as Mr. McCaffrey simply because
Defendant Chapman was angered by the fact that
Mr. McCaffrey had supported Defendant Chapman’s

128a
opponent for the 2015 Republican nomination. Ms.
Hunter should have exercised her responsibility under
the Cooperative Agreement and the Handbook to prevent Defendant Chapman from retaliating against
Mr. McCaffrey. By failing to do so and by affirmatively
approving Defendant Chapman’s retaliation against
Mr. McCaffrey, Ms. Hunter violated his rights under
the Federal Constitution, the Virginia Constitution,
the Virginia Code.
135. Specifically, Defendants Loudoun County
and its Board of Supervisors knew or should have
known, and should have so directed Ms. Hunter to advise Defendant Chapman, that even as Sheriff he
could not lawfully terminate or retaliate against an
employee such as Mr. McCaffrey because of the employee’s race, gender, religion or private political activity outside of work. At bottom, Defendants Loudoun
County and its Board of Supervisors should have directed Ms. Hunter to advise Defendant Chapman that
he could not refuse to reappoint an excellent detective
such as Mr. McCaffrey simply because Defendant
Chapman was angered by the fact that Mr. McCaffrey
supported Defendant Chapman’s opponent for the
2015 Republican nomination. Defendants Loudoun
County and its Board of Supervisors should have employed the full extent of their authority under the Cooperative Agreement to prevent the retaliation against
Mr. McCaffrey. In failing to exercise that responsibility,
they violated Mr. McCaffrey’s rights under the Federal
Constitution, the Virginia Constitution, the Virginia
Code, by Defendant Chapman’s own General Orders,

129a
and by their personnel policies as set out in the Handbook.
136. Nevertheless, consistent with their failure
to exercise their responsibilities under the Cooperative
Agreement and the Handbook to protect the rights of
the employees of the LCSO, Defendants Loudoun
County and its Board of Supervisors did nothing to
stop Defendant Chapman’s unconstitutional retaliation against Mr. McCaffrey. That is, Defendants
Loudoun County and its Board of Supervisors never
used their supervisory authority over Ms. Hunter or
their authority under the Cooperative Agreement to
stop the retaliatory termination of Mr. McCaffrey by
Defendant Chapman.
137. As a direct, actual, and proximate result of
the failure of Defendants Loudoun County and its
Board of Supervisors to exercise their power under the
Cooperative Agreement to fulfill their responsibility to
prevent the retaliation against Mr. McCaffrey, they are
jointly and severally liable with Defendant Chapman
for the deprivation of Mr. McCaffrey’s federally protected rights under color of State law by his retaliatory
termination, as described above.
138. As a direct, actual, and proximate result of
the failure of Defendants Loudoun County and its
Board of Supervisors to exercise their power under the
Cooperative Agreement to fulfill their responsibility to
prevent the retaliation against Mr. McCaffrey, Mr.
McCaffrey has suffered significant pecuniary and nonpecuniary damages, including loss of future pay and

130a
benefits, loss of back pay and benefits, loss of promotion
opportunities, loss of retirement benefits, as well as
mental anguish, anxiety, pain, suffering, embarrassment, and humiliation.
139. Pursuant to 42 U.S.C. § 1983, Mr. McCaffrey
is entitled to an award of compensatory damages and
the costs of this action against Defendants Hunter,
Loudoun County, and its Board of Supervisors, jointly
and severally, and to punitive damages against Ms.
Hunter. Pursuant to 42 U.S.C. § 1988, Mr. McCaffrey is
also entitled to an award in the amount of his attorney’s fees incurred in prosecuting this action against
Defendants Hunter, Loudoun County, and its Board of
Supervisors, jointly and severally.
COUNT III
Violation of Plaintiff ’s Rights under the
Virginia Constitution by Defendant Chapman
140. The allegations in the foregoing paragraphs
of this Complaint are incorporated here by reference.
141. Section 12 of Article I of the Virginia Constitution is co-extensive with the First Amendment of
the United States Constitution.
142. Accordingly, for the reasons set out above,
the conduct of Defendant Chapman retaliating against
Mr. McCaffrey for his political expression deprived
Mr. McCaffrey of his rights secured by section 12 of the
Virginia Constitution.

131a
143. This deprivation of Mr. McCaffrey’s rights
was undertaken with malice and callous disregard of
Mr. McCaffrey’s rights protected by the Virginia Constitution.
144. As a direct, actual, and proximate result of
the retaliation taken by Defendant Chapman against
Mr. McCaffrey in violation of his rights protected by
the Virginia Constitution, Mr. McCaffrey has suffered
significant pecuniary and non-pecuniary damages, including loss of future pay and benefits, loss of back pay
and benefits, loss of promotion opportunities, loss of retirement benefits, as well as mental anguish, anxiety,
pain, suffering, embarrassment, and humiliation.
145. Mr. McCaffrey is entitled to an award of
compensatory damages, punitive damages, and the
costs of this action against Defendant Chapman.
COUNT IV
Violation of Plaintiff ’s Rights under the
Virginia Constitution by Defendants Loudoun
County and Its Board of Supervisors
146. The allegations in the foregoing paragraphs of this Complaint are incorporated here by reference.
147. Section 12 of Article I of the Virginia Constitution is co-extensive with the First Amendment of
the United States Constitution.
148. Accordingly, for the reasons set out above,
as a direct, actual, and proximate result of the failure

132a
of Defendants Loudoun County, and its Board of Supervisors to exercise their power under the Cooperative Agreement to fulfill their responsibility to prevent
the retaliation against Mr. McCaffrey, Defendants
Loudoun County, and its Board of Supervisors are
jointly and severally liable with Defendant Chapman
for the retaliation against Mr. McCaffrey for his political expression which deprived him of his rights secured
by section 12 of the Virginia Constitution.
149. As a direct, actual, and proximate result of
the retaliation taken against Mr. McCaffrey in violation of his rights protected by the Virginia Constitution, Mr. McCaffrey has suffered significant pecuniary
and non-pecuniary damages, including loss of future
pay and benefits, loss of back pay and benefits, loss of
promotion opportunities, loss of retirement benefits, as
well as mental anguish, anxiety, pain, suffering, embarrassment, and humiliation.
150. Mr. McCaffrey is entitled to an award of
compensatory damages and the costs of this action
against Defendants Loudoun County and its Board of
Supervisors, jointly and severally . . .
PRAYER

FOR

RELIEF

Therefore, Plaintiff demands judgment against
Defendants and prays for relief as follows:

133a
a)

That Plaintiff recover compensatory economic
and non-economic damages against the Defendants, jointly and severally, in the amount
of THREE MILLION, FIVE HUNDRED
THOUSAND DOLLARS ($3,000,000);

b)

That Plaintiff recover punitive damages
against Defendant Chapman under Count I in
the amount of TWO MILLION, FIVE HUNDRED THOUSAND DOLLARS ($1,500,000);

c)

That Plaintiff recover punitive damages
against Defendant Chapman under Counts
III and IV in the statutory maximum amount
of THREE HUNDRED FIFTY THOUSAND
DOLLARS ($350,000);

d)

That Plaintiff recover his attorneys’ fees under 42 U.S.C. § 1988 against the Defendants,
jointly and severally;

e)

That Plaintiff recover the costs of this litigation against the Defendants, jointly and severally;

f)

That the Plaintiff recover both pre- and postjudgment interest at the statutory rate; and

g)

That the Plaintiff receive such further relief
as this Court deems just and proper.

134a
DEMAND

FOR

JURY TRIAL

Plaintiff demands a trial by jury of any and all issues in this action so triable by right.
Dated: July

, 2017

Respectfully submitted,
MARK F. MCCAFFREY
By:

Patrick M. McSweeney
McSweeney, Cynkar &
Kachouroff, PLLC
3358 John Tree Hill Road
Powhatan, VA 23139
(804) 937-0895
patrick@mck-lawyers.com

Robert J. Cynkar
McSweeney, Cynkar &
Kachouroff, PLLC
10506 Milkweed Drive
Great Falls, VA 22066
(703) 621-3300
rcynkar@mck-lawyers.com
Christopher I. Kachouroff
McSweeney, Cynkar &
Kachouroff, PLLC
13649 Office Place,
Suite 101
Woodbridge, VA 22192
(703) 853-0160
chris@mck-lawyers.com

Counsel for Plaintiff

135a
CONSTITUTIONAL PROVISIONS
U.S. CONST. amend. I
Congress shall make no law . . . abridging the freedom of speech, or of the press; or the right of the people
peaceably to assemble, and to petition the Government
for a redress of grievances.
U.S. CONST. amend. XIV §1
No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens of
the United States.
VA. CONST. art. I, §12
That the freedoms of speech and of the press are
among the great bulwarks of liberty, and can never be
restrained except by despotic governments; that any
citizen may freely speak, write, and publish his sentiments on all subjects, being responsible for the abuse
of that right; that the General Assembly shall not pass
any law abridging the freedom of speech or of the press,
nor the right of the people peaceably to assemble, and
to petition the government for the redress of grievances.
VA. CONST. art. VII, § 4
There shall be elected by the qualified voters of
each county and city a treasurer, a sheriff, an attorney
for the Commonwealth, a clerk, who shall be clerk of

136a
the court in the office of which deeds are recorded, and
a commissioner of revenue. The duties and compensation of such officers shall be prescribed by general law
or special act.

137a
Statutory Provisions
42 U.S.C. § 1983
Every person who, under color of any statute, ordinance, regulation, custom, or usage, of any State . . .
subjects, or causes to be subjected, any citizen of the
United States or other person within the jurisdiction
thereof to the deprivation of any rights, privileges, or
immunities secured by the Constitution and laws,
shall be liable to the party injured in an action at law,
suit in equity, or other proper proceeding for redress. . . .
VA. CODE § 15.2-1512.2
(Excerpt)
A.

For the purposes of this section:
...

“Law-enforcement officer” means any person who is
employed within the police department, bureau, or
force of any locality, including the sheriff ’s department
of any city or county, and who is authorized by law to
make arrests.
...
“Locality” means counties, cities, towns, or special districts.
...
B. Notwithstanding any contrary provision of law,
general or special, no locality shall prohibit an

138a
employee of the locality, including firefighters, emergency medical services personnel, or law-enforcement
officers within its employment, or deputies, appointees,
and employees of local constitutional officers as defined in § 15.2-1600, from participating in political activities while these employees are off duty, out of
uniform and not on the premises of their employment
with the locality.
C. For purposes of this section, the term “political activities” includes, but is not limited to, voting; registering to vote; soliciting votes or endorsements on behalf
of a political candidate or political campaign; expressing opinions, privately or publicly, on political subjects
and candidates; displaying a political picture, sign,
sticker, badge, or button; participating in the activities
of, or contributing financially to, a political party, candidate, or campaign or an organization that supports a
political candidate or campaign; attending or participating in a political convention, caucus, rally, or other
political gathering; initiating, circulating, or signing a
political petition; engaging in fund-raising activities
for any political party, candidate, or campaign; acting
as a recorder, watcher, challenger, or similar officer at
the polls on behalf of a political party, candidate, or
campaign; or becoming a political candidate.
D. Employees of a locality, including firefighters,
emergency medical services personnel, law-enforcement
officers, and other employees specified in subsection B
are prohibited from using their official authority to coerce or attempt to coerce a subordinate employee to
pay, lend, or contribute anything of value to a political

139a
party, candidate, or campaign, or to discriminate
against any employee or applicant for employment because of that person’s political affiliations or political
activities, except as such affiliation or activity may be
established by law as disqualification for employment.
E. Employees of a locality, including firefighters,
emergency medical services personnel, law-enforcement
officers, and other employees specified in subsection B
are prohibited from discriminating in the provision
of public services, including but not limited to firefighting, emergency medical, and law-enforcement services, or responding to requests for such services, on
the basis of the political affiliations or political activities of the person or organization for which such services are provided or requested.
F. Employees of a locality, including firefighters,
emergency medical services personnel, law-enforcement
officers, and other employees specified in subsection B
are prohibited from suggesting or implying that a locality has officially endorsed a political party, candidate, or campaign.

140a
Regulatory & Administrative Rules
LOUDOUN COUNTY SHERIFF’S GENERAL ORDERS
Foreword
(Excerpt)
These General Orders set forth responsibilities and
standards of conduct expected of all employees of the
Loudoun County Sheriff ’s Office, both sworn and unsworn. They apply to all divisions of the agency.
...
All General Orders, as well as referenced divisional directives, are issued under the authority of the Sheriff
pursuant to the provisions of Article VII, Section 4, of
the Constitution of Virginia. These General Orders will
be updated regularly to reflect any changes in law, procedures or policies in order to accommodate agency
needs and the needs of the citizens we serve.
General Order 101 (IV) & (A)
Organizational Structure
(Excerpt)
The Sheriff ’s Office is organized into five divisions in
addition to the Office of the Sheriff. These structured
components are further divided into units, shifts and
individuals as depicted in the organizational chart.
Each area is assigned specific functional areas of responsibility that include activities directly related to
carrying out the objectives of the Sheriff ’s Office. The
five divisions and Office of the Sheriff are under the

141a
direct command of an Operations Bureau Commander
or Administrative Bureau Commander.
...
A. Office of the Sheriff
This office is responsible for establishing policy and
working with the County Board of Supervisors and departments of the County government to ensure that
the resources necessary to accomplish agency responsibilities are provided. Additionally, this office is the arbiter of all complaints/grievances from or regarding
agency employees.
Policy is issued in the form of guidance to division commanders who, in turn, are responsible for the formulation and continuing update of specific directives for
their respective divisions. The directives must reflect
the most up-to-date procedures and techniques to provide for the safety of all employees and to meet all legal
mandates. Therefore, the commanders must review directives at least annually. The Sheriff must approve all
division directives, changes or updates before they become effective.
This office consists of the Sheriff, Bureau Commanders
(Chief Deputies), Internal Affairs Unit, Public Information components, and Administrative Assistants to
the Sheriff. The Bureau Commanders assume the functions of the Sheriff in his absence.

142a
General Order 101(V)
Chain of Command
The Sheriff, with authority vested by the Constitution
of Virginia and the Virginia Code, is the chief law enforcement officer for the county. His decisions concerning the operation of his agency are final unless
overridden by intervention of the courts. The Sheriff
also authorizes the organizational structure of and
chain of command within the Loudoun County Sheriff ’s Office.
Employees within each of the agency’s divisions are supervised by and report to the next highest level supervisor. This supervisor shall be an identifiable person
who shall be responsible for the employee’s assignments, performance evaluations, counseling, etc. In order to avoid confusion and to promote efficiency within
the agency, each organizational component shall be under the direct command of only one supervisor. In addition, each employee shall be accountable to only one
direct supervisor at any given time. This does not preclude orders or direction being given by a senior supervisor or any other supervisor in the absence of an
individual’s primary supervisor.
A. Sworn Personnel
1.

Sworn personnel are comprised of the following ranks:
Deputy, Deputy First Class, Master Deputy, Sergeant, Second Lieutenant, First
Lieutenant, Captain, Major (Division

143a
Commander), Bureau Commander (Chief
Deputy and/or Lieutenant Colonel) and
Sheriff
B. Support Staff
Civilian employee or section supervisor
In general, Majors serve as Division Commanders.
Captains, First Lieutenants, Second Lieutenants, or
Sergeants supervise sections, depending on the number of personnel assigned to the section. Under certain
circumstances, civilians act as supervisors (e.g. Records Section). Units, depending on the number of personnel assigned, are supervised by Sergeants. When
only one person staffs a unit, that person may be a deputy who possesses a special skill that qualifies him/her
for that position.
General Order 101(X)
Authority and Responsibility
At every level within this agency, personnel are given
the authority to make decisions necessary for the effective execution of their responsibilities. Employees are
given the latitude to make certain decisions commensurate with their authority. Each employee will be held
fully accountable for the use of or failure to use delegated authority. Any employee who has questions regarding their delegated authority should bring such
questions to the attention of their supervisor for
prompt resolution. Legal questions may be referred to
the County Attorney or Commonwealth’s Attorney

144a
through the employee’s supervisor. Questions concerning other facets of the criminal justice system may be
likewise referred. Employees’ acceptance of and proper
use of authority will be evaluated on an ongoing basis
and reflected during the performance evaluation process. Improper use of authority or failure to accept authority will be reported through command channels.
General Order 101(XI)
Direction
(Excerpt)
The Chief Executive Officer of the Loudoun County
Sheriff s Office is the Sheriff. As such, the Sheriff has
the authority and responsibility for the management,
direction and control of the operations and administration of the agency.
A. Order of Precedence for Command
1.

Sheriff

2.

Bureau Commander (Lieutenant Colonel)

3.

Division Commander of the division that has
primary responsibility for an incident (Major)

4.

Assistant Division Commander/Station Commander (Captain)

5.

Any 1st Lieutenant/Staff Duty Officer

6.

Any other deputy as designated by the Sheriff
for a specific period or task

145a
B.

Supervisor Accountability
All supervisory personnel are accountable for the
performance of employees under their immediate
control.

C.

Lawful Orders
Lawful orders, including those relayed from a superior via an employee of equal or lesser rank
shall be in accordance with General Order 203.
General Order 202(III)(C)
Insubordination

Except as otherwise stated herein, defiance of lawful
authority or disobedience to orders constitutes insubordination.
General Order 203(III)(16)
Political Activity
No employee shall use his or her position in the Sheriff ’s Office to endorse political candidates, nor shall
he/she use such position to solicit, directly or indirectly, funds or other services in support of any political issue. No employee shall use his or her official capacity in any manner that might influence the outcome
of any political issue. This order is not intended to
prevent an employee of the Sheriff ’s Office from exercising his/her rights under the United States Constitution or the Code of Virginia.

146a
General Order 203(III)(17)
Running for Political Office
No employee of the Sheriff ’s Office, other than the
Sheriff, shall run for a constitutional political office or
any other elected position without permission of the
Sheriff. The Sheriff may deny permission where he
deems a conflict of interest exists, or if it is otherwise
inappropriate.
...
General Order 303(II)(B)
Loudoun County Personnel Regulations
The personnel rules established by the Human Resources Manual of the County of Loudoun, unless specifically exempted, shall govern employees of the
Sheriff ’s Office. Each employee of the Sheriff ’s Office
shall familiarize themselves with these personnel
rules. Each Division Commander shall make a copy of
the Human Resources Manual available to employees
upon request.
General Order 303(II)(D)
Performance of Duty
All employees shall perform the duties required of
them by law, agency rule, policy, or order; or by order of
a superior officer. All lawful duties required by competent authority shall be performed promptly as directed,
notwithstanding the general assignment of duties and
responsibilities.

147a
General Order 303(II)(U)
Criticism of Sheriff’s Office or Superiors
Under no circumstance may an employee speak
critically or in a derogatory fashion to other employees
or to persons not of the agency in regard to the orders
or instructions issued by a superior officer. If an employee has reason to believe that any order or instruction is inconsistent or unjust, then that employee may
appeal to the next higher authority in the agency.

148a
General Order 410.1(III)
Public Information
III. ORGANIZATION FOR THE DISSEMINATION
OF PUBLIC INFORMATION
A. The Chief Information Officer (CIO) and the Public Information Officer (PIO) support the Loudoun
County Sheriff s Office and its personnel in matters involving the news media. To accomplish this,
both the CIO and the PIO will be available during
normal business hours as well as on-call for emergencies and other critical incidents. The PIO will
act as the primary contact for the news media. The
CIO will assume the below responsibilities in the
absence of the PIO.
B.

The Staff Duty Officer, ranking field supervisor,
Traffic Safety supervisor and/or Criminal Investigations Division supervisor shall be responsible
for ensuring that the PIO is immediately informed
of major incidents and all other events that may
generate media interest within his/her field of responsibility. The PIO will then coordinate any release with the Sheriff or, in the absence of the
Sheriff, his/her Chief Deputy. The CIO will be referred to in parentheses throughout this section to
reflect the CIO as the secondary contact.

C.

In the absence of the PIO (CIO), the senior agency
official present should attempt to make contact
with the PIO (CIO) as soon as possible, and provide a brief synopsis of the situation. If time permits, the presence of the PIO (CIO) should be
requested via pager and/or cellular phone.

149a
D. No situational summaries should be provided to
any media outlets or representatives without approval from the Sheriff or, in his/her absence, the
Chief Deputy acting on behalf of the Sheriff after
coordination through the PIO (CIO).
1.

Emergency Communications Center personnel should inform the PIO (CIO) immediately
of media inquiries, but may, with approval
from the Sheriff, Chief Deputies, or PIO/CIO,
provide information to the news media in accordance with current ECC directives and
General Order 413.4, Privacy and Security
Act for Criminal History Information.

2.

Adult Detention Center personnel must contact the PIO (CIO) to release information that
is considered a matter of public record regarding individuals in custody who have been arrested and charged, including name (if an
adult) and status of the charge or arrest.

General Order 411.8
Criminal Investigations: Organization
and Administration
(Excerpt)
I.

PURPOSE:

The purpose of this General Order is to set forth the
authority, organization and administrative procedures
to be employed in the investigation of criminal offenses
by the Loudoun County Sheriff ’s Office.

150a
II. POLICY:
It shall be the policy of the Loudoun County Sheriff ’s
Office to vigorously respond to and investigate all reported violations of criminal law. The thorough investigation and prosecution of criminal offenses is a vital
function of the Sheriff ’s Office and one which requires
cooperation and coordination of both the Field Operations Division and the Criminal Investigations Division. In order to effectively and efficiently investigate
criminal violations, the Sheriff ’s Office shall maintain
a Criminal Investigations Division, staffed with experienced and highly trained Detectives.
III. ORGANIZATION AND ADMINISTRATION:
A. Organization:
1.

Investigative Responsibility: The investigation of most criminal offenses begins
with the first deputy on-the-scene. This
will normally be a uniformed member of
the Patrol Section. The majority of such
offenses will be investigated from start to
finish by the deputy who initially responds to the complaint. However, the investigative responsibility for cases of a
serious and/or complicated nature rests
with the Criminal Investigations Division. The guidelines for assignment and
investigation of criminal cases are set
forth in the Loudoun County Sheriff ’s
Office General Orders 411.9 Criminal
Investigation Case Management, and

151a
411.12, Criminal Investigation: Operational Procedures.
2.

B.

Criminal Investigations Division: The
Criminal Investigations Division is responsible for the investigation of all felony cases, serious misdemeanors which
show a pattern of occurrence, and cases
which involve organized criminal activity,
narcotics, vice crimes and/or corruption. . . .

ADMINISTRATION:

...
2.

CID Commander: The responsibility for
the overall operation and administration
of the Criminal Investigation Division
rests with the Division Commander. The
CID Commander shall be appointed by
the Sheriff based on training, experience,
and other criteria as deemed appropriate.

3.

CID Lieutenants: The responsibility for
the Units within the Criminal Investigations Division will be divided up between
two Lieutenants within CID. The coordination of activities within these units will
be the responsibility of the Lieutenants
who shall report directly to the CID Assistant Division Commander.

4.

CID Unit Supervisors: The CID Commander, or his designee shall refer cases
to the appropriate investigative section,

152a
based on the nature of the offense, in accordance with existing agency directives.
The daily operation and administration
of the sections is the responsibility of the
Section Supervisors, who shall report to
their respective CID Lieutenant Supervisors of the respective units shall be assigned by the Sheriff, based on expertise
in a specific area.
5.

CID Detectives: Deputies shall be assigned to the Criminal Investigation Division by the Sheriff, based on experience,
training and/or the possession of specific
skill or ability. The Sheriff shall establish
minimum requirements that must be met
in order to be considered for assignment
to CID.

...
General Order 411.9
Criminal Investigation: Case Management
(Excerpt)
I.

PURPOSE:

The purpose of this General Order is to establish the
procedures to be followed in the receipt, recording, reviewing, classification, assignment and maintenance of
cases forwarded to and/or initiated by the Criminal Investigation Division.

153a
II. POLICY:
It shall be the policy of the Loudoun County Sheriff ’s
Office to refer cases of a serious, complicated and/or
confidential nature to the Criminal Investigation Division for investigation and/or resolution. In order to ensure the effective and efficient investigation of all cases
turned over to or initiated by the Criminal Investigation Division, the Sheriff ’s Office shall strictly adhere
to the procedures outlined in this order for the supervision, maintenance and control of criminal investigative activities.
III. PROCEDURE:
A.

Case Status Control System:
1.

Cases forwarded to C.I.D.:
a.

Upon receipt of an offense report
from the Operations Division
marked “TOT-CID”, the CID Commander or his designee shall review
the report and forward to the appropriate Section Supervisor (i.e. Major
Crimes, or Tactical Enforcement
Unit) for further action. . . .

c.

Upon receipt of an Offense Report,
the Section Supervisor shall:

...

154a
i.

The section supervisor shall
then review the report thoroughly and make a determination as to what investigative
efforts should be undertaken by
CID. The supervisor shall adhere
to any specific instructions noted
by the CID Commander, or his
designee.

ii.

If, after review, it is determined
that the case warrants follow-up
investigation, the Section Supervisor shall take the following action:

...

a.

Select the Detective to
whom the case is to be assigned for investigation.

b.

Indicate in the Case Management System to whom
the case is assigned and the
date of assignment. (The
detective listed shall be
considered the “Primary Detective” and shall have
responsibility for the investigation and all reporting requirements.)

c.

Indicate whether the case
is to receive “Routine” or
“Priority” handling by the
assigned detective. This

155a
determination will be based
on the criteria for assignment, seriousness of the
crime and other elements as
defined in this order.
d.

Indicate the report due date.
The due date is the date
when an investigative supplement report must be submitted for review. Routine
cases will normally be allowed thirty (30) working
days for the first supplement and priority cases will
be given three (3) working
days.

...
B.

Detective receipt of assigned case:

Upon receipt of an Offense Report from the Section Supervisor, the detective assigned to investigate the case shall:
1.

Carefully review the report and any related
documentation.

2.

Proceed with the investigation in accordance
with agency directives and procedures and
any specific instructions indicated by the CID
Commander, Assistant Division Commander
and/or Section Supervisor.

3.

Establish contact with the victim and/or reporting person within forty-eight (48) hours of
receipt. In addition, it is suggested that

156a
second contact be made with all principals in
the particular case as soon as possible (within
48 hours if practical).

4.

a.

This practice is especially useful in that
it may result in the receipt of new and/or
additional information necessary to resolve the case.

b.

Adherence to this practice also builds
public confidence in the Sheriff ’s Office
and indicates concern for the victim’s welfare; others associated with the case and
the desire to bring the investigation to a
successful conclusion.

File a supplemental report within the prescribed time frame indicating investigative
action taken and the development of leads, evidence and/or suspects. This procedure shall
continue until the investigation is brought to
a close, or until the Section Supervisor or the
CID Commander inactivates the investigation.

...
C.

Cases initiated by CID:

1. In certain situations, cases may come to the
attention of CID personnel that have not been prereported to the Field Operations Division. In such
instances, the CID Detective receiving the information shall initiate a LCSO Offense Report, detailing as much information as appropriate and
forward through the Section Supervisor and CID
Commander to the Records Section. The first supplemental report is due automatically in five (5) or

157a
ten (10) days as appropriate. All other procedures
outlined in this order and/or other agency directives shall be adhered to.
...
E. Case Screening System:
1. In order to more efficiently use available manpower, CID Supervisors shall thoroughly screen
all Offense Reports received from the Field Operations Division. Particular attention shall be given
to the extent and results of the preliminary investigation conducted by the reporting deputy. As outlined in a preceding section of this directive, the
initial case screening begins in CID with the review by the Division Commander. However, the
primary screening responsibility rests with the
Section Supervisors.
2. Case screening by CID Supervisors shall be
based on factors affecting solvability (listed below)
and will result in a determination of whether or
not the case will be assigned for follow-up investigation by investigative personnel.
a.

Solvability factors to be considered in assigning a case for follow-up and/or changing the case status:
i.

Seriousness of the offense

ii.

Time elapsed between occurrence
and reporting,

iii. Suspect identification,
iv. Vehicle identification,

158a
v.

Witness availability/reliability,

vi. Identification/traceability of property,
vii. Presence or lack of physical evidence,
viii. Pattern/similarity of modus operandi,
ix. Physical/mental condition of victim/
reporting person,
x.

b.

Other recognizable/articulable factors which would affect successful investigation of the case.

In addition to the solvability factors
above, certain other criteria should be
considered in assigning cases to investigative personnel for follow-up. Some of
these factors are as follows:
i.

Documented experiences of the
agency in dealing with certain types
of crimes/ incidents.

ii.

Documented experiences of other law
enforcement agencies in dealing with
similar cases.

iii. Research conducted by the Sheriff ’s
Office dealing with particular types
of crimes/incidents.
iv. Research conducted in other law enforcement agencies pertaining to investigating and closing similar types
of offenses.
v.

Investigative workload and/or availability of resources necessary to

159a
successfully deal with a particular
type of crime/incident.
c.

After careful application of solvability
and other pertinent factors, the responsible supervisor(s) will either direct
follow-up investigation or suspend the investigative effort. The decision to suspend
the investigative effort and change the
case status must be based on sound
screening methods and involve one of the
following criteria:
i.

Absence of further leads and/or solvability factors.

ii.

Unavailability of investigative resources.

iii. Degree of seriousness of crime/incident.
d.

It is important to remember that case
screening is a continuous process, which
begins with the initial reporting of the offense and continues until the case is
brought to a conclusion. By the continuous screening and application of solvability factors, supervisors can better control
the investigative efforts, workload and
potential for success of their personnel
and section.

160a
F.

Case File Maintenance:

...
4.

Access to Case Files: Detectives shall exercise
extreme care in controlling the access to case
file folders under their control. Access to information in case files shall be limited to sworn
personnel of the Loudoun County Sheriff ’s Office and sworn personnel from other law enforcement agencies. Exposure to any and all
information shall be granted on a “need to
know” basis and must be in connection with a
legitimate, on-going investigative function.
Mere curiosity will not suffice. Requests for
information contained in case files by persons
other than sworn law enforcement officers,
shall be referred to the CID Commander and
shall be dealt with in accordance with existing
Sheriff ’s Office policy and laws governing release of such information.
a.

Information contained in investigative
case files shall be available to prosecutors
from the Commonwealth Attorney’s
Office upon request during all court proceedings. All information and/or documentation provided to the Commonwealth
Attorney’s Office shall be documented in
written form, detailing all information/
documentation provided, date provided,
and to whom it was provided, and this
documentation shall be retained in the
original case file.

161a
General Order 411.12
Criminal Investigation: Operational Procedures
(Excerpt)
...
III. PROCEDURE
A. Investigative Responsibility:
1.

Preliminary Investigations:

The investigation of most criminal offenses begins
with the first deputy on the scene. This will normally be a uniformed member of the Field Operations Division. While the majority of criminal
offenses and activity will be investigated from
start to finish by the deputy who initially responds
to the complaint, the investigative responsibility
for cases of a serious and/or complicated nature
rests with the Criminal Investigations Division.
The responsibility for conducting a thorough and
professional preliminary investigation shall remain with the first deputy on the scene until the
case is resolved or investigative responsibility is
transferred by competent authority.
A. Deputies assigned to investigate reports of
criminal offenses shall, at a minimum, take
the following action in the preliminary
phase of the case:
1.

Provide aid to the injured and summons
emergency services as appropriate

2.

Maintain and protect the crime scene to
ensure that evidence is not lost or contaminated

162a
3.

Observe and record all conditions, events
and remarks

4.

Determine if an offense has actually been
committed and, if so, the exact nature of
the offense

5.

Notify supervisor of major crimes that
may require C.I.D. or extensive patrol response, or attract community or media attention

6.

Determine the identity of the suspect(s)
and effect an arrest if it can be accomplished either at the scene or through immediate pursuit

7.

Notify the Emergency Communications
Center of descriptions of suspect persons
and/or vehicles, direction of travel and
other relevant information pertaining to
the incident for dissemination to other
patrol units and agencies as appropriate

8.

Locate and obtain complete identification
of all victims and witnesses

9.

Interview the victim(s) and witnesses to
obtain as much information as possible
about the event and potential suspects

10. Arrange for the collection of evidence and
crime scene processing
11. Interview and obtain statements from
the suspect(s) if such statements can be
obtained legally

163a
12. Accurately and completely record all pertinent information on appropriate report
forms in accordance with LCSO General
Order 413.3
13. Make appropriate NCIC/VCIN entries
and clearances if applicable
14. Brief detectives who may assume the follow-up investigation responsibility as to
pertinent information concerning the incident if appropriate
2.

Follow-up Investigations:

The follow-up investigation should be an extension of
the activities of the preliminary investigation and not
a repetition of it. The purpose of the follow-up investigation in a non-criminal case is to gather additional
information or to carry out actions that will lead to closure of the case. In a criminal case, the purpose of the
follow-up investigation is to gather additional evidence
and information to prove the elements of a particular
crime in order to effect an arrest and support prosecution of the perpetrator and/or to recover stolen property.
...
a.

...

The divisional responsibility to conduct follow-up investigations will normally be determined by the class/nature of the offense as
follows:

164a
1.

Criminal Investigation Division Followup:

a.

Criminal Investigation Division personnel will generally be responsible for follow-up investigation of the below listed
categories of offenses, including attempts
except as indicated in section “a” above.
Abduction, Abortion, Arson, Auto theft,
Bigamy and Polygamy, Blackmail and Extortion, Bomb Violations, Bribery, Computer Crimes, Credit Card Offenses,
Embezzlement, Forgery and Counterfeiting, Fraud, Homicide, Kidnapping, Malicious Wounding (unsolved and/or where
death is possible), Medical Examiner
Cases (excluding traffic-related deaths),
Missing persons (including juveniles),
Rape, Robbery, Runaway, Sex Offenses,
Suicides attempts where there is a likelihood of death.

b.

In extenuating circumstances at the discretion of the Sheriff, Chief Deputy or
Criminal Investigation Division Commander, the following offenses could be
assigned for follow-up by CID:

Those cases could include but are not limited to: Telephone calls (obscene and threatening), Weapons offenses, Accidental overdose and injuries, suspicious
circumstances, persons, and vehicles, or any other
criminal cases designated by the Sheriff, Chief Deputy
or CID Commander requiring CID resources or expertise.

165a
c.

Deputies assigned the responsibility of investigative follow-up in criminal cases shall, at a
minimum, take the following action:

1.

Review and analyze reports of preliminary investigations

2.

Record information obtained during follow-up
investigation

3.

Review agency records for investigative leads

4.

Seek additional information (from uniform
deputies, informants, contacts in community,
other investigators/ agencies, etc.)

5.

Interview victims and witnesses

6.

Interrogate suspects

7.

Arrange for the dissemination of information
as appropriate. (Teletypes, roll call, lookouts
etc.)

8.

Plan, organize and conduct searches

9.

Collect and preserve physical evidence

10. Recover stolen property
11. Arrange for the analysis and evaluation of evidence
12. Review results from laboratory examinations
13. Identify and apprehend the perpetrator(s)
14. Check for suspect(s) criminal history,
15. Determine if the suspect may have committed
other crimes

166a
16. Determine if suspect/perpetrator meets Career Criminal criteria
17. Consult with the Commonwealth Attorney’s
Office in preparing cases for court presentation and assisting in the prosecution thereof
18. Attendance to testify in court
...
B.

Investigative Techniques and Resources:
The successful investigation of criminal and noncriminal cases involves the application of a variety
of techniques and the utilization of many sources
of information. The following is a list of several of
the areas of utmost importance to Deputies conducting investigations. The list is by no means allinclusive and deputies are encouraged to be innovative and persistent in their investigative duties.
1.

Information Development

The development of pertinent case information begins when a call for Sheriff ’s Office assistance is
received, and continues until the case is cleared or
suspended. Obtaining and recording even apparently minor information is often crucial to the successful conclusion of a case.
a.

Sources of agency information that are valuable and should be utilized as needed include:
1.

Agency master file

2.

Arrest records

3.

Traffic and accident reports

167a

b.

4.

Field observation reports

5.

Identification Unit photos and fingerprint
records

6.

Offender Management System

7.

Licensing Office records

8.

Informant file

Outside agency information that can be valuable in an investigation and should be utilized
when appropriate. Such information includes:
1.

VCIN/NCIC Criminal History Records
Information (CHRI)

2.

DMV records

3.

Probation and parole records

4.

Local and federal agencies records

5.

Court records

6.

Tax records

7.

Licensing Unit’s records

8.

Welfare and social service agency records

9.

Board of Education records

10. Real Estate records
11. Post Office records
c.

Private organizations and agencies can also
provide information valuable to investigations. Court orders may be necessary to obtain

168a
certain records. Such sources of information
include:

d.

1.

Utility companies

2.

Telephone companies

3.

Banks and credit agencies

4.

Unions and professional agencies

5.

Insurance companies

6.

Neighbors, social contacts, and business
associates

Use of informants
All deputies are responsible for developing
sources of information that will assist them in
their follow-up investigations. Information
that is obtained that relates to specific crimes
being investigated by other deputies or investigators should be brought to the attention of
those persons.
Information is available from many sources,
e.g. concerned citizens who wish to remain
anonymous, criminals who have firsthand
knowledge of illegal activity, and relatives or
friends of those involved in criminal enterprises. These sources should be kept in mind
when conducting investigations and related
interviews. Deputies are cautioned to determine the motivation of individuals who provide information in order to help evaluate
that information.

169a
When informants are used to contribute to the
solution of a case and their identity is to be
protected, the Deputy involved shall notify
the Supervisor of the Tactical Enforcement
Unit, CID in order that the proper documentation and precautions may be taken. Informant processing and handling shall be in
accordance with LCSO General Order 409.4.
Confidentiality must be maintained and deputies will refrain from discussing informants,
information provided, or cases they are involved in when inappropriate.
2.

Interviews and Interrogations

The effective use of field interviews, interviews of victims and witnesses, and interrogations of suspects are
often crucial in solving many types of crimes.
a.

Field interviews

i. Field interviews are a productive tool and
source of information for the Sheriff ’s Office.
However, they should only be used in the pursuit of legitimate law enforcement goals and
not to harass any segment of the community.
When used properly, they can discourage
criminal activity, identify suspects and add intelligence information to the files of known
criminals.
ii. Field interviews should be conducted and
recorded in all situations where:

170a
a.

Subject’s actions are unusual or suspicious

b.

Subject and/or vehicle does not fit
area

c.

Subject’s actions are not consistent
with time of day and/or area

d.

Other articulable circumstances
which arouse suspicion

iii. A written record should be made on an
IBR. Full information should be recorded
on the suspect, vehicle and behavior/
circumstances observed. It will not always be
possible to personally interview the person exhibiting the suspicious behavior and/or
sighted in an unusual location. In such situations, as much information as possible should
be recorded for intelligence purposes.
C.

Victim/Witness Interviews
1.

Detailed notes and/or a recording should be
made for future reference giving time, date, location, deputies present, etc.

2.

The trauma/stress to which the victim or witness has been subjected should be considered
and the interview conducted in such a manner
as to reduce stress and minimize further problems

3.

The age, physical limitations, and credibility
of witnesses should also be considered

171a
D. Interrogation of Suspects
In the interrogation of suspects, deputies should
consider these important points:
1.

Interrogations to obtain investigative leads
can be very useful, but all constitutional precautions must be taken and recorded if the interrogation is to be used in court later

2.

Detailed notes and/or a recording should be
made for future reference and court use giving
time, date, location, deputies present, waiver
of rights, time interrogation ended, etc.

3.

Statements obtained during an interrogation
must not be based on coercion, promises, delays in arraignment, or deprivation of counsel

4.

In order to use a statement in court, a suspect
should be advised of their “Miranda” constitutional rights and the deputy must be able to
demonstrate that the suspect understood
those rights and made a knowing and intelligent waiver of those rights
a.

5.

Deputies should assure that hearing impaired and/or non-English speaking
persons understand their rights under
the Constitution. Qualified interpreters
should be used whenever Constitutional
issues become apparent to deputies who
are confronted with hearing impaired
and/or non-English speaking persons.

Juvenile victims, witnesses, and suspects
must be given the same constitutional

172a
protection as adults. The following additional
safeguards should be followed:
a.

Parents or guardians should be notified
whenever a juvenile is interrogated,
taken into custody, or charged

b.

The number of deputies engaged in the
interrogation and its duration should be
kept to a minimum

c.

A brief explanation of the Juvenile Justice System and Agency procedures
should be provided

d.

Deputies should remember that by using
innovative, yet proper methods, much
valuable evidence could be obtained from
victims, witnesses, and suspects. A flexible and effective interview and interrogation technique can obtain valuable
evidence that might otherwise be lost.

E. Collection, Preservation, and Use of Physical Evidence
Deputies must realize that physical evidence
is of major importance in all cases, particularly those without witnesses. The successful
prosecution of a case often hinges on the quality of the physical evidence collected and preserved.
1.

All deputies are responsible for the
preservation of evidence and for maintaining and documenting the chain of
custody of all evidence that is in their custody.

173a
2.

F.

Most evidence collection will be handled
by the Crime Scene Unit who are trained
in evidence processing.

Surveillance
Stakeout and surveillance operations are valuable
investigative tools available to deputies. Such
methods are very often the only ones available to
identify suspects, vehicles, and locations of criminal activity. Since surveillance and stakeout operations generally involve the commitment of
significant manpower and other resources, all
such operations shall be coordinated through the
Supervisor of the Tactical Enforcement Unit in accordance with LCSO General Order 409.4.
...

H. Background Investigations (criminal cases)
...
2.

Prior to beginning a complete background investigation on any person in a criminal case,
the purpose of such an inquiry should be
clearly identified and approved by the appropriate section supervisor in CID. . . .

3.

In conducting background investigations on
criminal targets, deputies are encouraged to
be innovative and resourceful in searching for
and collecting pertinent information. While
information may come from virtually any
source, the following should be considered
routinely:

174a
a.

Court records

b.

Bank and credit agency records

c.

Telephone/utility Company records

d.

Internet/Social Media sites

e.

School records

f.

Military records

g.

Business/professional licensing agencies’
records

h.

FBI and police records

i.

DMV files

J.

Employers (past/present)

k.

Mortgage and rental agency records

l.

Friends and associates (if appropriate)

LOUDOUN COUNTY HUMAN RESOURCES HANDBOOK
Chapter 1
General Principles and Governing Policies
(Excerpts)
Purpose and Intent
Purpose: These Loudoun County policies and regulations ensure a system of personnel management
based on merit principles and objective procedures for
recruiting, classifying, appointing, promoting, transferring, training, disciplining, filing grievances, implementing reductions-in-force and other aspects of
County employment.

175a
Intent: These policies and regulations are intended to be in compliance with all applicable Federal
and State laws and regulations.
1.1 Authority
The Board of Supervisors establishes personnel
policies for all employees and volunteers under its supervision and control. The Chairman of the Board of
Supervisors on behalf of the corporate board provides
direction to the County Administrator and other employees who are assistants to the Board of Supervisors.
1.2 Administration and Enforcement
The County Administrator implements and enforces these rules and regulations in adherence to the
purpose and intent of the County’s personnel policies.
. . . The County Administrator establishes procedures
and/or guidelines regarding work activity and record
keeping to ensure equitable and uniform administration and enforcement of these policies.
...
1.4 Scope
...
(B) Employees not under the Board of Supervisors’ control and supervision, including officers and
employees of Constitutional Officers, are not covered
by this policy and these regulations except by agreement between the department/agency director, supervisor, or Constitutional Officer and the Board of

176a
Supervisors. The County Administrator may act as the
Board of Supervisors’ agent in negotiating and executing such agreement(s).
1.5 Merit Principles
The County’s personnel policies and procedures
will be consistent with the following merit principles
and are based ont eh Federal Merit System Standards.
...
Merit Principle V: Fair treatment of applicants
and employees in all aspects of personnel management
without regard to race, color, religion, sex, national
origin, age, disability, political affiliation, sexual orientation, gender identity, or other non-merit factors and
with proper regard for their privacy and constitutional
rights as citizens will be assured
Merit Principle VI: Employees will be protected
against coercion for partisan political purposes and
will be prohibited from using their official authority for
the purpose of interfering with or affecting the result
of an election or a nomination for office.

177a
1.6 Equal Employment Opportunity
The Board of Supervisors has . . . declared that the
county does not discriminate against employees or applicants for employment based on political affiliation,
sexual orientation, or gender identity.
...
The County of Loudoun is also committed to
providing a work environment free of any form of retaliation. Retaliation is prohibited within the workplace and is defined as overt or covert acts of reprisal,
interference, restraint, penalty, discrimination, intimidation, or harassment against an individual or group
for lawfully exercising rights under this Equal Employment Opportunity Policy.
Chapter 3
Employee Conduct
(Excerpt)
3.5 Political Activity
Employees have every right to vote as they choose, to
express their opinion, and to join political organizations. County employees have the right to not be forced
to take a political position as a condition of employment due to particular job duties. Nothing contained
in this policy shall be interpreted to apply to duly
elected or appointed constitutional officers.

178a
Participation in political activities is permitted unless:
1.

Such activities take place during assigned
hours, or

2.

Involvement adversely affects the employee’s
ability to do his/her job or adversely affects
the employee’s department.

